<html>
<title> - REAUTHORIZATION OF THE ELEMENTARY AND SECONDARY EDUCATION ACT: CURRENT AND PROSPECTIVE FLEXIBILITY UNDER NO CHILD LEFT BEHIND</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   REAUTHORIZATION OF THE ELEMENTARY
                      AND SECONDARY EDUCATION ACT:
                  CURRENT AND PROSPECTIVE FLEXIBILITY
                       UNDER NO CHILD LEFT BEHIND

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, JUNE 7, 2007

                               __________

                           Serial No. 110-46

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                    U.S. GOVERNMENT PRINTING OFFICE
35-664                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Luis G. Fortuno, Puerto Rico
Linda T. Sanchez, California         Rob Bishop, Utah
John P. Sarbanes, Maryland           Todd Russell Platts, Pennsylvania
Joe Sestak, Pennsylvania             Ric Keller, Florida
David Loebsack, Iowa                 Joe Wilson, South Carolina
Mazie Hirono, Hawaii                 Charles W. Boustany, Jr., 
Phil Hare, Illinois                      Louisiana
Lynn C. Woolsey, California          John R. ``Randy'' Kuhl, Jr., New 
Ruben Hinojosa, Texas                    York
                                     Dean Heller, Nevada


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 7, 2007.....................................     1

Statement of Members:
    Castle, Hon. Michael N., Senior Republican Member, 
      Subcommittee on Early Childhood, Elementary and Secondary 
      Education..................................................     3
        Prepared statement of....................................     5
    Hare, Hon. Phil, a Representative in Congress from the State 
      of Illinois, submission for the record:
        Prepared statement of the Coalition Promoting School 
          Success for All Children...............................    20
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     3
        Submissions for the record:
            Prepared statement of Eva L. Baker, distinguished 
              professor, director, UCLA, Center for Research on 
              Evaluation, Standards, and Student Testing (CRESST)     6
            Prepared statement of Linda Darling-Hammond, Charles 
              E. Ducommun professor, Stanford University School 
              of Education.......................................    12

Statement of Witnesses:
    Finn, Chester E., Jr., president, Thomas B. Fordham Institute 
      and chairman, Koret Task Force on K-12 Education, Hoover 
      Institution, Stanford University...........................    43
        Prepared statement of....................................    45
    Jennings, Jack, president, Center on Education Policy........    24
        Prepared statement of....................................    26
    Johnson, Dr. Carol, superintendent of the Memphis City 
      Schools....................................................    37
        Prepared statement of....................................    39
    Melmer, Hon. Rick, South Dakota Secretary of Education.......    29
        Prepared statement of....................................    31
    Straus, Hon. Kathleen N., president, Michigan State Board of 
      Education..................................................    33
        Prepared statement of....................................    35


     REAUTHORIZATION OF THE ELEMENTARY AND SECONDARY EDUCATION ACT:
                  CURRENT AND PROSPECTIVE FLEXIBILITY
                       UNDER NO CHILD LEFT BEHIND

                              ----------                              


                         Thursday, June 7, 2007

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 2:30 p.m., in 
Room 2175, Rayburn House Office Building, Hon. Dale Kildee 
[chairman of the subcommittee] Presiding.
    Present: Representatives Kildee, Kucinich, Davis of 
California, Payne, Sarbanes, Loebsack, Hirono, Hare, Woolsey, 
Castle, Hoekstra, Ehlers, Biggert, Bishop of Utah, Wilson, 
Kuhl, and McKeon.
    Staff Present: Tylease Alli, Hearing Clerk; Alice Cain, 
Senior Education Policy Advisor (K-12); Adrienne Dunbar, 
Legislative Fellow, Education; Lloyd Horwich, Policy Advisor 
for Subcommittee on Early Childhood, Elementary and Secondary 
Education; Lamont Ivey, Staff Assistant, Education; Thomas 
Kiley, Communications Director; Danielle Lee, Press Outreach 
Assistant; Jill Morningstar, Education Policy Advisor; Joe 
Novotny, Chief Clerk; Alex Nock, Deputy Staff Director; Lisette 
Partelow, Staff Assistant, Education; James Bergeron, Minority 
Deputy Director of Education and Human Services Policy; Robert 
Borden, Minority General Counsel; Kathryn Bruns, Minority 
Legislative Assistant; Steve Forde, Minority Communications 
Director; Taylor Hansen, Minority Legislative Assistant; Victor 
Klatt, Minority Staff Director; Chad Miller, Minority 
Professional Staff; Susan Ross, Minority Director of Education 
and Human Services Policy; Linda Stevens, Minority Chief Clerk/
Assistant to the General Counsel; and Cameron Coursen, Minority 
Assistant Communications Director.
    Chairman Kildee. A quorum being present, the hearing of the 
subcommittee will come to order. First of all, I love being in 
the majority, but on a day like this the minority seems rather 
attractive. I have got three things going on and you are one of 
the major ones here, so I literally ran over from the other 
building. Good to see all of you. You are all friends of mine 
and I have known most of you for many, many years and welcome 
you.
    Pursuant to Committee Rule 12(a) any member may submit an 
opening statement in writing which will be made part of the 
permanent record. I would now recognize myself followed by 
Ranking Member Castle for opening statements.
    I am pleased to welcome my fellow subcommittee members, the 
public and our witnesses to this hearing on
    Reauthorization of the Elementary and Secondary Education 
Act. We very often use the term ``expert witnesses.'' today the 
table speaks for itself. We have expert witnesses here today.
    I would like to talk about the current and prospective 
flexibility of No Child Left Behind. This is the eighth hearing 
that this subcommittee has held on No Child Left Behind this 
year. The full committee of course has held many hearings as 
well. I think it is safe to say there is no subject we hear 
more about than flexibility.
    As written, the law provides for certain flexibilities and 
the Department of Education has provided others. But many State 
and local educators have told us that while they strongly 
support the law's goals and the discussion about accountability 
that it has fostered, better flexibility would help them to 
reach those goals. I take their comments very seriously because 
I always have believed that education is a local function, and 
Jack Jennings used to hear me say this all the time years ago, 
a State responsibility but a very important Federal concern.
    As our society and the world have become more mobile and 
more interconnected that national concern has grown. People 
educated in one State wind up in another and we are competing 
in a global economy and education and training will give us the 
edge in that competition. And regardless of where in the United 
States students live, they ultimately will compete with 
students from around the world. But a greater national concern 
does not mean less emphasis on State responsibilities and local 
functions.
    And so I look forward to hearing from our witnesses and how 
flexibility under No Child Left Behind has been implemented and 
how we can improve that flexibility. Their testimony as well as 
the countless conversations that I know each member has had 
with educators and parents in their district and here in 
Washington will play a critical role in the committee's efforts 
to understand how we can best help to provide every student 
with a world class education, a goal we all share.
    I also look forward to hearing from Mr. Jennings about his 
center's recent studies on trends and student achievement since 
No Child Left Behind took effect. The title of that study, 
``Answering the Question That Matters Most, Has Student 
Achievement Increased Since No Child Left Behind,'' is well 
chosen since in the end the point of all this is student 
achievement.
    Of course one factor that has not increased enough under No 
Child Left Behind has been funding. We owe it to our children 
to ensure that their schools have the resources and support to 
provide them with the education they need and deserve. Since 
2002, Congress and the President have underfunded No Child Left 
Behind by $56 billion. And the President's proposed budget for 
2008 would underfund the law by another $15 billion for a total 
of $71 billion. However, I am hopeful that with the changes in 
Washington this year we will start to do better. Our budget 
resolution calls for that.
    But I look forward to continuing to work with my ranking 
member, Mr. Castle, our full committee chairman and ranking 
member, Mr. Miller and Mr. McKeon, and with all the members of 
the committee on a bipartisan reauthorization of No Child Left 
Behind this year. And I yield to my friend and the ranking 
member, Governor Castle.
    [The prepared statement of Mr. Kildee follows:]

 Prepared Statement of Hon. Dale E. Kildee, Chairman, Subcommittee on 
          Early Childhood, Elementary and Secondary Education

    I'm pleased to welcome my fellow subcommittee members, the public, 
and our witnesses, to this hearing on ``Reauthorization of the 
Elementary and Secondary Education Act: Current and Prospective 
Flexibility Under No Child Left Behind.''
    This is the eighth hearing that this subcommittee has held on No 
Child Left Behind this year.
    The full committee, of course, has held many hearings as well.
    And I think it's safe to say that there is no subject we hear more 
about than flexibility.
    As written, the law provides for certain flexibilities, and the 
Department of Education has provided others.
    But, many state and local educators have told us that while they 
strongly support the law's goals and the discussion about 
accountability that it has fostered, better flexibility would help them 
to reach those goals.
    I take their comments very seriously, because I always have 
believed that education is a local function, a state responsibility and 
a national concern.
    As our society and our world have become more mobile and more 
interconnected, that national concern has grown.
    Many students from the home state of each member of this 
subcommittee will one day move to the home states of every other member 
of the subcommittee.
    And regardless of where in the united states students live, they 
ultimately will compete with students from around the world in the 
global economy.
    But, a greater national concern does not mean a lesser emphasis on 
state responsibilities and local functions.
    And so, I look forward to hearing from our witnesses on how 
flexibility under NCLB has been implemented and on how we can improve 
that flexibility.
    Their testimony, as well as the countless conversations that I know 
each member has had with educators and parents in their district and 
here in Washington, will play a critical role in the committee's 
efforts to understand how we can best help to provide every student 
with a world-class education--a goal we all share.
    I also look forward to hearing from Mr. Jennings about his center's 
recent study on trends in student achievement since NCLB took effect.
    The title of that study ``Answering the Question That Matters Most: 
Has Student Achievement Increased Since No Child Left Behind?'' is well 
chosen, since in the end, the point of all this is student achievement.
    Of course, one factor that has not increased enough under No Child 
Left Behind has been funding.
    We owe it to our children to ensure that their schools have the 
resources and support to provide them with the education they need and 
deserve.
    Since 2002, Congress and the President have underfunded No Child 
Left Behind by $56 billion.
    The president's proposed budget for 2008 would underfund the law by 
another $15 billion, for a total of $71 billion.
    However, I am hopeful that with the changes in washington this 
year, we will start to do better.
    But, I look forward to continuing to work together with my ranking 
member, Mr. Castle, our full committee chairman and ranking member, Mr. 
Miller and Mr. McKeon, and with all the members of the committee, on a 
bipartisan reauthorizaton of NCLB this year.
    I now yield to Ranking Member Castle for his opening statement.
                                 ______
                                 
    Mr. Castle. Thank you, Mr. Chairman. I would like to thank 
you for holding today's hearing. As far as your comments and et 
cetera being in the majority and the minority, having a busy 
extremely day myself in the minority, I don't think it makes 
much difference in terms of how busy we are around here. And if 
you want to switch at any time just let me know and we'll try 
to work out political party differences.
    This is the latest in a series of hearings on No Child Left 
Behind. Some of you out in this audience have followed that. 
One thing nobody can ever accuse this committee of is not 
having sufficient hearings on No Child Left Behind. We seem to 
have had them almost on a weekly basis last year and this year 
as we get ready to go up to the reauthorization.
    We obviously welcome all the witnesses here today. I look 
forward to your testimony. No Child Left Behind represents a 
comprehensive overhaul of the Elementary and Secondary 
Education Act and was passed to adjust the achievement gap that 
exists between low income and minority students and their more 
affluent peers.
    Earlier this week the Center on Education Policy released 
the results of a study of trends and State test scores since No 
Child Left Behind became law, and I am pleased to have the 
President of CEP with us today to discuss these findings in 
greater depth because the results are promising. For instance, 
students are doing better on State reading and math tests since 
the No Child Left Behind was enacted. And the greatest is being 
made on elementary school math tests. While these findings are 
encouraging additional flexibility for States in school 
districts which have differing priorities will help a greater 
number of their students reach proficiency.
    Flexibility is already a key element within No Child Left 
Behind. Currently individual States are given the flexibility 
to determine a variety of student achievement factors, 
including the definition of proficiency, the starting point for 
progress measurement and the amount of progress that must be 
made from year to year. States also have the flexibility to 
develop their own tests to determine if existing teachers 
should be deemed highly qualified.
    Additionally, No Child Left Behind includes a number of new 
and existing flexibility provisions that aim to increase the 
ability of States and local school districts to use Federal 
assistance to meet their own priorities, including the 
transferability of Title I funds, school-wide programs to 
improve services to all students and State and local 
flexibility demonstration programs.
    In addition to the valuable information each of our 
witnesses will share with us today about flexibility provisions 
under No Child Left Behind, Mr. McKeon, the senior Republican 
of the full committee recently introduced the State and Local 
Flexibility Improvement Act. This legislation builds upon the 
success of No Child Left Behind by further strengthening 
flexibility under the laws for States and local school 
districts. As an original cosponsor of this legislation, I 
believe this legislation gives States and local school 
districts the freedom to target Federal resources to best serve 
the needs of their students, while maintaining strong 
accountability standards to measure would allow States to waive 
certain statutory or regulatory requirements under law, 
consolidate Federal education programs and use an alternative 
method for making allocations in local school districts instead 
of their current formula if their new proposal targets funds 
more effectively to those areas with high concentrations of low 
income families, measure individual student growth, including 
through well-designed growth models, expand the poverty 
threshold for school-wide programs and most notably allow 
States and school districts to transfer 100 percent of their 
Federal programs within certain programs, up from 50 percent 
under current law, into the Title I program.
    As I said, I believe strongly in No Child Left Behind. The 
importance of closing the achievement gap cannot be overstated 
and I believe Mr. McKeon's bill will help States and local 
school districts close that gap even more quickly. I look 
forward to hearing from today's witnesses about flexibility 
under No Child Left Behind as Congress begins to reauthorize 
this law, and I thank you all very much.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Castle follows:]

Prepared Statement of Hon. Michael N. Castle, Ranking Minority Member, 
  Subcommittee on Early Childhood, Elementary, and Secondary Education

    Good Afternoon. I'd like to thank Chairman Kildee for holding 
today's hearing, the latest in our series of hearings on the No Child 
Left Behind Act. I also would like to welcome our witnesses and thank 
you all for being here to testify today.
    NCLB represents a comprehensive overhaul of the Elementary and 
Secondary Education Act and was passed to address the achievement gap 
that exists between low-income and minority students and their more 
affluent peers.
    Earlier this week, the Center on Education Policy released the 
results of a study of trends in state test scores since NCLB became 
law. I am pleased we have the president of CEP with us today to discuss 
these findings in greater depth because the results are promising. For 
instance:
    <bullet> Students are doing better on state reading and math tests 
since the No Child Left Behind Act was enacted
    <bullet> And the greatest progress is being made on elementary 
school math tests.
    While these findings are encouraging, additional flexibility for 
states and school districts, which have differing priorities, will help 
a greater number of their students reach proficiency.
    Flexibility is already a key element within NCLB. Currently, 
individual states are given the flexibility to determine a variety of 
student achievement factors, including the definition of proficiency, 
the starting point for progress measurement, and the amount of progress 
that must be made from year to year. States also have the flexibility 
to develop their own tests to determine if existing teachers should be 
deemed highly qualified.
    Additionally, NCLB includes a number of new and existing 
flexibility provisions that aim to increase the ability of states and 
local school districts to use federal assistance to meet their own 
priorities including the transferability of Title I funds, school-wide 
programs to improve services to all students, and state and local 
flexibility demonstration programs.
    In addition to the valuable information each of our witnesses will 
share with us today about flexibility provisions under No Child Left 
Behind, Mr. McKeon, the Senior Republican of the Full Committee, 
recently introduced the State and Local Flexibility Improvement Act. 
This legislation builds upon the success of NCLB by further 
strengthening flexibility under the law for states and local school 
districts.
    As an original cosponsor of this legislation, I believe this 
legislation gives states and local school districts the freedom to 
target federal resources to best serve the needs of their students.
    While maintaining strong accountability standards, the measure 
would:
    <bullet> Allow states to waive certain statutory or regulatory 
requirements under law, consolidate federal education programs, and use 
an alternative method for making allocations to local school districts 
instead of their current formula if their new proposal targets funds 
more effectively to those areas with high concentrations of low-income 
families;
    <bullet> Measure individual student growth, including through well-
designed growth models;
    <bullet> Expand the poverty threshold for school-wide programs; and
    <bullet> Most notably, allow states and school districts to 
transfer 100 percent of their federal funds within certain programs, up 
from 50 percent under current law, into the Title I program
    As I have said, I believe strongly in No Child Left Behind. The 
importance of closing the achievement gap cannot be overstated, and I 
believe Mr. McKeon's bill will help states and local school districts 
close that gap even more quickly. I look forward to hearing from 
today's witnesses about flexibility under NCLB as Congress begins to 
reauthorize this law.
    Thank you.
                                 ______
                                 
    Chairman Kildee. Thank you, Governor. Without objection, 
all members will have 7 calendar days to submit additional 
materials or questions for the hearing record.
    [The prepared statement of Eva L. Baker, submitted by Mr. 
Kildee, follows:]

Prepared Statement of Eva L. Baker, Distinguished Professor, Director, 
UCLA, Center for Research on Evaluation, Standards, and Student Testing 
                                (CRESST)

    I thank Chairman Miller for the opportunity to provide testimony.
    Below is a summary of the main ideas of testimony related to No 
Child Left Behind*
---------------------------------------------------------------------------
    *Note: In the interest of brevity, I will not discuss aspects of 
the legislation that may be regarded as positive and rather focus on 
areas that I believe need attention. I attach a draft of my AERA 
presidential address, which spells out a justification for my 
recommendations. Because the presentation is intended to be oral, it 
does not contain the research citations you may want. If you desire 
citations, I can provide them upon my return to Los Angeles the week of 
April 15.
---------------------------------------------------------------------------
    1. Reduce the number of subject matter tests required, keeping the 
focus on elementary education.
    2. If multiple measures are to be used, involving student 
performance, consider they are compensatory rather than conjunctive use 
in elementary school, so they do not add risk to schools AYP.
    3. Provide incentives for States to develop and use valid tests 
that assess students' ability to transfer and apply knowledge. 
Encourage flexibility to determine the relative value that should be 
accorded broadly sampled knowledge compared to evidence of depth of 
study.
    4. Consider multiple studies of the validity of measures now in 
use, sampling over States.
    5. Provide incentives for States to experiment and validate 
``opportunity to learn'' in classroom practice, to determine the 
breadth and range of teaching.
    6. Conduct validity studies related to the performance and types of 
instruction experienced by groups such as English learners and low 
scorers on State Examinations.
    7. Change achievement criteria for secondary school by immediately 
authorizing the use of qualifications for students to be completed by 
their graduation. These qualifications are not single tests, but 
provide integrated choices for students to acquire and demonstrate 
expertise in subject matter, in tasks related to societal needs, e.g., 
environmental studies, or in topics such as the performing arts. 
Qualifications may be relevant to future work or postsecondary study 
but not restricted to them. They must count in accountability formulae. 
(Note that excellent examples may be seen in Web sites of education 
ministries in other countries, for instance, in the New Zealand system: 
See http://www.nzqa.govt.nz/qualifications/index.html)
    8. Revise the Adequate Yearly Progress requirements to permit more 
flexibility. Flexibility may be attained by recording performance on 
subsets of examinations, that could be taken at various times during 
the year, by considering periods longer than a year or two for the 
computation of sanction-related AYP performance, and by reducing the 
artifacts (such as number of groups) that influence AYP.
    Take a moment and consider the following question. What needs to 
change in your life? I have a confession to make. You may be surprised 
to learn that I want a life with more balance. Over the years, I've 
asked many AERA members to name a professional who lives a balanced 
life and always with the same result. Long stares and no names. For 
most of us, however, balance is victim of competing values, looming 
obligations, unfulfilled ambitions, and in my case, wearable media. I 
think it no accident that balance is a metaphor for justice. The lack 
of balance takes different forms but is found across the entire 
economic spectrum--for all groups and all kinds of people--for the old, 
for the young, and relevant here, for those in schools.
    In particular, U.S. adults consistently report in surveys that 
their lives are out of whack. I think we have inadvertently projected 
this imbalance onto the lives of schools.
    So this talk--The End(s) of Testing--is about balance--what we have 
now, and ways to move to a new equilibrium--where we reconnect 
achievement to learning, equity to more than equal test scores, and 
students to their own paths. With advance apologies, I'll use a few 
examples from other countries and liberally incorporate ideas from 
research here and around the world, without oral citation because of 
time.
    Consider Jerome Bruner's statement ``Life in culture is, then, an 
interplay between the versions of the world that people form under its 
institutional sway and the versions of it that are products of their 
individual histories.'' Accountability tests have swung education 
strongly toward institutional goals and away from those of the 
individual. We need common goals and measures to identify and fix 
inadequacies and inequities. But these accountability indicators have 
dramatic effects on teaching and learning. Cramped by requirements, we 
harden instruction, drop electives, and shorten time for in-depth 
engagement. Students' voices and choices are fainter. Since the world 
is flat in testing, too, test results everywhere strongly affect 
classroom realities and public perceptions of learning and schooling.
    Balance is a goal, and a fundamental design principle essential to 
quality itself. Balance invariably involves trade-offs, so what do we 
give up to gain educational balance? Let's start with what we have.
On Current Standards and Accountability Measures
    Daily, or more often, researchers and education writers bemoan the 
technical shortfalls of tests now used in accountability, contending 
that the content of these tests is off, their sampling is odd, and deep 
cognition is lost. Nor do the institutional tests seem to matter much 
to students. I add to that litany that these tests virtually ignore 
learning research and transfer of knowledge, that is, the application 
of learning to something other than to another test. Tests only dimly 
reflect in their design the results of research on learning, either of 
skills, subject matter, or problem solving. These test properties 
matter to researchers, but rarely to others. Many professionals, and I 
would guess, most of the public, don't make fine distinctions. They see 
tests on the same topic as interchangeable, and a high score on any 
test as sufficient evidence of learning.
    To my mind, the evidential disconnect between test design and 
learning research is no small thing. Think about it. It means, at 
worst, the tests may not actually be measuring the learning for which 
schools are responsible, thus gutting the basic tenet of the 
accountability compact. So set aside learning-based design, and ask, 
``How well do any of our external tests work?'' The answer is that we 
often don't know enough to know. We have little evidence that tests are 
in synch with their stated or de facto purposes, or that their results 
lead to appropriate decisions. In other words, we act as if tests were 
valid, in the face of weak or limited evidence. Notwithstanding, we 
make heavy and far-reaching decisions about schools and students, talk 
about gaps, and applaud progress. This excitement takes place with only 
fragments of evidence called for by the Test Standards of AERA, NCME, 
and APA. Educational researchers conduct validity studies, when 
possible, and have called for high-quality, evidence-based tests for 
years. We know the importance of right inferences by teachers, 
administrators, and the government. We should be at least queasy about 
the quality of the interpretations, the meaning of gaps and 
improvement, and the resultant classifications of schools. Yet, test 
validity languishes as a largely unexamined, prior question because of 
inexorable schedules and budget constraints. With tests of uncertain 
validity, adequate yearly progress (AYP), value-added, or other growth 
modeling analyses will have limited meaning in accountability 
interpretations.
    So how did we get here? The wave of U.S. reform was stimulated, in 
part, by lackluster performance on international comparisons more than 
two decades ago. Not surprisingly the reform plan was to follow the 
international lead and design a quasi-national system of standards and 
assessments. Despite awareness of huge differences in context and 
traditions (our 50-State autonomy in education, distributed curricula, 
independent teacher education institutions, and waning respect for 
those working in education), sets of State and Federal legislation 
enabled state standards and related tests.
    We see once more how tests exert power. Research in both schools 
and laboratories shows that testing improves learning of what is 
tested, even in the absence of feedback, and that with feedback, 
learning improves more. When results are linked to sanctions, teaching 
moves to conform to the content boundaries of the tests. Because topics 
on tests are represented inequitably, to avoid sanctions it is 
efficient to practice TEST-LIKE items. Practice them a lot. Dan Koretz 
calls this score inflation. You may call it smart. In either case, it 
is likely that test-specific content and formats are learned through 
test practice at the expense of the intended content and skill domains 
promised by standards. But some learning takes place. Now a new kind of 
test anxiety uses up all the instructional oxygen in the classroom.
Coping Strategies and ``Accountabalism''
    While accepting the importance of accountability, educators in the 
U.S. and internationally have anticipated negative consequences of 
hyper test consciousness. David Weinberger, in the Harvard Business 
Review, describes a process called ``Accountabalism'' (think of 
Hannibal Lector with a checklist). Weinberger illustrates the 
consequences of a repair mentality that deals serially with each 
successive difficulty in accountability systems as if we could perfect 
the system. Although not focused on schools, his analysis of 
accountability suggests that a chronological, piecemeal fix does really 
not improve systems. Over time, repeated patching and spackling 
consumes all remaining flexibility. Sound familiar?
Mitigations
    In attempting to head off some of the negative side effects of 
accountability while still accepting its value, educators advocate six 
tactics. The first tactic is to add more or different measures or 
indictors to accountability, in shorthand, to use ``multiple measures'' 
(although the original intent of the term was to allow students 
different ways to show their competence). One approach adds a periodic 
test, say, of history, with rotating content to the system, to be 
incorporated into the accountability calculation.
    A second type calls for measures of opportunity to learn or OTL as 
part of accountability models. OTL was early thought of as a check both 
on the fair access to test-relevant instruction and as a shield to 
protect non-tested content and activities, such as different courses. 
Scalable, valid methods for routinely assessing inside-the-classroom 
OTL remain an ongoing research quest. When there are efficient, 
replicable, and valid procedures for its measurement, the role of OTL 
is clear in accountability.
    ``Having tests worth teaching to,'' despite its grammatical 
failure, is the mantra of the third approach, performance assessment. 
Change the test and legitimate test preparation. Serve good rather than 
evil. Performance assessment calls for multi-stepped activities, 
usually imbued with some realism. More significantly, performance 
assessment design originally reflected research from teaching, from 
cognitive psychology, and from subject matter learning. In its heyday, 
models from abroad were emulated, and tasks were sometimes directly 
copied. After handsome financial support, popularity waned and only 
vestiges of performance assessment, such as written composition, can be 
found on mandated tests--and in higher education. Why the demise? The 
list includes lack of political acceptance and structural integration, 
feasibility, technical quality, struggles in longitudinal use, 
credibility (because of overselling), and cost.
    These three examples of multiple measures, unless done wisely, 
offer schools the scary option of more ways to fail.
    A fourth and currently ``hot'' mitigating tactic is formative 
assessment. Assessment to support learning has been continuously in 
play since writing by Vygotsky, Skinner, and Lindquist, and before. 
Black and Wiliam, James, and Heritage, all from abroad, by the way, now 
invoke a process where teachers ask penetrating questions, pinpoint 
errors, give insightful and timely feedback, and use innovative 
teaching to help students. Not surprisingly, has been the entry of 
commercially supplied benchmark or interim tests are in use, carrying 
the rationale for formative assessment, if not its spirit. For use at 
intervals during instruction, interim or benchmark tests give previews 
of coming results, based on test segments similar to the main 
assessment. The validity of these measures is rarely cited, other than 
similar items predict results on similar items. Although, their results 
are intended to influence teaching, because of strict instructional 
pacing, some teachers have little or no time to use these interim 
results and must move on. Even with adequate time, teachers need 
expertise in their subject matter understanding of their students, and 
fluency in alternate ways of teaching. Teachers with these skills are 
in short supply where they are needed most.
    A fifth tactic limits the number of standards to be tested by 
setting clear priorities. A less-is-more stance. The Commission on 
Instructionally-Supportive Testing, prepared a report arguing that 
fewer, but more powerful standards will lead to valid measurement, more 
coherent teaching, and deeper student learning. Their proposal directly 
confronts the political bargains that underlie expansive lists of 
standards.
    A sixth approach is technology, and it is my favorite. I'm the one, 
after all, with a Blackberry and a Treo, waiting anxiously for the 
iPhone, to complement my 4 iPods, 5 computers, and the Slingshot TiVo. 
Intelligent tutoring systems show us how to link assessment and 
learning models. Yet, technology-linked tests have not yet stepped up 
to early expectations. In large-scale testing, they serve efficiency 
without capitalizing on their potential to leverage higher fidelity 
experience (like simulations), or exploit students' ease with 
technology.
    As a way forward to revitalize performance assessment, technology 
offers some hope to find more effective ways to assess validity with 
regard to learning, and to reduce the cost of design and use. There is 
excellent progress in computer scoring of open-ended written responses; 
with optical character reading, students' handwritten work can be 
scanned and directly marked by computer. Speech recognition 
technologies process oral language, so discourse of learners of all 
ages and language backgrounds can be partly analyzed. Expect to see 
more computer games and virtual worlds as assessment contexts, as well 
as assessment embedded in common devices such as cell phones and game 
platforms--first to reduce gaps in computer access, and second to 
leverage motivation with fun and the familiar. A second use of common 
devices is to permit ``anytime, any where'' or ``just-in-time'' 
assessment. To speed and improve assessment design, look to computer-
assisted assessment authoring systems that can improve assessment 
design with built-in knowledge to assist users to make, mark, and 
manage tests.
International Comparisons
    If our showing on international comparisons started us down this 
path, what do recent international tests tell us? The Organisation for 
Economic Co-Operation and Development (OECD) has fielded the Programme 
for International Student Assessment (PISA), examinations that include 
cross-curricula content and the application of cognitive skills, such 
as problem solving. Their results are worth reflection. The vertical 
bars show great performance variation between the best and poorest 
performing students in most countries on some 21st century skills. This 
variation applies almost independently of average score, except for 
size and homogeneity of national populations. Why? Are current 
curricula not sufficiently attuned to future requirements, are students 
not taught to transfer learning, or to apply cognitive skills to new 
situations? Don't all students deserve to learn these skills?
CRESST POWERSOURCE--A U.S.-International Collaboration
    I will now briefly touch on our own integration of a balanced 
formative assessment system, with design based on learning research, 
including schema development, explanation, narrative, and transfer. 
Based on about 40 earlier studies, POWERSOURCE, funded by our 
Institute of Education Sciences (IES) Center award, is our major 
experimental project in middle-school, pre-algebra, and rests on 
multiple interim assessments of problem solving and explanation. 
POWERSOURCE development begins with analyzing cognitive demands, then 
representing the relationship of these intellectual skills in a content 
ontology. The content includes ``big Mathematics ideas,'' the power 
principles, which we construe as schema, to be applied flexibly across 
topic and problem type. The ontology controls sampling and sequence, 
and also serves as a learning performance aid to help teachers and 
students map where they are during instruction. Our assessments are 
based on research by Sweller, Mayer and their colleagues on schema 
acquisition and worked examples, on explanation studies (by Chi and by 
our own team), and on transfer research (by Bjork and Holyoak and 
others). Assessments are embedded in a kid-friendly narrative theme. We 
predict in this 3-year longitudinal study improved teacher content and 
pedagogical knowledge. We expect superior student performance on state 
assessments, and, because of their schema acquisition, higher 
performance on transfer tasks drawn both from the Key Stage 3 maths 
tests in England and from the PISA examination. This experiment is 
being replicated in Korea at that country's own expense, to generate 
comparative information about the use of learning research in designing 
assessment. With POWERSOURCE, we illustrate assessment balance with a 
method that transfers to different subjects and ages of students.
The International Stage of Examinations
    An obvious question given their initial impetus, is how closely do 
U.S. tests resemble examinations from abroad, such as those in New 
Zealand, or Hong Kong, or Finland? The quick answer is they don't, 
despite, in some countries, the use of similar test formats. But 
response format aside, most national testing differs substantially from 
the U.S. versions. These countries make far greater investment in 
integrating curriculum, professional development, and assessment, thus 
removing the need for post hoc rationalization of alignment. Extensive 
care is given to the content of the test questions, and to model 
answers used to guide marking. (Of course, national testing systems are 
themselves subject to continuing and sometimes scathing debate.)
    Visit Web sites of education departments and ministries around the 
world and you will see great variety. Notice the range existing within 
many examination systems. Whether workforce or university paths, 
secondary school students in other countries have many options. They 
select from a wide range of course-based examinations, in some 
countries close to 50 choices. Some options look like the familiar 
Advanced Placement or International Baccalaureate courses; other 
choices encourage high school students to pursue interests unconnected 
to traditional university or work requirements, for instance, in the 
visual and performing arts or environmental studies.
Before the Future
    Before I sketch a way to attain balance for students and schools, 
let's return to current accountability practice. First, the tests--I 
say let's leave them alone. They are resilient, embedded in our 
traditions, and changes to them are always temporary (they snap back 
like a rubber band), with at best trivial residue. To attain better 
balance, I'd have fewer tests, locating them during skill building in 
elementary schools. Even if their numbers were reduced, we still must 
demand studies of validity inferences and the tests' multiple purposes. 
With current accountability systems, in the U.S., I say fix the 
elements of AYP to minimize harm, by considering the raw probabilities 
of failure related to numbers of groups by partitioning of tests into 
passable components, and by aggregating results in larger units than a 
year or two. It is appealing to consider new indicators or multiple 
measures to balance testing, but their integration in accountability 
numbers must avoid artifacts that put schools inappropriately at risk.
Change
    ``The scientific revolution that began 300 years ago has 
accelerated exponentially. It is moving so fast that the spread of 
knowledge defines our times.''
    ``There will be more change in the next ten years than in the 
previous 100 years.''

                                        Fareed Zakaria, 2006, 2007.

    ``640K ought to be enough for anybody.''

                                                  Bill Gates, 1981.

    If our accountability system stays locked on producing only common 
(and needed) achievement, we will continue to open wider the chasm 
between what is sanctioned and what student futures demand. So the 
matter of balance returns. Can we have balance and deal with the 
students we have now, without wishing they were different? We can't 
wait until all high school students have developed proficient language 
skills, attended innovative preschools, or learned number facts from 
amazing third-grade teachers. So here and now, can we offer students 
options better suited to a new and changing work environment, to a life 
in a real-time society with amped-up connectivity? And can we teach 
them in a way that models flexibility and problem solving? Researchers 
Glaser, Simon, O'Neil, and Perez, among others, have listed skill-sets 
for a future brimming with choices and expectations:
    <bullet> Adaptive problem-solving abilities;
    <bullet> Capacity to assess and respond to risk;
    <bullet> Managing distraction, and giving mindful, rotating 
attention to tasks;
    <bullet> Solitary work, with self management;
    <bullet> Changeable roles in real or virtual teams and groups.
    Posit these as a beginning of new 21st century definition of 
educational quality. Start in secondary school where we all have 
unresolved and growing problems. There we should create rapidly a 
system of Qualifications to reflect 21st century needs, to be available 
to all students, whatever their status on standards-based tests. My 
image of a Qualification is validated accomplishment, obtained inside 
or outside of school. A Qualification means just that: at different 
levels of challenge, that a student has attained a certified, trusted 
accomplishment. Warmed-over performance assessment? I think not. Each 
Qualification is not a new test, but an integrated experience with 
performance requirements. It might look like a course, or a collection, 
or a musical or sports performance. Some Qualifications may demand 
shorter, intense involvement like securing a certification in CPR, or 
network management. They come aligned, with integrated goals, tasks, 
learning experiences, criteria and tests. Merit badge metaphors, like 
one proposed many years ago by Al Shanker, may help you get the idea. 
It is a truth in advertising approach; instead of a set of ``scores,'' 
a student possesses demonstrated accomplishments.
    Qualifications seem to have many benefits. They give clear venues 
for high school students to improve skills, apply and adapt knowledge, 
and acquire new learning. They support and credit emerging maturity to 
develop desired personal expertise.
    To presage construction, an ontology of Qualifications will give 
structure to their features. Let me illustrate an ontological dimension 
of Qualifications related to learning. For example, as design criteria, 
each Qualification could represent:
    a. Complex problem solving and reasoning;
    b. Flexibility and adaptive performance;
    c. Rich knowledge base;
    d. Schema or principle learning;
    e. Metacognition and self-monitoring;
    f. Communication, either explanatory or interactive.
    The Qualifications chosen by students should span a range of 
personal goals, and with any luck help them to develop a passion in at 
least one area.
    What could Qualification topics include? Certainly disciplinary 
inquiry, exemplified in different ways, perhaps in science fairs, 
competitions, or projects; then there are the performing or visual 
arts, community service, healthcare, interning in business, 
environmental studies, teaching the young, mentoring peers, and helping 
the old.
    Who will offer these options? Some may be available in high 
schools, in afterschool programs, in community colleges, or in 
universities. I expect that the Web delivery, with its entrepreneurial 
brainpower and finance will be a powerful and welcome source of 
creative Qualifications. Public and private spaces, such as museums, 
businesses, government, advocacy, private and service organizations, 
can help too.
    How to begin? Our international colleagues have wonderful 
Qualifications that we can adapt. If we want to take this reform path, 
it will be a national challenge of commitment. At the very least, the 
expectations and rhythms of secondary school will change. Although 
Qualifications will need to be understood, energized and partly managed 
by teachers, expertise outside of school will matter, too.
    Is this rebalancing of secondary school curricula feasible? Yes, if 
four benchmarks are met within a reasonable time.
    First, the framework(s) for these Qualifications must reside in one 
or more politically credible national or State organizations. Achieve, 
Inc. has a great start in its American Diploma Project with more than 
half of the states participating. Or see the State Department of 
Instruction in North Carolina for another example. Benchmark 2 is 
quality control. What evidence of quality is needed for a 
Qualifications adoption? Forms of evidence could include empirical 
comparisons or expert judgment.
    Benchmark 3, acceptance by business and universities in their 
selection processes, is essential for the Qualifications to matter to 
students. Benchmark 4, and of extraordinary importance, is that 
Qualifications be made a part of State and Federal accountability 
systems and linked to other politically powerful structures. With that 
role, we need protections against phony performance, plagiarism, and 
overzealous parental help.
    How fast? As a lover of 10-year funded research grants, I'm sorry 
to say our timelines in this area must be unusually brief. No years of 
trials and pilots, but concurrent validity studies. By starting with 
examples and data from other countries or adopting existing 
Qualifications from our own business and arts sectors, we can have a 
pool of 40 Qualifications available by 2008, but only as a start. We 
should use systematic R&D models from other national ventures and 
invest in parallel development of Qualifications in different areas. 
The federal government, along with the private sector, can be a 
financial catalyst. A modified NCLB should phase in Qualifications NOW.
    Unless we begin right now to fix educational balance, with a strong 
focus on secondary schools, we will have stark questions to answer. Who 
decided to triage large numbers, and particular groups of secondary 
school students? Why don't we care that many will not find a life of 
contribution and meaning? A goal of balance in the revitalization of 
secondary schooling will develop generations of students to be far 
better prepared than we are.
Research Agenda
    The research agenda is long, and at this hour our attention is 
short (I'll make a complete list in the written version of the paper). 
Yet, opportunities traverse theories of learning and validity, 
explorations of equity, individual and group differences, definitions 
of adaptability, studies of transfer within and across fields, 
expertise, narrative, efficacy, self-management, and motivation. For 
both students and teachers. We can look at second or third chances, 
mobilizing community and business interests, and of course, cost.
    So to return to the beginning, can we find ways to get balance into 
the schools and promote a different quality of learning--within the 
essential framework of accountability? Can we take on the high school 
substantively? Let's cross over to a new path, built on previous 
research, and reinvest in learning, where accomplishments come with 
validity, and the balance is redressed between what we think high 
school students need and what they think they need. The paths of 
Qualifications shift attention from school work to usable and 
compelling skills, from school life to real life. With pride our 
students can assemble their unique collection of Qualifications, to 
show to their families, adults in university and workforce, and to 
themselves. With collaboration of both the international community and 
our own communities, we can enable education to prepare our students 
far better for the future. As you know, when we are balanced, each of 
us is able to move easily in a range of directions. So with balance, 
and help from the world community, our students succeed, and fulfill 
their not yet imagined dreams.
                                 ______
                                 
    [The prepared statement of Linda Darling-Hammond, submitted 
by Mr. Kildee, follows:]

   Prepared Statement of Linda Darling-Hammond, Charles E. Ducommun 
           Professor, Stanford University School of Education

    I thank Chairman Miller and the members of the Committee for the 
opportunity to offer testimony on the re-authorization of ESEA, in 
particular the ways in which we measure and encourage school progress 
and improvement. My perspective on these issues is informed by my 
research, my work with states and national organizations on standards 
development, and my work with local schools. I have studied the 
implementation of No Child Left Behind,\1\ as well as testing and 
accountability systems within the United States and abroad.\2\ I have 
also served as past Chair of the New York State Council on Curriculum 
and Assessment and of the Chief State School Officers' INTASC Standards 
Development Committee. I work closely with a number of school districts 
and local schools on education improvement efforts, including several 
new urban high schools that I have helped to launch. Thus, I have 
encountered the issues of school improvement from both a system-wide 
and local school vantage point.
    I am hopeful that this re-authorization can build on the strengths 
and opportunities offered by No Child Left Behind, while addressing 
needs that have emerged during the first years of the law's 
implementation. Among the strengths of the law is its focus on 
improving the academic achievement of all students, which triggers 
attention to school performance and to the needs of students who have 
been underserved, and its insistence that all students are entitled to 
qualified teachers, which has stimulated recruitment efforts in states 
where many disadvantaged students previously lacked this key resource 
for learning.
    The law has succeeded in getting states, districts, and local 
schools to pay attention to achievement. The next important step is to 
ensure that the range of things schools and states pay attention to 
actually helps them improve both the quality of education they offer to 
every student and the quality of the overall schooling enterprise. In 
order to accomplish this, I would ask you to actively encourage states 
to:
    <bullet> Develop accountability systems that use multiple measures 
of learning and other important aspects of school performance in 
evaluating school progress;
    <bullet> Differentiate school improvement strategies for schools 
based on a comprehensive analysis of their instructional quality and 
conditions for learning.
Why Use Multiple Measures?
    There are at least three reasons to gauge student and school 
progress based on multiple measures of learning and school performance:
    <bullet> To direct schools' attention and effort to the range of 
measures that are associated with high-quality education and 
improvement;
    <bullet> To avoid dysfunctional consequences that can encourage 
schools, districts, or states to emphasize one important outcome at the 
expense of another; for example, focusing on a narrow set of skills at 
the expense of others that are equally critical, or boosting test 
scores by excluding students from school; and
    <bullet> To capture an adequate and accurate picture of student 
learning and attainment that both measures and promotes the kinds of 
outcomes we need from schools.
Directing Attention to Measures Associated with School Quality
    One of the central concepts of NCLB's approach is that schools and 
systems will organize their efforts around the measures for which they 
are held accountable. Because attending to any one measure can be both 
partial and problematic, the concept of multiple measures is routinely 
used by policymakers to make critical decisions about such matters as 
employment and economic forecasting (for example, the Dow Jones Index 
or the GNP) and admission to college, where grades, essays, activities, 
and accomplishments are considered along with test scores.
    Successful businesses use a ``dashboard'' set of indicators to 
evaluate their health and progress, aware that no single indicator is 
sufficient to understand or guide their operations. This approach is 
designed to focus attention on those aspects of the business that 
describe elements of the business's current health and future 
prospects, and to provide information that employees can act on in 
areas that make a difference for improvement. So, for example, a 
balanced scorecard is likely to include among its financial indicators 
not only a statement of profits, but also cash flow, dividends, costs 
and accounts receivable, assets, inventory, and so on. Business leaders 
understand that efforts to maximize profits alone could lead to 
behaviors that undermine the long-term health of the enterprise.
    Similarly, a single measure approach in education creates some 
unintended negative consequences and fails to focus schools on doing 
those things that can improve their long-term health and the education 
of their students. Although No Child Left Behind calls for multiple 
measures of student performance, the implementation of the law has not 
promoted the use of such measures for evaluating school progress. As I 
describe in the next section, the focus on single, often narrow, test 
scores in many states has created unintended negative consequences for 
the nature of teaching and learning, for access to education for the 
most vulnerable students, and for the appropriate identification of 
schools that are in need of improvement.
    A multiple measures approach that incorporates the right 
``dashboard'' of indicators would support a shift toward ``holding 
states and localities accountable for making the systemic changes that 
improve student achievement'' as has been urged by the Forum on 
Education and Accountability. This group of 116 education and civil 
rights organizations--which include the National Urban League, NAACP, 
League of United Latin American Citizens, Aspira, Children's Defense 
Fund, National Alliance of Black School Educators, and Council for 
Exceptional Children, as well as the National School Boards 
Association, National Education Association, and American Association 
of School Administrators--has offered a set of proposals for NCLB that 
would focus schools, districts, and states on developing better 
teaching, a stronger curriculum, and supports for school improvement.
Avoiding Dysfunctional Consequences
    Another reason to use a multiple measures approach is to avoid the 
negative consequences that occur when one measure is used to drive 
organizational behavior.
    The current accountability provisions of the Act, which are focused 
almost exclusively on school average scores on annual tests, actually 
create large incentives for schools to keep students out and to hold 
back or push out students who are not doing well. A number of studies 
have found that systems that reward or sanction schools based on 
average student scores create incentives for pushing low-scorers into 
special education so that their scores won't count in school 
reports,\3\ retaining students in grade so that their grade-level 
scores will look better,\4\ excluding low-scoring students from 
admissions,\5\ and encouraging such students to leave schools or drop 
out.\6\
    Studies in New York,\7\ Texas,\8\ and Massachusetts,\9\ among 
others, have showed how schools have raised their test scores while 
``losing'' large numbers of low-scoring students. For example, a recent 
study in a large Texas city found that student dropouts and push outs 
accounted for most of the gains in high school student test scores, 
especially for minority students. The introduction of a high-stakes 
test linked to school ratings in the 10th grade led to sharp increases 
in 9th grade student retention and student dropout and disappearance. 
Of the large share of students held back in the 9th grade, most of them 
African American and Latino, only 12% ever took the 10th grade test 
that drove school rewards. Schools that retained more students at grade 
9 and lost more through dropouts and disappearances boosted their 
accountability ratings the most. Overall, fewer than half of all 
students who started 9th grade graduated within 5 years, even as test 
scores soared.\10\
    Paradoxically, NCLB's requirement for disaggregating data and 
tracking progress for each subgroup of students increases the 
incentives for eliminating those at the bottom of each subgroup, 
especially where schools have little capacity to improve the quality of 
services such students receive. Table 1 shows how this can happen. At 
``King Middle School,'' average scores increased from the 70th to the 
72nd percentile between the 2002 and 2003 school year, and the 
proportion of students in attendance who met the proficiency standard 
(a score of 65) increased from 66% to 80%--the kind of performance that 
a test-based accountability system would reward. Looking at subgroup 
performance, the proportion of Latino students meeting the standard 
increased from 33% to 50%, a steep increase.
    However, not a single student at King improved his or her score 
between 2002 and 2003. In fact, the scores of every single student in 
the school went down over the course of the year. How could these steep 
improvements in the school's average scores and proficiency rates have 
occurred? A close look at Table 1 shows that the major change between 
the two years was that the lowest-scoring student, Raul, disappeared. 
As has occurred in many states with high stakes-testing programs, 
students who do poorly on the tests--special needs students, new 
English language learners, those with poor attendance, health, or 
family problems--are increasingly likely to be excluded by being 
counseled out, transferred, expelled, or by dropping out.

                               TABLE 1.--KING MIDDLE SCHOOL: REWARDS OR SANCTIONS?
                       The Relationship between Test Score Trends and Student Populations
----------------------------------------------------------------------------------------------------------------
                                                              2002-03                         2003-04
----------------------------------------------------------------------------------------------------------------
Laura...........................................                            100                              90
James...........................................                             90                              80
Felipe..........................................                             80                              70
Kisha...........................................                             70                              65
Jose............................................                             60                              55
Raul............................................                             20   ..............................
----------------------------------------------------------------------------------------------------------------
                                                                Ave. Score = 70                 Ave. Score = 72
                                                       % meeting standard = 66%        % meeting standard = 80%
----------------------------------------------------------------------------------------------------------------

    This kind of result is not limited to education. When one state 
decided to rank cardiac surgeons based on their mortality rates, a 
follow up investigation found that surgeons' ratings went up as they 
stopped taking on high-risk clients. These patients were referred out 
of state if they were wealthy, or were not served, if they were poor.
    The three national professional organizations of measurement 
experts have called attention to such problems in their joint Standards 
for Educational and Psychological Testing, which note that:
    Beyond any intended policy goals, it is important to consider 
potential unintended effects that may result from large-scale testing 
programs. Concerns have been raised, for instance, about narrowing the 
curriculum to focus only on the objectives tested, restricting the 
range of instructional approaches to correspond to the testing format, 
increasing the number of dropouts among students who do not pass the 
test, and encouraging other instructional or administrative practices 
that may raise test scores without affecting the quality of education. 
It is important for those who mandate tests to consider and monitor 
their consequences and to identify and minimize the potential of 
negative consequences.\11\
    Professional testing standards emphasize that no test is 
sufficiently reliable and valid to be the sole source of important 
decisions about student placements, promotions, or graduation, but that 
such decisions should be made on the basis of several different kinds 
of evidence about student learning and performance in the classroom. 
For example, Standard 13.7 states:
    In educational settings, a decision or characterization that will 
have major impact on a student should not be made on the basis of a 
single test score. Other relevant information should be taken into 
account if it will enhance the overall validity of the decision.\12\
    The Psychological Standards for Testing describe several kinds of 
information that should be considered in making judgments about what a 
student knows and can do, including alternative assessments that 
provide other information about performance and evidence from samples 
of school work and other aspects of the school record, such as grades 
and classroom observations. These are particularly important for 
students for whom traditional assessments are not generally valid, such 
as English language learners and special education students. Similarly, 
when evaluating schools, it is important to include measures of student 
progress through school, coursework and grades, and graduation, as part 
of the record about school accomplishments.
Evaluating Learning Well
    Indicators beyond a single test score are important not only for 
reasons of validity and fairness in making decisions, but also to 
assess important skills that most standardized tests do not measure. 
Current accountability reforms are based on the idea that standards can 
serve as a catalyst for states to be explicit about learning goals, and 
the act of measuring progress toward meeting these standards is an 
important force toward developing high levels of achievement for all 
students. However, an on-demand test taken in a limited period of time 
on a single day cannot measure all that is important for students to 
know and be able to do. A credible accountability system must rest on 
assessments that are balanced and comprehensive with respect to state 
standards. Multiple-choice and short-answer tests that are currently 
used to measure standards in many states do not adequately measure the 
complex thinking, communication, and problem solving skills that are 
represented in national and state content standards.
    Research on high-stakes accountability systems shows that, ``what 
is tested is what is taught,'' and those standards that are not 
represented on the high stakes assessment tend to be given short shrift 
in the curriculum.\13\ Students are less likely to engage in extended 
research, writing, complex problem-solving, and experimentation when 
the accountability system emphasizes short-answer responses to 
formulaic problems. These higher order thinking skills are those very 
skills that often are cited as essential to maintaining America's 
competitive edge and necessary for succeeding on the job, in college, 
and in life. As described by Achieve, a national organization of 
governors, business leaders, and education leaders, the problem with 
measures of traditional on-demand tests is that they cannot measure 
many of the skills that matter most for success in the worlds of work 
and higher education:
    States * * * will need to move beyond large-scale assessments 
because, as critical as they are, they cannot measure everything that 
matters in a young person's education. The ability to make effective 
oral arguments and conduct significant research projects are considered 
essential skills by both employers and postsecondary educators, but 
these skills are very difficult to assess on a paper-and pencil 
test.\14\
    One of the reasons that U.S. students fall further and further 
behind their international counterparts as they go through school is 
because of differences in curriculum and assessment systems. 
International studies have found that the U.S. curriculum focuses more 
on superficial coverage of too many topics, without the kinds of in-
depth study, research, and writing needed to secure deep understanding. 
To focus on understanding, the assessment systems used in most high-
achieving countries around the world emphasize essay questions, 
research projects, scientific experiments, oral exhibitions and 
performances that encourage students to master complex skills as they 
apply them in practice, rather than multiple-choice tests.
    As indicators of the growing distance between what our education 
system emphasizes and what leading countries are accomplishing 
educationally, the U.S. currently ranks 28th of 40 countries in the 
world in math achievement--right above Latvia--and 19th of 40 in 
reading achievement on the international PISA tests that measure 
higher-order thinking skills. And while the top-scoring nations--
including previously low-achievers like Finland and South Korea--now 
graduate more than 95% of their students from high school, the U.S. is 
graduating about 75%, a figure that has been stagnant for a quarter 
century and, according to a recent ETS study, is now declining. The 
U.S. has also dropped from 1st in the world in higher education 
participation to 13th, as other countries invest more resources in 
their children's futures.
    Most high-achieving nations' examination systems include multiple 
samples of student learning at the local level as well as the state or 
national level. Students' scores are a composite of their performance 
on examinations they take in different content areas--featuring 
primarily open-ended items that require written responses and problem 
solutions--plus their work on a set of classroom tasks scored by their 
teachers according to a common set of standards. These tasks require 
them to conduct apply knowledge to a range of tasks that represent what 
they need to be able to do in different fields: find and analyze 
information, solve multi-step real-world problems in mathematics, 
develop computer models, demonstrate practical applications of science 
methods, design and conduct investigations and evaluate their results, 
and present and defend their ideas in a variety of ways. Teaching to 
these assessments prepares students for the real expectations of 
college and of highly skilled work.
    These assessments are not used to rank or punish schools, or to 
deny promotion or diplomas to students. In fact, several countries have 
explicit proscriptions against such practices. They are used to 
evaluate curriculum and guide investments in professional learning--in 
short, to help schools improve. By asking students to show what they 
know through real-world applications of knowledge, these nations' 
assessment systems encourage serious intellectual activities on a 
regular basis. The systems not only measure important learning, they 
help teachers learn how to design curriculum and instruction to 
accomplish this learning.
    It is worth noting that a number of states in the U.S. have 
developed similar systems that combine evidence from state and local 
standards-based assessments to ensure that multiple indicators of 
learning are used to make decisions about individual students and, 
sometimes, schools. These include Connecticut, Kentucky, Maine, 
Nebraska, New Hampshire, Oregon, Rhode Island, Pennsylvania, Vermont, 
and Wyoming, among others. However, many of these elements of state 
systems are not currently allowed to be used to gauge school progress 
under NCLB.
    Encouraging these kinds of practices could help improve learning 
and guide schools toward more productive instruction. Studies have 
found that performance assessments that are administered and scored 
locally help teachers better understand students' strengths, needs, and 
approaches to learning, as well as how to meet state standards.\15\ 
Teachers who have been involved in developing and scoring performance 
assessments with other colleagues have reported that the experience was 
extremely valuable in informing their practice. They report changes in 
both the curriculum and their instruction as a result of thinking 
through with colleagues what good student performance looks like and 
how to better support student learning on specific kinds of tasks.
    These goals are not well served by external testing programs that 
send secret, secured tests into the school and whisk them out again for 
machine scoring that produces numerical quotients many months later. 
Local performance assessments provide teachers with much more useful 
classroom information as they engage teachers in evaluating how and 
what students know and can do in authentic situations. These kinds of 
assessment strategies create the possibility that teachers will not 
only teach more challenging performance skills but that they will also 
be able to use the resulting information about student learning to 
modify their teaching to meet the needs of individual students. Schools 
and districts can use these kinds of assessments to develop shared 
expectations and create an engine for school improvement around student 
work.
    Research on the strong gains in achievement shown in Connecticut, 
Kentucky, and Vermont in the 1990s attributed these gains in 
substantial part to these states' performance-based assessment systems, 
which include such local components, and related investments in 
teaching quality.\16\ Other studies in states like California, Maine, 
Maryland, and Washington,\17\ found that teachers assigned more 
ambitious writing and mathematical problem solving, and student 
performance improved, when assessments included extended writing and 
mathematics portfolios and performance tasks. Encouraging these kinds 
of measures of student performance is critical to getting the kind of 
learning we need in schools.
    Not incidentally, more authentic measures of learning that go 
beyond on-demand standardized tests to look directly at performance are 
especially needed to gain accurate measures of achievement for English 
language learners and special needs students for whom traditional tests 
are least likely to provide valid measures of understanding.\18\
What Indicators Might be Used to Gauge School Progress?
    A key issue is what measures should be used to determine Adequate 
Yearly Progress (AYP) or the alternative tools that are used for 
addressing NCLB's primary goals, e.g. assuring high expectations for 
all students, and helping schools address the needs of all students. 
Current AYP measures are too narrow in several respects: They are based 
exclusively on tests which are often not sufficient measures of our 
educational goals; they ignore other equally important student 
outcomes, including staying in school and engaging in rigorous 
coursework; they ignore the growth made by students who are moving 
toward but not yet at a proficiency benchmark, as well as the gains 
made by students who have already passed the proficiency benchmark; and 
they do not provide information or motivation to help schools, 
districts, and states improve critical learning conditions.
    This analysis suggests that school progress should be evaluated on 
multiple measures of student learning--including local and state 
performance assessments that provide evidence about what students can 
actually do with their knowledge--and on indicators of other student 
outcomes, including such factors as student progress and continuation 
through school, graduation, and success in rigorous courses. The 
importance of these indicators is to encourage schools to keep students 
in school and provide them with high-quality learning opportunities--
elements that will improve educational opportunities and attainment, 
not just average test scores.
    To these two categories of indicators, I would add indicators of 
learning conditions that point attention to both learning opportunities 
available to students (e.g. rigorous courses, well-qualified teachers) 
and to how well the school operates. In the business world, these kinds 
of measures are called leading indicators, which represent those things 
that employees can control and improve upon. These typically include 
evidence of customer satisfaction, such as survey data, complaints and 
repeat orders; as well as of employee satisfaction and productivity, 
such as employee turnover, project delays, evidence of quality and 
efficiency in getting work done; reports of work conditions and 
supports, and evidence of product quality.
    Educational versions of these kinds of indicators are available in 
many state accountability systems. For example, State Superintendent 
Peter McWalters noted in his testimony to this committee that Rhode 
Island uses several means to measure school learning conditions. Among 
them is an annual survey to all students, teachers, and parents that 
provides data on ``Learning Support Indicators'' measuring school 
climate, instructional practices, and parental involvement. In 
addition, Rhode Island, like many other states, conducts visits to 
review every school in the state every five years, not unlike the 
Inspectorate system that is used in many other countries. These kinds 
of reviews can examine teaching practices, the availability and 
equitable allocation of school resources, and the quality of the 
curriculum, as it is enacted.
    Ideally, evaluation of school progress would be based on a 
combination of these three kinds of measures and would emphasize gains 
and improvement over time, both for the individual students in the 
school and for the school as a whole. Along with data about student 
characteristics, an indicator system could include:
    <bullet> Measures of student learning: both state tests and local 
assessments, including performance measures that assess higher-order 
thinking skills and understanding, including student work samples, 
projects, exhibitions, or portfolios.
    <bullet> Measures of additional student outcomes: data about 
attendance, student grade-to-grade progress (promotion / retention 
rates) and continuation through school (ongoing enrollment), 
graduation, and course success (e.g. students enrolled in, passing, and 
completing rigorous courses of study).
    <bullet> Measures of learning conditions, data about school 
capacity, such as teacher and other staff quality, availability of 
learning materials, school climate (gauged by students', parents', and 
teachers' responses to surveys), instructional practices, teacher 
development, and parental engagement.
    These elements should be considered in the context of student data, 
including information about student mobility, health, and welfare 
(poverty, homelessness, foster care, health care), as well as language 
background, race / ethnicity, and special learning needs--not a basis 
for accepting differential effort or outcomes, but as a basis for 
providing information needed to interpret and improve schools' 
operations and outcomes.
How Might Indicators be Used to Determine School Progress and 
        Improvement Strategies?
    The rationale for these multiple indicators is to build a more 
powerful engine for educational improvement by understanding what is 
really going on with students and focusing on the elements of the 
system that need to change if learning is to improve. High-performing 
systems need a regular flow of useful information to evaluate and 
modify what they are doing to produce stronger results. State and local 
officials need a range of data to understand what is happening in 
schools and what they should do to improve outcomes. Many problems in 
local schools are constructed or constrained by district and state 
decisions that need to be highlighted along with school-level concerns. 
Similarly, at the school level, teachers and leaders need information 
about how they are doing and how their students are doing, based in 
part on high-quality local assessments that provide rich, timely 
insights about student performance.
    Some states and districts have successfully put some of these 
indicators in place. The federal government could play a leadership 
role by not only encouraging multiple measures for assessing school 
progress and conditions for learning but by providing supports for 
states to build comprehensive databases to track these indicators over 
time, and to support valid, comprehensive information systems at all 
levels.\19\
    If we think comprehensively about the approach to evaluation that 
would encourage fundamental improvements in schools, several goals 
emerge. First, determinations of school progress should reflect an 
analysis of schools' performance and progress along several key 
dimensions. Student learning should be evaluated using multiple 
measures that provide comprehensive and valid information for all 
subpopulations. Targets should be based on sensible goals for student 
learning, examining growth from where students start, setting growth 
targets in relation to that starting point, and pegging ``proficiency'' 
at a level that represents a challenging but realistic standard, 
perhaps at the median of current state proficiency standards. Targets 
should also ensure appropriate assessment for special education 
students and English language learners and credit for the gains these 
students make over time. And analysis of learning conditions including 
the availability of materials, facilities, curriculum opportunities, 
teaching, and leadership should accompany assessments of student 
learning.
    A number of states already have developed comprehensive indicator 
systems that can be sources of such data, and the federal government 
should encourage states to propose different means for how to aggregate 
and combine these data. In addition, many states' existing assessment 
systems already provide different ways to score and combine state 
reference tests with local testing systems, locally administered 
performance tasks (which are often scored using state standards), and 
portfolios.\20\
    For evaluating annual progress, one likely approach would be to use 
an index of indicators, such as California's Academic Performance 
Index, which can include a weighted combination of data about state and 
local tests and assessments as well as other student outcome indicators 
like attendance, graduation, promotion rates, participation and pass 
rates or grades for academic courses. Assessment data from multiple 
sources and evidence of student progression through / graduation from 
school would be required components. Key conditions of learning, such 
as teacher qualifications, might also be required. Other specific 
indicators might be left to states, along with the decision of how much 
weight to give each component, perhaps within certain parameters (for 
example, that at least 50 percent of a weighted index would reflect the 
results of assessment data).
    Within this index, disaggregated data by race/ethnicity and income 
could be monitored on the index score, or on components of the overall 
index, so that they system pays ongoing attention to progress for 
groups of students. Wherever possible these measures should look at 
progress of a constant cohort of students from year to year, so that 
actual gains are observed, rather than changes in averages due to 
changes in the composition of the student population. Furthermore, 
gains for English language learners and special education students 
should be evaluated on a growth model that ensures appropriate testing 
based on professional standards and measures individual student growth 
in relation to student starting points.
    Non-academic measures such as improved learning climate (as 
measured by standard surveys, for example, to allow trend analysis over 
time), instructional capacity (indicators regarding the quality of 
curriculum, teaching, and leadership), resources, and other 
contributors to learning could be included in a separate index on 
Learning Conditions, on which progress is also evaluated annually as 
part of both school, district, and state assessment.
    Once school progress indicators are available, a judgment must be 
made about whether a school has made adequate progress on the index or 
set of indicators. If the law is to focus on supporting improvement it 
will be important to look at continuous progress for all students in a 
school rather than the ``status model'' that has been used in the past. 
A progress model would recognize the reasonable success of schools that 
deserve it. Rather than identifying a school as requiring intervention 
when a single target is missed (for example, if 94% of economically 
disadvantaged students take the mathematics test one year instead of 
95%), a progress model would gauge whether the overall index score 
increases, with the proviso that the progress of key subgroups 
continues to be examined, with lack of progress a flag for 
intervention.
    The additional use of the indicators schools and districts have 
assembled would be in the determination of what kind of action is 
needed if a school does not make sufficient progress in a year. To use 
resources wisely, the law should establish a graduated system of 
classification for schools and districts based on their rate of 
progress, ranging from state review to corrective actions to eventual 
reconstitution if such efforts fail over a period of time. States 
should identify schools and districts as requiring intervention based 
both on information about the overall extent of progress from the prior 
year(s) and on information about specific measures in the system of 
indicators--for example, how many progress indicators have lagged for 
how long. This additional scrutiny would involve a school review by an 
expert team--much like the inspectorate systems in other countries--
that conducts an inspection of the school or LEA and analyzes a range 
of data, including evidence of individual and collective student growth 
or progress on multiple measures; analysis of student needs, mobility, 
and population changes; and evaluation of school practices and 
conditions. Based on the findings of this review, a determination would 
be made about the nature of the problem and the type of school 
improvement plan needed. The law should include the explicit 
expectation that state and district investments in ensuring adequate 
conditions for learning must be part of this plan.
    The overarching goal of the ESEA should be to improve the quality 
of education students receive, especially those traditionally least 
well served by the current system. To accomplish this, the measures 
used to gauge school progress must motivate continuous improvement and 
attend to the range of school outcomes and conditions that are needed 
to ensure that all students are educated to higher levels.

                                ENDNOTES

    \1\ See, e.g. L. Darling-Hammond, No Child Left Behind and High 
School Reform, Harvard Education Review, 76, 4 (Winter 2006), pp. 642-
667. http://www.edreview.org/harvard06/2006/wi06/w06darli.htm
    L. Darling-Hammond, From 'Separate but Equal' to 'No Child Left 
Behind': The Collision of New Standards and Old Inequalities. In 
Deborah Meier and George Wood (eds.), Many Children Left Behind, pp. 3-
32. NY: Beacon Press, 2004.
    \2\ Linda Darling-Hammond, Elle Rustique-Forrester, & Raymond 
Pecheone (2005). Multiple measures approaches to high school 
graduation: A review of state student assessment policies. Stanford, 
CA: Stanford University, School Redesign Network.
    \3\ Allington, R. L. & McGill-Franzen, A. (1992). Unintended 
effects of educational reform in New York, Educational Policy, 6 (4): 
397-414; Figlio, D.N. & Getzler, L.S. (2002, April). Accountability, 
ability, and disability: Gaming the system? National Bureau of Economic 
Research.
    \4\ W. Haney (2000). The myth of the Texas miracle in education. 
Education Policy Analysis Archives, 8 (41): Retrieved Jan. 24, 08 from: 
http://epaa.asu.edu/epaa/v8n41/
    \5\ Smith, F., et al. (1986). High school admission and the 
improvement of schooling. NY: New York City Board of Education; 
Darling-Hammond, L. (1991). The Implications of Testing Policy for 
Quality and Equality, Phi Delta Kappan, November 1991: 220-225; Heilig, 
J. V. (2005), An analysis of accountability system outcomes. Stanford 
University.
    \6\ For recent studies examining the increases in dropout rates 
associated with high-stakes testing systems, see Advocates for Children 
(2002). Pushing out at-risk students: An analysis of high school 
discharge figures--a joint report by AFC and the Public Advocate. 
http://www.advocatesforchildren.org/pubs/pushout-11-20-02.html; W. 
Haney (2002). Lake Wobegone guaranteed: Misuse of test scores in 
Massachusetts, Part 1. Education Policy Analysis Archives, 10(24). 
http://epaa.asu.edu/epaa/v10n24/; J. Heubert & R. Hauser (eds.) (1999). 
High stakes: Testing for tracking, promotion, and graduation. A report 
of the National Research Council. Washington, D.C.: National Academy 
Press; B.A. Jacob (2001). Getting tough? The impact of high school 
graduation exams. Education and Evaluation and Policy Analysis 23 (2): 
99-122; D. Lilliard, & P. DeCicca (2001). Higher standards, more 
dropouts? Evidence within and across time. Economics of Education 
Review, 20(5): 459-73;G. Orfield, D. Losen, J. Wald, & C.B. Swanson 
(2004). Losing our future: How minority youth are being left behind by 
the graduation rate crisis. Retrieved January 24, 2008 from: http://
www.urban.org/url.cfm?ID=410936; M. Roderick, A.S. Bryk, B.A. Jacob, 
J.Q. Easton, & E. Allensworth (1999). Ending social promotion: Results 
from the first two years. Chicago: Consortium on Chicago School 
Research; R. Rumberger & K. Larson (1998). Student mobility and the 
increased risk of high school dropout. American Journal of Education, 
107: 1-35; E. Rustique-Forrester (in press). Accountability and the 
pressures to exclude: A cautionary tale from England. Education Policy 
Analysis Archives; A. Wheelock (2003). School awards programs and 
accountability in Massachusetts.
    \7\ Advocates for Children (2002), Pushing out at-risk students; 
Heilig (2005), An analysis of accountability system outcomes; Wheelock 
(2003), School awards programs and accountability.
    \8\ Heilig, 2005.
    \9\ Wheelock, 2003
    \10\ Heilig, 2005.
    \11\ American Educational Research Association, American 
Psychological Association, & National Council on Measurement in 
Education, Standards for Educational and Psychological Testing, 
Washington DC: American Educational Research Association, 1999, p.142.
    \12\ AERA, APA, NCME, Standards for Educational and Psychological 
Testing., p.146.
    \13\ See for example, Haney (2000). The myth of the Texas miracle; 
J.L. Herman & S. Golan (1993). Effects of standardized testing on 
teaching and schools. Educational Measurement: Issues and Practice, 
12(4): 20-25, 41-42; B.D. Jones & R. J. Egley (2004). Voices from the 
frontlines: Teachers' perceptions of high-stakes testing. Education 
Policy Analysis Archives, 12 (39). Retrieved August 10, 2004 from 
http://epaa.asu.edu/epaa/v12n39/; M.G. Jones, B.D. Jones, B. Hardin, L. 
Chapman, & T. Yarbrough (1999). The impact of high-stakes testing on 
teachers and students in North Carolina. Phi Delta Kappan, 81(3): 199-
203; Klein, S.P., Hamilton, L.S., McCaffrey, D.F., & Stetcher, B.M. 
(2000). What do test scores in Texas tell us? Santa Monica: The RAND 
Corporation; D. Koretz & S. I. Barron (1998). The validity of gains on 
the Kentucky Instructional Results Information System (KIRIS). Santa 
Monica, CA: RAND, MR-1014-EDU; D. Koretz, R.L. Linn, S.B. Dunbar, & 
L.A. Shepard (1991, April). The effects of high-stakes testing: 
Preliminary evidence about generalization across tests, in R. L. Linn 
(chair), The Effects of high stakes testing. Symposium presented at the 
annual meeting of the American Educational Research Association and the 
National Council on Measurement in Education, Chicago; R.L. Linn 
(2000). Assessments and accountability. Educational Researcher, 29 (2), 
4-16; R.L. Linn, M.E. Graue, & N.M. Sanders (1990). Comparing state and 
district test results to national norms: The validity of claims that 
``everyone is above average.'' Educational Measurement: Issues and 
Practice, 9, 5-14; W. J. Popham (1999). Why Standardized Test Scores 
Don't Measure Educational Quality. Educational Leadership, 56(6): 8-15; 
M.L. Smith (2001). Put to the test: The effects of external testing on 
teachers. Educational Researcher, 20(5): 8-11.
    \14\ Achieve, Do graduation tests measure up? A closer look at 
state high school exit exams. Executive summary. Washington, DC: 
Achieve, Inc.
    \15\ L. Darling-Hammond & J. Ancess (1994). Authentic assessment 
and school development. NY: National Center for Restructuring 
Education, Schools, and Teaching, Teachers College, Columbia 
University; B. Falk & S. Ort (1998, September). Sitting down to score: 
Teacher learning through assessment. Phi Delta Kappan, 80(1): 59-64. 
G.L. Goldberg & B.S. Rosewell (2000). From perception to practice: The 
impact of teachers' scoring experience on the performance based 
instruction and classroom practice. Educational Assessment, 6: 257-290; 
R. Murnane & F. Levy (1996). Teaching the new basic skills. NY: The 
Free Press.
    \16\ J.B. Baron (1999). Exploring high and improving reading 
achievement in Connecticut. Washington: National Educational Goals 
Panel. Murnane & Levy (1996); B.M. Stecher, S. Barron, T. Kaganoff, & 
J. Goodwin (1998). The effects of standards-based assessment on 
classroom practices: Results of the 1996-97 RAND survey of Kentucky 
teachers of mathematics and writing. CSE Technical Report. Los Angeles: 
UCLA National Center for Research on Evaluation, Standards, and Student 
Testing; S. Wilson, L. Darling-Hammond, & B. Berry (2001). A case of 
successful teaching policy: Connecticut's long-term efforts to improve 
teaching and learning. Seattle: Center for the Study of Teaching and 
Policy, University of Washington.
    \17\ C. Chapman (1991, June). What have we learned from writing 
assessment that can be applied to performance assessment?. Presentation 
at ECS/CDE Alternative Assessment Conference, Breckenbridge, CO; 
J.L.Herman, D.C. Klein, T.M. Heath, S.T. Wakai (1995). A first look: 
Are claims for alternative assessment holding up? CSE Technical Report. 
Los Angeles: UCLA National Center for Research on Evaluation, 
Standards, and Student Testing; D. Koretz, K., J. Mitchell, S.I. 
Barron, & S. Keith (1996). Final Report: Perceived effects of the 
Maryland school performance assessment program CSE Technical Report. 
Los Angeles: UCLA National Center for Research on Evaluation, 
Standards, and Student Testing; W.A. Firestone, D. Mayrowetz, & J. 
Fairman (1998, Summer). Performance-based assessment and instructional 
change: The effects of testing in Maine and Maryland. Educational 
Evaluation and Policy Analysis, 20: 95-113; S. Lane, C.A. Stone, C.S. 
Parke, M.A. Hansen, & T.L. Cerrillo (2000, April). Consequential 
evidence for MSPAP from the teacher, principal and student perspective. 
Paper presented at the annual meeting of the National Council on 
Measurement in Education, New Orleans, LA; B. Stecher, S. Baron, T. 
Chun, T., & K. Ross (2000) The effects of the Washington state 
education reform on schools and classroom. CSE Technical Report. Los 
Angeles: UCLA National Center for Research on Evaluation, Standards, 
and Student Testing.
    \18\ Darling-Hammond, Rustique-Forrester, and Pecheone, Multiple 
Measures.
    \19\ M. Smith paper (2007). Standards-based education reform: What 
we've learned, where we need to go. Consortium for Policy Research in 
Education.
    \20\ At least 27 states consider student academic records, 
coursework, portfolios of student work, and performance assessments, 
like research papers, scientific experiments, essays, and senior 
projects in making the graduation decision. Darling-Hammond, Rustique-
Forrester, and Pecheone, Multiple Measures.
                                 ______
                                 
    [The prepared statement of the Coalition Promoting School 
Success for All Children, submitted by Mr. Hare, follows:]

             Prepared Statement of the Coalition Promoting
                    School Success for All Children

    Schools today are facing two significant challenges: to improve 
academic achievement, including meeting the requirements of the No 
Child Left Behind Act (NCLB), and to foster a school climate that 
promotes learning and that will reduce discipline problems. These 
issues are linked. Research shows that academic, social and behavioral 
problems are so connected that interventions targeting one often affect 
the others. Consequently, effective schools support and foster both 
high academic and high behavioral standards.
    Integrated efforts to address academic and non-academic barriers to 
learning are more likely to help schools meet academic requirements 
than efforts that focus on academics alone. Amendments to the No Child 
Left Behind Act that encourage schools to improve the climate for 
learning, such as by adopting school-wide positive behavior supports 
(PBS) will help schools to address both students' social and emotional 
needs and lead to improvements in academic outcomes.
    Both educators and the general public cite disciplinary issues 
(including a perceived increase in drugs, violence, gangs and weapons) 
as the number one problem in schools, and teachers say they feel 
unprepared to manage problem behaviors. In efforts to improve school 
safety, many school officials react by taking a tough approach using 
suspension or expulsion extensively or trying to remove persistent 
troublemakers from school. But research shows that rigid and inflexible 
approaches to discipline do not work and, further, that they 
disproportionately harm students of color and students with 
disabilities. In contrast, positive and relational approaches can 
improve the school environment without resorting to exclusionary 
practices.
    To address discipline problems, help children learn and meet 
today's demands for high academic standards, schools should improve the 
learning environment for all students and provide the supports needed 
by those with more significant problems. One effective approach now 
being adopted by education systems around the country is school-wide 
PBS. PBS improves student behavior by reinforcing desired behavior and 
eliminating inadvertent reinforcements for problem behavior. This 
requires understanding the reason for the behavior and addressing the 
underlying cause.
    Schools implementing school-wide PBS programs can experience 
anywhere from a 20-60 percent reduction in disciplinary problems, as 
well as improved social climate and academic performance. Research 
shows increases in both reading comprehension and math test scores on 
standardized tests in schools implementing PBS well. In addition to 
improved academic outcomes, school-wide PBS improves other variables 
related to student success, including increased student attendance, 
fewer expulsions and suspensions, increased classroom instructional 
time and academic engagement. There is more time for student 
instruction and a reduction in hours spent by teachers and 
administrators addressing problem behavior. With effective academics 
and behavior intertwined, school-wide PBS is instrumental in changing 
school climate and allowing for more effective instruction.
    School-wide PBS is not a program, but a system, based on decades of 
behavioral and biomedical research. Using an approach adapted from the 
public health field, PBS uses a three-tiered system of prevention and 
support that addresses the spectrum of behavioral needs and serves all 
children--from those with behavior issues that are typical of their 
developmental stage, as well as those at risk for or already exhibiting 
challenging behaviors. For the general student body--roughly 80 percent 
of students--universal implementation of PBS in the school (known as 
Tier One) may be sufficient. Tier One focuses on changing environmental 
stimuli that contribute to disruptive behavior and on changing adult 
behavior in school so that all staff are supportive and consistently 
teach, reinforce, and model expected behaviors.
    Five to 15 percent of students who do not respond to universal 
methods do respond to more specialized attention, an example being a 
group intervention. These children fall into PBS Tier Two. An 
intervention in Tier Two might involve group sessions where students 
problem-solve and come up with strategies to prevent the problem 
behavior.
    Finally, some children with the most challenging behavior need 
individualized services (Tier Three). Often these are children with 
serious emotional disorders and extreme functional impairment. They 
represent three to seven percent of all school-age children. These 
students should be involved in a comprehensive home, school and 
community plan using individualized services and techniques coordinated 
across agencies.
    Training is an integral part of a PBS initiative and must be 
continual as new staff are hired or as additional schools in the 
district adopt PBS. PBS uses in-school coaches to help translate 
training into practice and to support staff who are implementing 
school-wide PBS. These in-school coaches are often school 
psychologists, social workers or counselors who must themselves be 
trained in school-wide PBS. In addition, external coaches are employed, 
who typically work with a number of schools, collaborating with the in-
school coach and providing feedback to the state and region/district, 
as well as providing guidance to individual schools.
    It is important for best practices, including particularly family 
involvement and social-emotional learning, must be followed. School-
wide PBS provides a strong platform for related programming, such as 
specific social-emotional learning programs and other youth-development 
practices. It also requires family buy-in, participation and support. 
Families play a crucial role in implementation of school-wide PBS.
    Two examples of statewide PBS initiatives are Illinois and 
Colorado. These initiatives are well-established and continue to grow 
and reach more schools throughout each state.
    <bullet> The state of Illinois is a pioneer in creating a statewide 
comprehensive PBS initiative. In eight years, Illinois has built and 
sustained the Illinois PBIS Network, providing assistance in 
implementation of PBS to 600 schools, or around 14 percent of all 
public schools in the state. Research in Illinois shows that 
implementation of school-wide PBS is linked to improved perception of 
school safety, as well as an improved proportion of third graders 
meeting state reading standards.
    <bullet> The Colorado School-Wide PBS Initiative is a joint venture 
between the Prevention Initiatives and Exceptional Student Services 
Unit in the Colorado Department of Education. The initiative began 
providing support and assistance to schools implementing PBS in the 
2002/2003 school year. They are now in 405 schools in the state, 
operating in eight regions and 48 school districts. They continue to 
work toward their goal of establishing and maintaining effective school 
environments maximizing academic achievement and behavioral competence 
for all learners in Colorado.
    Although many of the early school-wide PBS initiatives were 
initiated under the special education umbrella, the approach is more 
effective when implemented in a systematic, school-wide effort. PBS is 
not just helpful for students in special education or those with 
disabilities. Instead, it is a means for all students to increase 
academic achievement, improve social behavior and learn self-
management.
    School-wide PBS complements the academic standards articulated in 
NCLB. The following amendments to the NCLB Act would create avenues for 
schools to more easily implement school-wide PBS.
    <bullet> Encourage states to use Title I funds to support school-
wide PBS
    The Individuals with Disabilities Education Act (IDEA) promotes 
Early Intervening Services by allowing local education agencies (LEAs) 
to use up to 15 percent of IDEA Part B funds to implement services for 
students not identified as needing special education, but who do need 
additional academic and behavioral support to succeed in the general 
education environment. Such funds have been used by a number of 
districts to support school-wide PBS. These IDEA funds may be used in 
coordination with funds from ESEA to carry out these activities and 
services.
    However, there is no comparable language in the ESEA to allow Title 
I funds to be used for Early Intervening Services. Authorization to use 
ESEA funds for Early Intervening Services, including specifically 
school-wide PBS, would facilitate expansion of these extremely 
promising approaches. Since this is not a mandate, LEAs would have 
flexibility as to whether or not to use the funds for these purposes.
    Section 1003 of NCLB authorizes states to reserve up to two to four 
percent of Title I funds for school improvement to meet state 
responsibilities under Section 1116 and 1117. Amending Sections 1003, 
1116 and 1117 to include implementation of school-wide PBS will permit 
states to use their Title I state reserve funds to promote and support 
such initiatives.
Encourage LEAs to address school climate issues
    Schools must promote an environment that is safe and conducive to 
learning, providing the foundation on which other programming and 
support can be built. School-wide PBS contributes to attitudinal 
change, creating a culture where there is a shared sense of 
responsibility. The positive school climate that comes from a school 
implementing school-wide PBS promotes learning by reducing discipline 
problems and addressing the social and emotional development of 
students.
    Section 1114 authorizes LEAs to use funds for school-wide programs. 
Adding school-wide PBS to this section increases the likelihood that 
Title I funds will be used for this purpose.
Establish an Office of Specialized Instructional Support Personnel
    To raise the visibility of critical issues and to coordinate across 
the various departmental agencies, an Office of Specialized 
Instructional Support Personnel should be established in the Office of 
the Deputy Secretary in the Department of Education. The purpose of the 
Office should be to administer, coordinate and carry out programs and 
activities concerned with providing specialized instructional support 
services in schools, delivered by trained, qualified specialized 
instructional support personnel.
    Activities governed by such an office would include:
    <bullet> Improving academic achievement and educational results for 
students through improved instructional support services in schools, 
including provision of early intervening services to general education 
students and of the related services required under IDEA;
    <bullet> Administering, coordinating and carrying out programs and 
activities concerned with providing specialized instructional support 
services in schools;
    <bullet> Promoting a trained, qualified specialized instructional 
support workforce in schools; and
    <bullet> Providing technical assistance to local and state 
education agencies in provision of effective, scientifically-based 
specialized instructional support services.
Amend the Safe & Drug Free Schools and Communities Program
    The Safe & Drug Free Schools and Communities Program should be 
amended to incorporate the concept of creating a safe and effective 
school climate that is conducive to learning. Specifically, this 
program should be amended by:
    <bullet> Changing the title to expand the purpose of the program to 
address school climate in general. The amended title would read: 
Creating a Safe and Effective School Climate Conducive for Learning. 
The short title would read: The Safe and Effective Schools Act.
    <bullet> Clarifying that the purpose of Part A is to address whole 
school climate and to prevent violence and illegal use of alcohol, 
tobacco and drugs.
    <bullet> Adding to paragraph (1), the list of purposes for which 
states may use funds under this part, grants to states or LEAs and 
consortia of such agencies for the establishment, operation and 
improvement of local programs relating to improving the school-wide 
climate (including the implementation of school-wide PBS and other 
programs).
    The Coalition Promoting School Success for All Children commend you 
for your ongoing leadership and commitment to education and ensuring no 
children are left behind, including those with mental health needs. We 
look forward to working with you to strengthen and protect the 
provisions in No Child Left Behind by including school-wide positive 
behavior supports that will be beneficial to all students.
    The Coalition Promoting School Success for All Children includes 
the following organizations:
Advocacy Institute
American Counseling Association
American School Counselor Association
American Occupational Therapy Association
Bazelon Center for Mental Health Law
Children & Adults with Attention-Deficit/Hyperactivity Disorder
Council for Children with Behavioral Disorders
Council for Exceptional Children
Easter Seals
Federation of Families for Children's Mental Health
Georgetown University Center for Child and Human Development
Mental Health America
National Alliance on Mental Illness
National Association of School Psychologists
National Association of State Directors of Special Education
National Association of State Mental Health Program Directors
National Down Syndrome Congress
School Social Work Association of America
    The Bazelon Center for Mental Health Law chairs the Coalition. 
Please contact Laurel Stine for any additional information.
                                 ______
                                 
    Chairman Kildee. I would now like to introduce the very 
distinguished panel of witnesses here with us this afternoon. 
John ``Jack'' Jennings is President of the Center on Education 
Policy in Washington, D.C., the center promotes school 
improvement through various publications, by assisting States 
and school districts, and by arranging national meetings and 
conferences. From 1967 through 1994, as a staff member and 
Chief Counsel of this committee, Mr. Jennings was deeply 
involved in virtually every major national education debate. I 
learned the word ``disaggregated data'' from Mr. Jennings at 
that time.
    Mr. Rick Melmer is South Dakota Secretary of Education and 
President-Elect of the Council of Chief State School Officers. 
Previously he served as school superintendent in Watertown, 
South Dakota and Sioux City, Iowa. Dr. Melmer has said that his 
role as Secretary is to shine a spotlight on the future of 
education in South Dakota.
    And the Honorable Kathleen Straus, who I have known 
forever, is President of the Michigan State Board of Education. 
She has dedicated her career to improving public education and 
community services in Michigan. Prior to serving on the State 
board, Ms. Straus was President of the Center for Creative 
Studies, a nationally recognized arts education institution in 
Detroit. She also has worked for the Michigan Association of 
School Boards and the Michigan Senate Education Committee.
    Dr. Carol Johnson has been Superintendent of the Memphis, 
Tennessee City Schools since 2003 and is a member of the 
Executive Committee of the Council of the Great City Schools. 
In 2006, for the first time since No Child Left Behind was 
passed, the Memphis schools were declared to be in good 
standing by the State. The Memphis City Schools also have been 
recognized as a model for middle school student engagement and 
is one of the top districts for music education.
    And Dr. Chester Finn, whom I have known for a long, long 
time, and good to see you again, is President of the Thomas B. 
Fordham Foundation, which supports education reform research 
and projects. Dr. Finn also is Chairman of the Hoover 
Institution's Task Force on K-12 Education. Among his other 
positions he served as Assistant Secretary of Education for 
Research and Improvement under President Reagan and as a 
Professor of Education and Public Policy at Vanderbilt 
University.
    And welcome to all our witnesses. For those of you who have 
not testified before this subcommittee I will explain to you 
our lighting system and the 5-minute rule. Everyone, including 
members on the dais up here, is limited to 5 minutes of 
presentation or questioning. The green light will be 
illuminated when you begin to speak. When you see the yellow 
light, it means that you have one minute remaining. When you 
see the red light it means your time has expired and you need 
to conclude your testimony. But there is no ejection seat 
there, so I will allow you to finish your thought anyway. 
Please be certain as you testify to turn on and speak into the 
microphone in front of you and turn it off when you are 
finished. We will now hear from our first witness, Mr. 
Jennings.

  STATEMENT OF JACK JENNINGS, PRESIDENT, CENTER ON EDUCATION 
    POLICY; ACCOMPANIED BY DIANE STARK RENTNER, DIRECTOR OF 
    NATIONAL PROGRAMS AT CEP; NANCY KOBER, CEP'S PRINCIPAL 
CONSULTANT; AND SUNNY BECKER, PRINCIPAL STAFF SCIENTIST OF THE 
             HUMAN RESOURCES RESEARCH ORGANIZATION

    Mr. Jennings. Thank you, Chairman Kildee and Congressman 
Castle and other members of the committee. I spent nearly half 
my life in this room or around this room or with the committee, 
and so I feel like I am coming home. They say you can never 
come home, but at least for this afternoon I will be home, and 
I think I will be home once I hear the questions coming from 
all different directions. Then I will know.
    I am accompanied by Diane Stark Rentner, who is sitting 
behind me. She is the Deputy at the Center on Education Policy, 
and she worked for the committee for 6 years. And then behind 
me on the other side is Nancy Kober, who worked for the 
committee for 12 years. And she is the principal consultant for 
us. And in the middle is Sunny Becker, who is with the Human 
Resources Company Corporation, HumRRO, that was our contractor 
on this project. I know you have strict time restraints, so let 
me just shortly summarize our report.
    First of all, the Center on Education Policy is an 
independent body. We get all our money from charitable 
foundations. We have no connection with the government, no 
connection with any other organization, any teachers group, any 
business group, any other organization. We are totally 
independent. And we have been reviewing No Child Left Behind 
since 2002.
    But 2 years ago we decided that the key questions involved 
with No Child Left Behind were two. One was has student 
achievement in reading and math increased since No Child Left 
Behind was enacted? And secondly, have achievement gaps between 
different subgroups of students narrowed since No Child Left 
Behind was enacted? Those are the key questions.
    And sometimes too often we spend time on a mechanism such 
as how many children are getting tutoring, how many children 
are getting school choice without looking at the fundamental 
purposes. So we decided to design a study that would answer 
these questions. And we have five unique features in our study.
    First of all, we asked all States to participate. And every 
State participated and every State verified their data so we 
know this is correct data.
    Secondly, we only use comparable test results from year to 
year. If a State changed its test we would not use the test 
results. These have to be comparable results.
    Thirdly, we use pre and post-NCLB test scores so that we 
could go as far back as we could to see the effects of the 
legislation.
    Fourthly, we use two different types of statistical 
analysis. One is looking at proficiency scores, the other is 
looking at net effects scores. And one analysis makes up for 
the deficiencies of the others so that you get a more complete 
picture.
    And lastly, we use consistent rules in looking at the data 
across all States. Another unique feature was that we ensured 
that we had a group of experts that was balanced. So we have 
five experts, several of them have written articles and books 
against No Child Left Behind, several of them have supported No 
Child Left Behind. In fact, one of them heads up one of the 
administration's committees dealing with No Child Left Behind. 
This group is not only varied in its point of view, but it also 
has great expertise in terms of assessment, research and 
policy, and they were of great assistance to us.
    The five major conclusions we reached are these. First, in 
most States with 3 or more years of comparable test data 
student achievement in reading and math has gone up since 2002.
    Secondly, there is more evidence of achievement gaps 
between groups of students narrowing since 2002 than of gaps 
widening. Still the magnitude of the gaps is very substantial. 
It is common to have gaps of 25, 30 percent between different 
groups of students.
    Thirdly, we can only get comparable data from 13 States 
going back to 1999, but nine of those States showed that they 
had greater increases in test scores after 2002 rather than 
before 2002.
    Fourthly, and this is a very important point, it is very 
difficult, if not impossible, to determine to the extent to 
which these trends in test results have occurred because of No 
Child Left Behind. Since 2002 States, school districts and 
schools have simultaneously implemented many different, but 
interconnected policies to raise achievement. In other words, 
we cannot show direct causality between increased test scores 
and No Child Left Behind because all the other things have been 
going on at the same time.
    Fifthly, although NCLB is premised on the idea that there 
should be public information and there should be test score 
data available to policy makers, the press and the public so 
they will understand the effectiveness of education, we found 
gaps and holes in terms of the information that was available. 
And it took us a considerable effort in order to obtain this 
information.
    As cooperative as the States were, they are very 
overburdened, they are very pressed for personnel and time, and 
it is difficult for them to keep up.
    Now, let me mention what we think the possible explanations 
are for these increased test trends, and these are four 
possible reasons. And we cannot attribute direct causality in 
whatever proportion to any of these reasons but these are the 
logical reasons.
    One, in fact students have increased learning. That sounds 
so obvious but in today's cynical environment you have to say 
well, students may know more. And that is probably a major 
factor.
    Secondly, there is teaching to the test. Especially in the 
poorest school districts, the schools with largest percentages 
of children of color there is teaching to the test.
    Thirdly, there are subtle changes made in tests that make 
it easier to have gains. And lastly there is changes in 
populations tested.
    I will finish by just asking that you consider the data 
that is required from the States for No Child Left Behind. And 
we have a recommendation on page 81 of the report. I hope you 
rip that page out and put it into the law. The public deserves 
to know test data, they deserve to know as much information as 
they can about the schools, and you can help to ensure that by 
enacting those provisions.
    Thank you.
    [The statement of Mr. Jennings follows:]

            Prepared Statement of Jack Jennings, President,
                       Center on Education Policy

    Chairman Kildee and Members of the Subcommittee, thank you for the 
opportunity to appear before you today on trends in student achievement 
and the No Child Left Behind Act. I am accompanied by Diane Stark 
Rentner, director of national programs at the Center, Nancy Kober, 
CEP's principal consultant, and Sunny Becker, principal staff scientist 
of the Human Resources Research Organization, CEP's contractor for this 
project.
    The Center on Education Policy, a private non-profit organization, 
is an independent national advocate for effective public schools. We 
principally accomplish our mission by analyzing policies to determine 
whether they are in fact helping public schools to become better. A 
principal focus of our work for the last five years has been the No 
Child Left Behind Act, since that policy is so significant for public 
education. Since NCLB was enacted, we have monitored its effects and 
issued both comprehensive and special reports. Today, I will discuss 
our latest report which we released this Tuesday at the National Press 
Club.
    Since 2002, NCLB has spurred far-reaching changes in elementary and 
secondary education, all aimed at accomplishing the same fundamental 
goal--to improve students' academic achievement. As the Congress 
prepares to reauthorize the Act, two related questions matter most:
    1. Has student achievement in reading and math increased since NCLB 
was enacted?
    2. Have achievement gaps between different subgroups of students 
narrowed since NCLB was enacted?
    To answer these questions, the Center on Education Policy conducted 
the most comprehensive study of trends in state test scores since NCLB 
took effect. We carried out this study with advice from a panel of five 
nationally known experts in educational testing or policy research, and 
with extensive technical support from HumRRO. Although we collected 
data from all 50 states, not every state had enough consistent data to 
do a complete analysis of test score trends in reading and math before 
and after 2002. Based on the data that states did provide, we reached 
five main conclusions.
Main Conclusions
    1. In most states with three or more years of comparable test data, 
student achievement in reading and math has gone up since 2002, the 
year NCLB was enacted.
    2. There is more evidence of achievement gaps between groups of 
students narrowing since 2002 than of gaps widening. Still, the 
magnitude of the gaps is often substantial.
    3. In 9 of the 13 states with sufficient data to determine pre-and 
post-NCLB trends, average yearly gains in test scores were greater 
after NCLB took effect than before.
    4. It is very difficult, if not impossible, to determine the extent 
to which these trends in test results have occurred because of NCLB. 
Since 2002, states, school districts, and schools have simultaneously 
implemented many different but interconnected policies to raise 
achievement.
    5. Although NCLB emphasizes public reporting of state test data, 
the data necessary to reach definitive conclusions about achievement 
were sometimes hard to find or unavailable, or had holes or 
discrepancies. More attention should be given to issues of the quality 
and transparency of state test data.
    The study that produced these conclusions had several unique 
features, designed to address the limitations of past research on 
achievement since 2002. We went to great lengths to gather the most 
current results on state reading and mathematics tests from all 50 
states and to have all states verify the accuracy of their data. Within 
each state, we limited our analyses to test results that were truly 
comparable from year to year--in other words, that had not been 
affected by such factors as the adoption of new tests or changes in the 
test score students must reach to be considered proficient. We also 
compared trends before and after 2002 to see whether the pace of 
improvement has sped up or slowed down since NCLB took effect. We 
supplemented our analyses of the percentage of students scoring at or 
above the proficient level--the ``magic number'' for NCLB 
accountability--with analyses of effect size, a statistical tool based 
on average (mean) test scores that addresses some of the problems with 
the percentage proficient measure. And we analyzed all of the data--
which in a typical state included as many as 16,000 individual 
numbers--as objectively as possible, using a consistent set of rules 
that were developed without regard to whether they would lead to 
positive or negative findings.
    The rest of this testimony summarizes the findings that led us to 
the five main conclusions. Further detail can be found in our full 
report which appears on our Web site, CEP-DC.org.
Gains in Reading and Math Since 2002
    To reach national conclusions about reading and math achievement, 
we first determined the test score trends in each state, looking at 
both the percentages of students scoring proficient and effect sizes 
where available. The state trends were then aggregated into a national 
picture of achievement that included these and other findings:
    <bullet> The number of states showing gains in test scores since 
2002 is far greater than the number showing declines. For example, of 
the 24 states with percentage proficient and effect size data for 
middle school reading, 11 demonstrated moderate-to-large gains (average 
gains of at least 1 percentage point per year) in middle school 
reading, and only one showed a moderate or larger decline. Five of the 
22 states with both percentage proficient and effect size data at the 
elementary, middle, and high school levels made moderate-to-large gains 
in reading and math on both measures across all three grade spans. In 
other words, these five states showed gains according to all of the 
indicators collected for this study. In reading alone, seven states 
showed moderate-to-large increases across all three grade spans on both 
measures. In math alone, nine states showed similar gains across all 
three grade spans on both measures. The rest of the states had 
different trends at different grade spans.
    <bullet> Elementary school math is the area in which the most 
states showed improvements. Of the 25 states with sufficient data, 22 
demonstrated moderateto-large math gains at the elementary level on 
both the percentage proficient and effect size measures, while none 
showed moderate or larger declines. Based on percentages proficient 
alone, 37 of the 41 states with trend data in elementary math 
demonstrated moderate-to-large gains, while none showed moderate or 
larger declines.
    <bullet> More states showed declines in reading and math 
achievement at the high school level than at the elementary or middle 
school levels. Still, the number of states with test score gains in 
high school exceeded the number with declines.
    <bullet> Analyses of changes in achievement using effect sizes 
generally produced the same findings as analyses using percentages 
proficient. But in some cases, the effect size analysis showed a 
different trend. In Nevada, for instance, the percentage proficient in 
high school math decreased, while the average test score increased. In 
New Jersey the percentage proficient in middle school reading rose 
slightly, while the average test score dropped.
    <bullet> When the percentage of students scoring at the proficient 
level on state tests is compared with the percentage scoring at the 
basic level on the National Assessment of Educational Progress (NAEP), 
states show more positive results on their own tests than on NAEP. 
Moreover, the states with the greatest gains on their own tests were 
usually not the same states that had the greatest gains on NAEP. The 
NAEP tests, however, are not aligned with a state's curriculum as state 
tests are, so NAEP should not be treated as a ``gold standard'' to 
invalidate state test results but as an additional source of 
information about achievement.
Narrowing Achievement Gaps
    We analyzed trends in test score gaps for major racial-ethnic 
subgroups of students, low-income students, students with disabilities, 
and limited-English-proficient (LEP) students.
    We looked at both percentages proficient and effect size data where 
available; effect size data were harder to come by for subgroups than 
for students overall. We considered a narrowing or widening of the 
achievement gap to be a trend for a specific subgroup if it occurred in 
the same subject (reading or math) across all three grade spans 
(elementary, middle, and high school). We compiled trends from the 50 
states to arrive at these and other national findings:
    <bullet> Among the states with sufficient data to discern trends by 
subgroup, the number of states in which gaps in percentages proficient 
have narrowed since 2002 far exceeds the number of states in which gaps 
widened.
    <bullet> For the African-American subgroup, 14 of the 38 states 
with the necessary data showed evidence that gaps have narrowed in 
reading across all three grade spans analyzed, while no state had 
evidence that gaps have widened. In mathematics, 12 states showed these 
gaps narrowing, while only one state showed the gaps widening. Results 
were similar for the Hispanic and low-income subgroups.
    <bullet> As with the percentage proficient, the states in which 
effect size gaps have narrowed outnumbered the states in which effect 
size gaps have widened. However, for states with both types of data, 
there were a number of instances where gap closings in terms of 
percentages proficient were not confirmed by effect size. Effect sizes 
seem to give a less rosy picture of achievement gap trends.
    <bullet> Even for subgroups that showed evidence of gaps narrowing, 
the gaps in percentages proficient often amounted to 20 percentage 
points or more, suggesting that it will take a concerted, long-term 
effort to close them.
Gains Before and After NCLB
    Many states had reforms well underway before NCLB, so it is useful 
to know whether the pace of improvement has picked up since NCLB took 
effect. Only 13 states supplied enough years of data to make this 
determination--too few to know whether the findings for this sample 
represent a true national trend. In nine of these states, test results 
improved at a greater average yearly rate after 2002 than before. In 
the other four states, the pre-NCLB rate of gain outstripped the post-
NCLB rate.
Difficulty of Attributing Causes for Gains
    This report focuses on whether test scores have gone up since the 
enactment of NCLB. We cannot say to what extent test scores have gone 
up because of NCLB. It is always difficult to tease out a cause-and-
effect relationship between test score trends and any specific 
education policy or program. With all of the federal, state, and local 
reforms that have been implemented simultaneously since 2002, it 
becomes nearly impossible to sort out which policy or combination of 
policies is responsible for test score gains, and to what degree. In a 
similar vein, this report does not take a position on how well specific 
components of NCLB are working or whether the requirements in the 
current law are the most effective means to raise achievement and close 
test score gaps.
    One more caveat should be emphasized: test scores are not the same 
thing as achievement. Although tests are often viewed as precise and 
objective, they are imperfect and incomplete measures of how much 
students have learned. Still, state tests are the primary measure of 
achievement used in NCLB and are the best available standardized 
measures of the curriculum taught in classrooms.
Need for More Transparency in Test Data
    The No Child Left Behind Act requires states to report a massive 
amount of test data and attaches serious consequences to these data for 
districts, schools, and educators. But the data on which so much rests 
are not easy to access in some states and are sometimes inconsistent, 
outdated, or incomplete. Moreover, the data needed to calculate effect 
sizes or determine which subgroups were small or rapidly changing were 
unavailable in some states, even though these data are integral to all 
testing systems. Reasons for these shortcomings include overburdened 
state departments of education, ongoing corrections in test data, and 
technical or contractual issues with test contractors. These 
shortcomings are not necessarily the fault of state officials--who were 
generally cooperative in providing or verifying data when asked--but 
these problems complicated our efforts to reach definitive conclusions 
about student achievement.
    It took many months of effort to gather all the data needed for 
this study and have state officials verify their accuracy. Our 
experience suggests how difficult it would be for the average citizen 
to get information about test score trends in some states, and points 
to the need for greater transparency in state test data. States could 
improve transparency by taking the following steps:
    <bullet> Posting test data in an easy-to-find place on state Web 
sites
    <bullet> Providing clear information and cautions about breaks in 
the comparability of test data caused by new tests or changes in 
testing systems
    <bullet> Reporting standard deviations, mean scale scores, numbers 
of test-takers, and other important information listed in chapter 7 of 
our report.
State-By-State Achievement Trends on the Web
    The trends highlighted in this testimony and in our report have 
been drawn from an extensive set of data on each state. Complete 
profiles of test results and other information for individual states 
can be accessed on the CEP Web site at www.cepdc.org/pubs/
stateassessment. We encourage anyone who is interested in trends for a 
specific state to visit the Web site and find that state's profile.
Future Phases of This Study
    This report describes the findings from phase I of what will be a 
three-phase study of student achievement. Phase II, which will be 
completed this summer, involves on-site interviews with state officials 
in 22 states. Phase II investigates in more detail the trends uncovered 
during phase I of the study and the factors that affect comparability 
or availability of test data; it also reports information from state 
officials about how well specific requirements of NCLB are working and 
how the law could be improved. Phase III, which will be carried out in 
the fall and winter of 2006-08, examines student achievement at the 
school district level in three states.
    Thank you, Chairman Kildee, and we are available to answer any 
questions.
                                 ______
                                 
    Chairman Kildee. Thank you very much.

STATEMENT OF RICK MELMER, SECRETARY, SOUTH DAKOTA DEPARTMENT OF 
                           EDUCATION

    Mr. Melmer. Chairman Kildee, Ranking Member Castle and 
members of the subcommittee, my name is Rick Melmer from the 
State of South Dakota. I have been serving as the chief school 
officer in South Dakota for 4 years. I am grateful for the 
opportunity to come and talk to you about a topic that I know 
you care deeply about and we certainly do in the State of South 
Dakota. I also represent the Council of Chief State School 
Officers and this topic has been high on our agenda, as you can 
imagine, over the past year and a half.
    Since 2002, the No Child Left Behind Act has challenged 
schools, districts and States across this country to ensure the 
best education possible for students. Since that time I think 
you can all agree that States, schools and districts have made 
significant progress, both in implementing policies and, as Mr. 
Jennings' report suggests, improving achievement scores and 
closing achievement gaps. We are grateful for that news. We are 
excited to hear about it. And it is really proof that the 
foundation has been laid with the No Child Left Behind Act of 
2002 for some good things in the future. Our hope is that we 
can take advantage of this opportunity now to reauthorize this 
act and make it even better as we look ahead 5 to 7 years down 
the road.
    The Council of Chief State School Officers has worked for 
the past 3 months in three primary areas: One, the development 
of a policy statement; two, eight specific recommendations in 
how the law can be improved; and, finally, specific legislative 
language that can be used when you are considering 
reauthorization. The purpose of my remarks today though is 
going to be focusing on three primary areas where flexibility 
could benefit States across this country.
    The first area is the promotion of innovative models in 
reinventing the peer review process. We have all heard about 
growth models. In fact, there are seven States today that have 
been approved by the Department to implement growth models. 
There are many more States out there like South Dakota that 
would like to be one of those States. At times we are 
challenged, especially in rural States, to have the expertise 
we need to build the capacity to create growth models. It would 
be my hope that as we look ahead to the future that the NCLB 
reauthorization would include the ability to help States, all 
States if they want to reach a goal of growth models or other 
innovative testing systems that could benefit students in their 
State.
    We spend a lot of time talking about growth models, but I 
hope we don't forget that there could be other ways to assess 
kids, especially when you are looking at 21st century skills, 
ways like portfolios, project-based learning and possibly even 
computer simulations that would test whether the young people 
of today have the skills they need to be successful.
    The second part of my comment is reinventing the peer 
review process. Currently the peer review process is based 
almost exclusively on compliance. And frankly when the law was 
instituted in 2002 that was probably the right model to 
implement because the U.S. Department of Education had an 
obligation to ensure that every State complied and set the 
right foundation. The good news is almost every State in the 
country has been approved under the Standards and Assessment 
Program. So the need for the compliance peer review is less 
today than it was in 2002. So we are suggesting a peer review 
process that is a lot more transparent and a lot more 
collaborative in its efforts in working with the States.
    You may know this, but we have no opportunity to even talk 
to our peer review members when they are reviewing our State's 
Standards and Assessment Program. The best peer review process 
is an interactive process where you can sit at the table and 
have dialogue about your concerns and issues and the peer 
review members can get a better feeling from a State as to what 
the issues really are.
    The second area I wanted to emphasize is differentiated 
consequences. In South Dakota we have 700-plus schools in about 
168 school districts. As you can imagine, some of our schools 
in our State do very well. We also have some that hit--for 
example, in our largest district of Sioux Falls, there are 
three schools in Sioux Falls that hit 17 of 18 of their 
academic targets under No Child Left Behind. And yet those 
schools are treated the same as a school that hits 0 of 18 
academic targets. We lack the ability at the State level of 
treating individual schools differently based on their academic 
performance. If you hit 18 of 18 you are treated the same as 
someone that hits 0 of 18. Differentiated consequences have to 
be a part of reauthorization as we move into the future.
    And finally, teacher quality. We would all agree on the 
need for teacher quality and the importance of it. But in rural 
States like South Dakota where you have 45 districts with less 
than 200 kids high school teachers oftentimes teach many 
different disciplines and oftentimes five, six and even seven 
preps in a day. It is difficult to recruit high school teachers 
in our State when we are expecting them to take tests in three 
different content areas in five or six specific course content 
areas. So the Highly Qualified Teacher Act, even though I know 
its intentions are honorable and important, makes it 
increasingly difficult for us to recruit high school teachers 
and make sure that they are highly qualified in all other 
content areas.
    I am grateful for the opportunity to testify today and look 
forward to the question and answer period that will follow.
    [The statement of Mr. Melmer follows:]

                Prepared Statement of Hon. Rick Melmer,
                  South Dakota Secretary of Education

    Chairman Kildee, Ranking Member Castle, and Members of the 
Subcommittee, thank you for the opportunity to testify today on 
providing appropriate flexibility in the reauthorized Elementary and 
Secondary Education Act (ESEA). My name is Rick Melmer, and I am the 
Secretary of Education in South Dakota, a position I have held since 
2003. I am also the president-elect of the Council of Chief State 
School Officers (CCSSO) and have previously been a local superintendent 
in Watertown, South Dakota and in Sioux City, Iowa.
    Passage of the No Child Left Behind Act (NCLB) appropriately 
challenged states and school districts to redouble their efforts to 
ensure the success of all students. During the last 5 years, states 
have made tremendous strides in implementing the policies and programs 
needed to improve student achievement and close achievement gaps. In 
fact, every state has implemented state standards, state assessments, 
state accountability plans, and state teacher quality plans. Now the 
question is how do we use the opportunity presented by reauthorization 
to form a new state-federal partnership designed to build-on, and 
effectively use, the strong foundation laid by states and districts 
during the last few years. Working together I believe we can make a 
difference for each and every child in this country.
    CCSSO and its members worked for nearly a year and a half in 
preparation for reauthorization by developing a policy statement, eight 
specific recommendations, and then legislative language that codified 
the eight recommendations into current statute. We also partnered with 
the National Governors Association and the National Association of 
State Boards of Education to deliver a separate, joint reauthorization 
statement to Congress.
    CCSSO's membership believes that reauthorization should emphasize 
three principles (1) innovation, (2) capacity building; and (3) 
research and dissemination of best practices. These principles, and our 
specific recommendation for achieving them, have been delivered to the 
Committee through the testimony of nearly a half-dozen of my state 
colleagues who participated in recent hearings on adequate yearly 
progress, growth models, students with disabilities, and supplemental 
education services. I am here today to reinforce our recommendations 
and to talk about their specific importance in the rural context. I ask 
that you keep these concepts at the forefront of your internal 
discussions as you begin to craft the changes to the ESEA that will 
guide the education reform process for the next five years.
    This hearing focuses appropriately on examining the proper level of 
state and local flexibility needed to ensure that the reauthorized ESEA 
helps, not hinders, the education reform process during the coming 
years. Congress must continue to hold states accountable for improving 
student achievement and closing achievement gap, while also providing 
them with the flexibility needed to implement innovative models for 
accomplishing these vital national goals. States are chomping on the 
bit to move forward with creative, innovative solutions to many 
challenging problems, but the current framework is inhibitive and too 
rigid to recognize unique state and local challenges and opportunities, 
particularly in rural areas.
    Given the pace of change and the dramatic improvements we need in 
student achievement to make every child a graduate ready for college, 
work, and citizenship, the question is: How do we build a federal law 
that promotes state action and innovation, with continuous improvement 
over time? Flexibility and support are core strategies to achieving 
this goal. But what we need is a culture shift in federal law. 
Flexibility should not be understood as bending the rules, but should 
rather be available whenever it makes the best educational sense for 
students. Innovation should be the hallmark of federal law, in which 
states are encouraged to build better education systems that improve 
student achievement in their particular state contexts and may provide 
promising models for other states. This approach is particularly 
important in small and rural states like South Dakota, but also to my 
state colleagues who are moving towards innovations such as the use of 
formative and web-based, embedded assessments.
    How can federal law codify such innovation without undercutting 
core principles? We have several concrete recommendations that build on 
NCLB.
I. Promote Innovative Models and Reinvent Peer Review
    States should be encouraged to implement innovative education 
reform models, so long as they can demonstrate, through a revised peer 
review process, that their approach is educationally sound and is 
designed to raise, not lower, the achievement bar. The new system must 
also better recognize when schools and districts are making real 
progress. Rural states like South Dakota know what needs to be done to 
move forward, and could benefit significantly by having greater 
flexibility to address the unique problems they face.
    NCLB properly focused the nation's attention on improving basic 
skills for all students. Now the new law should take the next step 
forward by fostering a ``culture of innovation.'' Implementing this new 
approach will require incentives for encouraging innovation and a 
transformed peer review process. The current peer review process is a 
challenge not only for states, but also the U.S. Department of 
Education. South Dakota is now in the middle of its standards and 
assessment peer review and is currently labeled as ``approval 
pending.'' We admittedly have work to do to make our system better, but 
the current peer review framework does not always facilitate 
improvement. For example, a revamped peer review system supported by 
greater resources would enable the Department to provide more timely 
communication to us and to other states. The current process would also 
be more effective if it included a strong technical assistance 
component that informed our work. Rigid penalties are also a problem. 
For example, even though all interested parties acknowledge that we 
have made significant progress over the past year in improving the 
state's assessment system, 25% of our Title I administrative funds may 
be withheld. Such withholding will make it even more difficult for us 
to accomplish our objectives. I believe the new law should reward or 
acknowledge improvement, and avoid rigid penalties for states, like 
mine, that are making good faith efforts to improve.
    In sum, we believe a revised peer review process should grant 
states a role in the selection of qualified peers, focus on technical 
assistance, full transparency, real communication and dialogue with 
states, consistency in peer review standards and outcomes across 
states, timeliness of feedback and results, dissemination of best 
practices, and more.
II. Improve Accountability Determinations
    States should be able to use a variety of accountability models, 
including growth models and compensatory data that build on AYP, to 
promote more valid, reliable, educationally meaningful accountability 
determinations.
    South Dakota applied to be a growth model pilot state for the 
testing year 2006. Unfortunately, the Department denied our application 
and many other states' applications. More states might have been able 
to take advantage of this important flexibility if the law placed a 
greater emphasis on fostering innovation and provided increased 
resources and strong technical support. For example, many rural states 
do not have the ``in-house'' expertise (i.e., psychometricians) to 
develop and evaluate their own assessment systems. In this instance, an 
enhanced peer review process that includes technical assistance and 
provides incentives for innovation could have had powerful results. 
Therefore, while we strongly urge you to encourage growth models as 
part of ESEA reauthorization, we also ask that you ensure the new law 
encourages states to pursue such innovations and provides proper 
financial and technical supports needed to help them succeed.
III. Differentiated Consequences
    The reauthorized ESEA should encourage a full range of rewards and 
consequences for districts and schools that differ appropriately in 
nature and degree. Based, for example, on whether schools miss AYP by a 
little versus a lot. In that context, the new law should permit states 
to exercise appropriate judgment and differentiate both accountability 
determinations and consequences based on sound evidence.
    This is particularly important in rural areas where the rigid 
consequences of NCLB often do not fit the needs of the school or 
district struggling to make improvements. For example, the Sioux Falls 
School District in South Dakota is our largest district. The Sioux 
Falls district is currently on Level 2 of District Improvement even 
though the district has reached over 80% of the academic targets (180 
of 224). Furthermore, there are three schools in Sioux Falls that 
reached 17 of 18 academic targets and yet remain ``in improvement.'' 
This designation is the same as a school that reaches 0 of 18 would 
receive. The ``all or none'' approach to school and district 
improvement must change to reflect an accurate assessment of 
educational progress or lack thereof. Unless a school in improvement 
reaches a perfect score two years in a row, the school remains ``in 
improvement.''
IV. Enhance Teacher Quality
    Incentives should be put in place for states to create the best 
teaching force by continuously improving teacher quality, by supporting 
best-in-class professional development, and by using multiple 
individual pathways to pedagogical and subject matter expertise.
    South Dakota has 45 school districts with less than 200 students in 
the K--12 districts. High school teachers are expected to teach in 
multiple disciplines in order for the small high schools to meet the 
state's graduation requirements. As a result, the highly qualified 
teacher guidelines, which tend to favor large districts with 
specialized teachers, can hamper a rural district's ability to meet the 
intent of the law.
    The highly qualified expectations for high school special education 
teachers have made a challenging circumstance even more difficult. 
South Dakota currently has a shortage of special education teachers, 
especially at the high school level. The current law that requires a 
special education teacher to be highly qualified in all content areas 
is unrealistic and problematic in rural states.
    I mentioned only a few of the areas where rural states like South 
Dakota have felt most challenged by the rigidity of the current 
framework. We have learned a lot in just the past few years about what 
is working in our schools and what is not. It's fair to say that the 
federal government, nor states, nor districts, nor schools have all the 
answers, so the law must provide room for continuous improvement and 
states and districts should be able to use their judgment about how to 
accomplish NCLB's core objectives.
    Thank you again for the opportunity to testify today and I look 
forward to answering any questions you may have.
                                 ______
                                 
    Chairman Kildee. Thank you very much.

            STATEMENT OF KATHLEEN STRAUS, PRESIDENT,
               MICHIGAN STATE BOARD OF EDUCATION

    Ms. Straus. Thank you, Chairman Kildee, Congressman Castle 
and members of the subcommittee. I am delighted to be here and 
greatly appreciate the opportunity to appear before you and 
discuss flexibility in the most recent version of the 
Elementary and Secondary Education Act, or the No Child Left 
Behind Act. I am particularly pleased and honored to be here 
with Chairman Kildee in the position he is in because, as he 
said, we go back a long way to when he was in the State Senate 
in Michigan and I was a Staff Director for the Senate Education 
Committee at that time. So we are very proud to have you in 
your position and very proud of you.
    And I am privileged to be here today to represent not only 
the State of Michigan as President of the State Board, which in 
Michigan is an elected statewide body, bipartisan, but I am 
also speaking on behalf of the National Association of State 
Boards of Education and my colleagues who serve on State boards 
throughout the country.
    I want to make it clear that Michigan State Board of 
Education and indeed all the State boards across the country 
embrace the philosophy and the goals of the No Child Left 
Behind Act. It is our belief that the fundamental aspects of 
the law are positive and well-intentioned.
    As State education leaders we have championed the theory 
for many years that all children can learn. But it is also our 
belief of State boards generally, and in particular the entire 
State Board of Michigan, all eight members, Republicans and 
Democrats alike, that modifications to NCLB are necessary to 
reach these goals.
    In the initial phases of implementation there was no aspect 
of the law that was more welcome than flexibility, nor more 
touted I might add. We were soon to learn, however, that the 
flexibility existed more in theory than in application. What we 
inherently knew as State board members at the State level and 
throughout the country was that we have 50 separate distinct 
State education systems. A one-size-fits-all approach is 
difficult if not impossible to apply throughout the country.
    Speaking from personal experience, this became painfully 
clear as we in Michigan parsed through the law page by page all 
those many, many pages and provisions and tried to make it fit 
into the academic frameworks, assessment schedule and the 
accountability system that we had previously and so 
successfully established in Michigan. We came to the conclusion 
that while we are meeting the spirit of the law we clearly 
needed more flexibility to help our good faith efforts in 
meeting the letter of the law.
    As a result, I am here today to reaffirm the NASBE 
recommendation, the National Association of State Boards of 
Education recommendation, that we need to move from a law of 
absolutes to one that incorporates the following principles:
    One, provide adaptation in State assessment requirements, 
particularly for testing of special needs students, such as 
students with disabilities and limited English proficient 
students.
    Two, to permit the use of growth model measures in all 
States.
    Three, to provide accommodations in teacher qualifications, 
deferring to well-established State licensure procedures, 
recognizing in particular the challenges of staffing in rural 
areas and high needs subjects.
    Fourth, to recognize the enhanced role of States in 
education leadership, technical assistance and school 
improvement with a solid, consistent Federal investment for 
State capacity that reflects the State-Federal partnership in 
improving low performing schools. All the States are providing 
a great deal of technical assistance but need the capacity to 
do so.
    And fifth, promote fair, consistent and equal treatment in 
all dealings, negotiations and approvals between State and 
Federal officials supplemented by peer review, as Rick just 
said, consisting of accomplished, credentialed, well-trained 
professionals knowledgeable in State and Federal education 
policy and law.
    As you know, these issues surrounding ESEA reauthorization 
are of such concern to State educational leaders that NASBE, 
the National Governors Association and the Council of Chief 
State School Officers included these things, among others, in a 
recently proposed set of joint reauthorization recommendations 
that were submitted to Congress. Perhaps the most important 
suggestion I could make today on behalf of State policy makers 
is to give States that have served as the laboratories of 
innovation and reform the latitude to address their unique 
circumstances. States should be extended the freedom to 
development and implement policies that meet their specific 
needs while remaining within the spirit and letter of the law.
    Admittedly, some areas have been addressed but clearly many 
more aspects need attention and collaboratively developed 
resolutions. In Michigan's accountability workbook submissions, 
for example, to the Department of Education that serve as our 
current day annual plans we have asked for such latitude. But I 
regret to say that a fair amount of what we have thoughtfully 
compiled and presented has been rejected, often after months of 
delay and sometimes having been accompanied in the first and 
subsequent instances by what we thought were encouraging 
commentaries of acceptance.
    Unfortunately, our experience in Michigan has not been 
unique. As a State that is generally recognized as a national 
leader in education and as one of some 18 States that have 
received full approval for our assessment system, what would we 
specifically request.
    You have our whole statement, but I will be glad to answer 
any questions you have. So thank you very much for this 
opportunity.
    [The statement of Ms. Straus follows:]

       Prepared Statement of Hon. Kathleen N. Straus, President,
                   Michigan State Board of Education

    Chairman Kildee, Congressman Castle and Members of the 
Subcommittee, please accept my sincere appreciation for the opportunity 
to testify today on flexibility in the most recent version of the 
Elementary and Secondary Education Act/No Child Left Behind Act. I am 
privileged to appear before you today, representing not only the State 
of Michigan as President of the statewide, elected, bipartisan State 
Board of Education, but also speaking on behalf of the National 
Association of State Boards of Education (NASBE) and my colleagues who 
serve on state boards of education throughout the United States.
    Initially I want to make it abundantly clear that the Michigan 
State Board of Education and, indeed, all state boards of education 
embrace the philosophy and goals of the No Child Left Behind Act. It is 
our belief that the fundamental aspects of the law are positive and for 
the most part well intentioned. As state education leaders, we have 
championed the theory for many years that all children can learn. But 
it is also our belief--of state boards generally and the entire 
Michigan State Board of Education, all eight members, Republicans and 
Democrats alike in particular--that modifications are necessary to the 
amendments made in the 2001 reauthorization.
    In the initial phases of implementation of the No Child Left Behind 
Act, there was no aspect of the new law more welcome than flexibility, 
nor more touted, I might add. We were soon to learn, however, that the 
flexibility existed more in theory than in application. What we 
inherently knew as state board members at the state level and 
throughout the country, was that we essentially have 50 separate, 
distinct state education systems. A one-size-fits-all approach is 
difficult if not impossible to universally apply throughout the 
country. Speaking from personal experience, this became painfully clear 
as we parsed through the law page by page and provision by provision, 
and tried to make it fit into the academic frameworks, assessment 
schedule, and accountability system we had previously and so 
successfully established in Michigan. We came to the conclusion that 
while we are meeting the spirit of the law we clearly needed more 
flexibility to help our good faith efforts in meeting the letter of the 
law. As a result, I am here today to reaffirm the NASBE recommendation 
that we need to move from a law of absolutes to one that incorporates 
the following principles:
    Provide adaptation in state assessment requirements, particularly 
for testing of special needs students such as students with 
disabilities and Limited English Proficient (LEP) students;
    Permit the use of growth model measures in all states;
    Provide accommodations in teacher qualifications, deferring to 
well-established state licensure procedures, recognizing in particular 
the challenges of staffing in rural areas and high-need subjects;
    Recognize the enhanced role of states in education leadership, 
technical assistance, and school improvement with a solid, consistent 
federal investment for state capacity that reflects the new state-
federal partnership in improving low-performing schools;
    Promote fair, consistent and equal treatment in all dealings, 
negotiations, and approvals between state and federal officials, 
supplemented by peer review teams consisting of accomplished, 
credentialed, well-trained professionals, knowledgeable in state and 
federal education policy and law.
    As you know, these issues surrounding ESEA reauthorization are of 
such concern to state educational leaders that NASBE, the National 
Governors' Association, and the Council of Chief State School Officers 
included these themes among others in a recently-proposed set of joint 
reauthorization recommendations submitted to the Congress.
    Perhaps the most important suggestion I could make today on behalf 
of state policymakers is to give states that have served as the 
laboratories of innovation and reform the latitude to address their 
unique circumstances. States should be extended the freedom to develop 
and implement policies that meet their specific needs, while remaining 
within the spirit and letter of the law. Admittedly some areas have 
been addressed, but clearly many more aspects need attention and 
collaboratively-developed resolutions.
    In Michigan's accountability workbook submissions to the U.S. 
Department of Education (USED) that serve as current day annual plans 
we have asked for such latitude. Some of what we have sought has been 
accepted. But I regret to say that a fair amount of what we have 
thoughtfully compiled and presented has been rejected, often however 
after months of delay, and sometimes having been accompanied in the 
first and subsequent instances by encouraging commentaries of 
acceptance. Unfortunately, our experience in Michigan has not been 
unique.
    As a state that is generally recognized as a national leader in 
education, and as one of some 18 states that have received full 
approval for our assessment system, what would we specifically request? 
Let me briefly provide you with our priorities:
    Graduation Cohorts of More Than Four Years Recognizing that time is 
the variable for some students to achieve the more rigorous graduation 
requirements recently adopted in Michigan and across the nation, we 
must have the flexibility to use graduation cohorts of more than four 
years under some circumstances. This is especially necessary for 
alternative education programs that accept and embrace students who are 
far behind grade level and are punished by the current system when they 
are unable to graduate the individual students with a four-year cohort.
    Use of Best Score Through Grade 12 in Adequate Yearly Progress 
Calculations (AYP) Michigan would like to incorporate the student's 
best score, including senior retests, in AYP determinations. The best 
score for students in calculating high school AYP would be used through 
Grade 12. We recommend the use of alternate assessments measured 
against alternate/modified achievement standards based on 
individualized growth expectations across grade levels, as needed for 
some students.
    Identification of School or School District for Improvement It 
would be preferable to identify a school or school district for 
improvement only if the school or school district does not make AYP for 
the same content area in the same subgroup for two consecutive years.
    Proxy Calculation for Students with Mild to Moderate Cognitive 
Impairment Allow the ``standard number of years'' for graduation to be 
more than four under special circumstances.
    Permit the Development of Appropriate Assessments for Students with 
Disabilities An assessment between the current ``1 percent assessment'' 
and the newly-permitted ``2 percent assessment'' would help states 
assure that all students with disabilities are assessed appropriately.
    Limited English Proficient Students and AYP Allow schools and 
school districts to expand flexibility for English Language Learners 
(ELLs) in their first year of school in the United States to their 
first two years of school in the U.S. Allow ELL students to reach 
proficiency in English before testing in English; allow standard number 
of years for graduation to be more than four. Permit states to properly 
include new immigrant ELL students in school accountability, based on 
multiple measures for several years (no fewer than three), where 
educationally appropriate. Allow a full range of alternative 
assessments, and a system that values individualized growth. Recognize 
the positive performance of students who have recently transitioned out 
of the ELL student subgroup accountability determinations for an 
appropriate period.
    Consistency with Approvals of Exceptions Among States In 
Washington, the current terminology is transparency. In Michigan we 
would refer to it as equity, fairness, and respect. In the creation of 
state plans and the approval of accountability workbook modifications, 
USED should maintain a policy of consistency. Uniformly sharing 
information about approvals openly among states would foster great 
mutual respect and trust, and at the same time assist states in 
resolving similar difficulties. Some examples of inconsistency have 
been approval of various N sizes, confidence intervals, and assessment 
of ELL students.
    Thank you again for the opportunity to offer Michigan's State Board 
of Education perspective and that of our national association. I would 
be pleased to answer any questions you may have, or provide background 
information to support the issues I have raised today.
                                 ______
                                 
    Chairman Kildee. Thank you very much and your entire 
statement will be included in the record.
    Miss Johnson.

   STATEMENT OF CAROL JOHNSON, SUPERINTENDENT, MEMPHIS CITY 
                            SCHOOLS

    Ms. Johnson. Good afternoon, Chairman Kildee, Congressman 
Castle, and members of the subcommittee. I am Carol Johnson, 
Superintendent of the Memphis City Schools. I have been in 
Memphis for 4 years and 6-1/2 years in Minneapolis, Minnesota 
before that as Superintendent. Thank you for the opportunity to 
testify on flexibility issues and on No Child Left Behind.
    This school year I am really proud to say that the State of 
Tennessee declared Memphis City Schools to be in good standing 
under No Child Left Behind. It was the first time since No 
Child Left Behind has been put in place. In 2004, we had about 
62 schools that were deemed a high priority by the State. And 
indeed we have a lot more work to do, but today we have about 
half that number, about 36 schools.
    The Council of the Great City Schools in their Beating the 
Odds report reported that our school district was making faster 
progress than the State. And we believe that flexibility means 
different things to different people. And so my comments today 
will really focus a great deal on where we think the 
flexibility should occur.
    But before I begin let me just say that I think that No 
Child Left Behind is at a critical juncture where failure to 
address concerns about the implementation threatens to 
undermine its original and noble purpose of creating academic 
success for all students. So I hope today, and as you review 
the bill, that you will certainly look at ways to enhance the 
flexibility that I think is desperately needed.
    Today I would like to briefly summarize five key points: 
School intervention and improvement framework, a little bit 
about the growth model and data systems, transferability and 
staffing high priority schools.
    We believe, and if you look on page 7 of my remarks you 
will see that the Council has outlined a modification of the 
school intervention and improvement framework. The chart 
attached to my testimony on page 7 illustrates our proposal and 
how it compares with the current law. This revision will allow 
the accountability timeline for schools to begin immediately. 
It focuses on improvement and acknowledges a sustained change 
happens over a multi-year period, not one year at a time, and 
shifts the sanctions from cascading and changing every year to 
helping schools to stay focused on the improvement strategy 
long enough to see real results. And further in the red boxes, 
it separates, and I think this is consistent with Secretary 
Melmer's comments, it separates those schools that are 
pervasive and persistent failures to those schools that have 
maybe one subgroup having difficulty. It does retain the 
parental choice that will remain and it moots the effects of 
receiving late test data from the State and gives schools 
additional flexibility in the use of funds.
    The Council's emphasis on good and best teaching strategies 
during this initial intervention period I believe is consistent 
with what we are seeing in Memphis that really works. The focus 
on restructuring strategies is something I am familiar with in 
my experience both in Minneapolis and in Memphis. Over the past 
three years we have restructured, or fresh started as we call 
it, eight schools in Memphis and we begin restructuring for 
additional schools this fall. Of the eight schools that have 
been restructured six now have made adequate yearly progress 
after failing to make AYP for 6 consecutive years.
    The Memphis City Schools restructuring model is known as 
Fresh Start and before we decide to restructure a school we 
don't just rely on the test score data; we have a team of 
external examiners come in and work with us to look at all 
aspects of the data, including survey data and other things 
about the school climate. Our restructuring program begins 
first by replacing the principal and then we have flexibility 
in our collective bargaining agreement to hire teachers out of 
seniority order and as well to alter the compensation structure 
so that they can get rewarded for actual results.
    The growth model, and of course Tennessee is one of those 
States that has had extensive experiences with the growth 
model, and we agree with most educators that a growth model 
should be incorporated into the accountability system. I 
believe that what teachers want is teachers want to get credit 
for showing progress with students who may come not being 
English speakers, but who teachers teach to read, write and 
think in English. That progress, though it may be significant, 
sometimes it is not enough for them to make the adequate yearly 
progress that is needed.
    All of us are working to improve our tracking system so 
that we know what works and we know who is achieving. In 
Memphis we have a formative assessment system to monitor 
student progress and we use that every 6 weeks.
    Transferability, we believe that we need greater 
flexibility, keeping Title I and Title III separate, since they 
are very student focused, but in the other categories asking 
for greater flexibility.
    And then just finally we believe that it is really 
important that we are able to use a range of tools to incent 
and support putting and keeping the best teachers with our most 
vulnerable students. We are using Teach for America induction 
and mentoring programs, a teacher incentive grant to reward 
performance and connect good teaching practices with reward 
systems.
    Thank you.
    [The statement of Ms. Johnson follows:]

                Prepared Statement of Dr. Carol Johnson,
               Superintendent of the Memphis City Schools

    Good morning Chairman Kildee, Congressman Castle, and members of 
the Subcommittee. I am Carol Johnson, Superintendent of the Memphis 
City Schools. Thank you for the opportunity to testify on flexibility 
issues under the No Child Left Behind Act (NCLB), legislation that we 
have worked hard to implement.
    The Memphis City Schools (MCS) is a large urban school district 
comprised of 191 schools and 118,000 students. Approximately 77 percent 
of our students receive a free or reduced-price lunch. We serve a 
predominantly African-American student population, but have a growing 
enrollment of English language learners who now number over 4,800 
students from a variety of countries. Some 14.4 percent of our students 
are enrolled in special education programs, of which about 12 percent 
are gifted. We are very proud to serve this diverse group of young 
people.
    We are also proud of the work of our administrators, teachers, and 
community leaders. They are striving every day to improve the academic 
achievement of our students. This school year, the State of Tennessee 
declared our district to be in ``Good Standing'' under No Child Left 
Behind for the first time. In 2004, we had 62 schools that were deemed 
``High Priority'' by the state, i.e., in need of improvement. Today, we 
have about half that number--36.
    Our academic gains, in fact, were highlighted recently in the 
Council of the Great City Schools' latest Beating the Odds report. The 
report not only recognized our progress but also pointed out that we 
are improving at a rate that far out paces statewide improvements. 
Nevertheless, we know that we still have considerable work to do.
    I am pleased to be testifying today on the issue of flexibility 
under NCLB. Flexibility, of course, means different things to different 
people. To a school superintendent, flexibility can mean the ability to 
move human and financial resources around to meet specified needs. But 
it can also mean the freedom to give the wrong contract to an 
unqualified group. To a principal, flexibility can mean the ability to 
hire the team he or she wants in order to meet AYP targets. It can also 
mean the latitude to hire a workshop speaker he or she heard at a 
recent convention. To a teacher, flexibility can mean trying a new 
pedagogical technique. It can also mean closing the classroom door and 
doing whatever he or she feels like that day. To a state, flexibility 
can mean experimenting with alternative assessments for English 
language learners. It can also mean excluding those students by setting 
high N sizes. Or it can mean defining one's own definition of academic 
proficiency.
    What gives flexibility its meaning and power is accountability, and 
the ability to hold people responsible for attaining expected goals--
often in exchange for that latitude.
    I am a strong believer in flexibility and the accountability that 
should accompany it. The Council of the Great City Schools on whose 
Executive Committee I sit also believes in this general principle. As a 
group, we continue to support NCLB and have developed a series of 
recommendations for its reauthorization that expands maximum 
flexibility while retaining strong accountability. We have also 
proposed ways to fix the law's operational problems, and shift funds 
into activities with greater promise for raising student achievement 
and narrowing achievement gaps. We have retained the overall framework 
of the Act, but have suggested modifying its internal operating gears 
so that its initial promise is better realized.
1. Proposed Intervention and Improvement Framework
    I would like to take a few minutes to describe how the nation's 
urban schools would modify the ``school intervention and improvement'' 
provisions of the law. The chart attached to my testimony illustrates 
our proposal and how it compares with current law.
    We propose that a school not making Adequate Yearly Progress (AYP) 
would begin school improvement planning immediately, rather than 
waiting another year. The school plan would have to focus on low-
performing students, particularly those in low-performing subgroups. A 
school with large numbers of students who were not proficient would 
have a more extensive plan than a school with a lesser numbers or 
percentages of low-performing students. During this one-year planning 
phase, schools would have the flexibility to begin staff development 
immediately and the latitude of using Title I funds to acquire 
necessary instructional materials or technical assistance.
    We would then consolidate the current School Improvement I, School 
Improvement 2, and Corrective Action phases of the current law into a 
single, three-year school intervention and improvement period. This 
three-year period would allow a school to use its funds for well-
researched instructional strategies that have been shown to raise 
student achievement--such as differentiated instruction, coaching, 
research-based reading programs, tiered interventions, benchmark 
testing, professional development, and the like. The school would be 
required to use up to 30 percent of its Title I funding for 
professional development, choice, and supplemental educational 
services, but would have the flexibility to fund these activities at a 
variety of levels as long as parents retain the option of transferring 
to another school or pick an external, private SES provider. We would 
follow this initial improvement period with serious but more 
differentiated consequences than the law currently provides.
    This overall approach would have a number of advantages over 
current law. First, it would allow schools the time to pursue promising 
instructional programming under the direction of the school districts 
without changing activities each year in pursuit of the cascading 
sanctions the law now requires. Second, it would allow enough time for 
the instructional strategies to work before sanctions were levied. 
Third, it would give schools additional flexibility in the use of 
funds. Fourth, it would mute the effects of late test data from the 
states because the school's status would be determined for a multi-year 
period. Fifth, it would retain parental choice. Finally, it would keep 
the most serious sanctions but place them at the end of a process that 
was devoted to raising achievement and narrowing gaps.
    The Council's emphasis on good instructional strategies during this 
initial intervention and improvement period is consistent with what we 
are doing in Memphis to raise student achievement, and what the 
organization has learned from its highly successful Strategic Support 
Teams. In Memphis, we use a series of strategies to assist and support 
our ``High Priority'' schools, including----
            Districtwide Strategies for All Grade Levels
    <bullet> Administrative leadership training
    <bullet> School monitoring and ``walkthroughs''
    <bullet> Cross-functional instructional teams
    <bullet> DATA (Directing Achievement through Accountability)
    <bullet> Formative assessments
    <bullet> Professional learning communities to sustain improvement 
and change
    <bullet> Behavioral supports (Blue Ribbon Initiative)
            Elementary School Strategies
    <bullet> Literacy academy at selected schools
    <bullet> Voyager interventions--Grades 2-5 districtwide
            Middle School Strategies
    <bullet> Read 180
    <bullet> Striving Readers (eight schools)
    <bullet> Increased honors--level courses
    <bullet> Making Middle Grades Work (district implementation)
            High Schools
    <bullet> High Schools That Work
    <bullet> Small Learning Communities (9th grade academies)
    I also have made a number of organizational changes to increase 
support for students, teachers, and schools by establishing an Office 
of Academic Affairs, an Office of Student Engagement, an Office of 
Research, Evaluation and Assessment, and establishing a new associate 
superintendent's position to lead professional development.
2. Differentiated Consequences and Restructuring
    The Council's proposals follow this initial period of intervention 
and improvement with a series of differentiated consequences, a concept 
that has received much attention as of late. We would distinguish 
between two types of schools: schools that persistently and pervasively 
fail to make progress with a majority of its students, and schools that 
fail to make progress with students who comprise fewer than half their 
students. Schools in the first category would be required, after a 
planning year, to comprehensively restructure or close. Schools in the 
second category would be required, after a planning year, to pursue a 
restructuring strategy that was more explicitly focused on the students 
or subgroups that were not making progress and staff members delivering 
services to them.
    The first category of schools under our plan would warrant 
comprehensive restructuring or closure if they could not make any 
academic progress. The second category of schools would not necessarily 
warrant closure if the majority of its students or subgroups were 
making AYP targets or showing progress. These schools, instead, would 
have to focus their efforts and strategies--under the supervision of 
the district--on the students not making headway. We would cap the 
number of these schools in either category at a manageable 10 percent 
of all schools in a large district.
    In the past three years, I have restructured eight schools in 
Memphis, and will begin restructuring four additional schools in 2007-
2008. Of the eight schools that have been restructured, six have now 
made Adequate Yearly Progress after having failed to make AYP for six 
consecutive years.
    Before deciding to restructure a school, our Memphis staff have to 
document the specific intervention and support strategies that have 
been implemented. If these measures prove unsuccessful, the district 
then contracts with an external group to conduct a management and 
instructional review of the school. The results of this review are used 
to determine whether restructuring is in the best interest of students. 
If restructuring is called for, then wed engage school staff, parents, 
and the school community to support the restructuring and reform 
efforts.
    The Memphis City Schools restructuring model is known as ``Fresh 
Start.'' Our program begins by replacing the principal of the 
identified school. The new principal is then given the authority to 
appoint a new administrative support team that will work together to 
interview and hire an entirely new faculty and school support staff. 
Teachers in ``Fresh Start'' schools are paid for two additional weeks 
of professional development--one before the school year starts and one 
later. Teachers in ``Fresh Start'' schools are eligible for financial 
bonuses based on the school's progress toward student achievement 
goals.
    This overall restructuring approach is not easy or free of 
controversy, but it can be more effective. The Council's proposal also 
makes sense because it matches the sanction more closely to the 
severity of the problem without letting schools with small numbers of 
subgroups off the hook. Finally, this proposed approach more fairly 
balances an emphasis on instructional improvement and budgetary and 
programmatic flexibility with the need for strong accountability at the 
end of the day. That balance is out of kilter under current law because 
of its overemphasis on punishment and under-emphasis on what it takes 
to meet the Act's goals--good instruction.
3. Other Areas of Flexibility, Authority, and Reduced Restrictions
    a) Growth Models. Virtually every commentator on NCLB suggests that 
the law include a growth model that would consider academic progress as 
part of the Act's accountability system. We agree with adding this 
feature to the law. Because not every state will want to use this 
flexibility, however, the Council recommends that school districts with 
the data capability be allowed to use an approved growth model from 
another state as part of that district's accountability system under 
NCLB. For example, Denver or Omaha could adopt the Tennessee or North 
Carolina model to assess progress and determine AYP.
    We in Memphis have benefited from participation in the Tennessee 
Growth Model Pilot Program. It has given us a more accurate picture of 
the impact of the school's educational program on individual student 
academic growth. And it has given us better data to inform instruction. 
Still, Congress should know that growth models are not the panacea for 
long lists of ``failing'' schools if the models are based on a 
``universal proficiency trajectory'' tagged to 2013-14. Less than a 
dozen schools made AYP using the Tennessee Growth Model. Even fewer did 
using the North Carolina Growth Model because both models are simply 
variations on the current status model and do not provide much credit 
for actual growth across the range of student achievement. The Council 
has made a number of recommendations for the ``safe harbor'' provisions 
that would give more credit for growth even if the school and students 
remained below the target proficiency levels. We think this would help 
improve flexibility.
    b) Improved Data Systems. An essential component of any growth 
model is the state and local data system necessary to implement and 
support it. The Council suggests that local school districts have the 
flexibility to use up to 1 percent of their federal education funds for 
improving local data systems.
    c) District Provision of SES or Extended Learning Programs. The 
Council has recommended retaining NCLB's SES program but proposes 
making it part of the schools' intervention and improvement program. 
With that change would come the flexibility to use dollars on efforts 
that are more likely to boost the overall academic performance of 
children. Data collected by the Council also indicate that the numbers 
of participating students increase when the school district itself is a 
provider. The Council is urging that school districts be allowed 
explicitly the flexibility to provide those services.
    d) Recruitment, Support, and Deployment of Staff in High Poverty 
Schools. The Council acknowledges that there is a serious national 
problem with the disproportionate placement of inexperienced teachers 
in high poverty schools. We would urge that school districts have the 
flexibility to use their ESEA funds for teacher recruitment, induction, 
mentoring, and other strategies to recruit, deploy, and support 
experienced and effective teachers in high poverty schools rather than 
mandating more requirements that schools cannot comply with.
    e) Restrictions on ESEA Transferability. The Council proposed the 
transferability of ESEA funds in 2001 as part of the original NCLB 
authorization. We made this recommendation to allow school districts 
the flexibility to concentrate funding on a particular problem area 
while protecting the funding for the child-centered programs under 
Title I and Title III. Congress reduced this flexibility, however, when 
it limited the percentage of funds that could be transferred and 
further limited the flexibility for districts in improvement status 
under section 1116. Some school districts previously using funds for 
school improvement activities are currently being prohibited from 
continuing these initiatives. Moreover, regulatory restrictions from 
the Department of Education have discouraged districts from 
transferring funds into Title I. The reauthorization should remove the 
percentage restrictions and regulatory constraints and encourage the 
use of the transferability provisions for school improvement purposes.
    I--like most of my urban colleagues--have supported No Child Left 
Behind from the outset, although I see all the same problems with the 
law that its detractors see. NCLB's focus on disadvantaged and minority 
student achievement is precisely the role that the federal government 
envisioned when it passed the original Elementary and Secondary 
Education Act in 1965. Unfortunately, it has taken until the beginning 
of the 21st century and the passage of NCLB for federal policy to get 
serious about the unconscionable achievement gaps that persist in our 
country. I hope that my comments today and the pragmatic 
recommendations from the Council of the Great City Schools will assist 
the Committee in revising the law in a way that will recapture the 
nationwide, bipartisan support that NCLB enjoyed at its enactment. 
Thank you.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Kildee. Very good. We have votes on the floor of 
the House, but if you take 5 minutes we can make it over there 
and come right back, but we will hear from you first.

         STATEMENT OF CHESTER E. FINN, JR., PRESIDENT,
                  THOMAS B. FORDHAM FOUNDATION

    Mr. Finn. Thank you, Mr. Chairman, Mr. Castle, members of 
the committee. It is nice to be invited. I feel as if I should 
be dragging a large national membership organization with me 
today to keep up with my colleagues, but in fact I am here on 
behalf of myself and my colleagues at the Thomas B. Fordham 
Foundation, three of whom came along today, including Mike 
Petrilli, who runs our national programs, recently spent 4 
years at the Department trying to implement NCLB and currently 
is the Chief Editor of The Education Gadfly.
    We believe that flexibility isn't a program or an 
amendment, it is actually a core principle, and it is a 
principle at the heart of the most important question that 
Congress needs to answer with respect to the next go-around on 
NCLB. Namely, in K-12 education what should the Federal 
Government be tight about and what should it be loose about, 
when should Uncle Sam be proscriptive and when should he be 
flexible. I tend to view NCLB as a good first draft. And now 
you have a chance to edit it, revise it, hand it back to its 
students and make them improve what they were doing under the 
first draft.
    How to fix it? Under the heading of the principle of 
flexibility these debates quickly become ideological. 
Conservatives tend to argue that States are in charge and the 
Federal Government should leave them alone. Liberals are apt to 
argue that States can't be trusted and that only strong Federal 
enforcement of specific actions will cause good things to 
happen. Neither of these views is right. Each leads to a bad 
outcome. The challenge is to strike an intelligent balance 
here.
    I want to suggest that there are three guidelines worth 
following. First, whenever possible the Federal Government 
should be tight with respect to results and loose with respect 
to process and procedure.
    Second, the Federal Government should figure out what it is 
actually good at and where it is apt to be most effective and 
only do those things, not try to do things it is not good at 
doing.
    And thirdly, Washington should encourage States, districts 
and schools to earn more autonomy on the basis of strong 
performance and successful results.
    My written statement elaborates on all three of those 
guidelines and offers a number of suggestions for specific 
measures that might be taken under each of them. If you all 
don't have to run, I will go over a few. If you want to run, I 
am happy to wait for questions.
    Chairman Kildee. You can finish up.
    Mr. Finn. What does it mean to be tight as to results and 
loose as to process? This is of course Management 101. Any 
large, complex organization sets expectations for its units and 
then gives them freedom as to how to attain those expectations 
and what results to produce. And yet Federal policy has so 
often gotten it backwards, obsessing about process and actually 
paying minimal attention to results.
    I think NCLB's architects in 2001 believed they had gotten 
this straightened out and that NCLB really was about results. 
But in fact it turned out to be backwards. NCLB turned out to 
be proscriptive with respect to a number of procedures and 
inputs in schools and actually surprisingly laid back about 
results leaving it to each State to decide what results it 
wanted and how to measure them. And we have seen a whole number 
of reports and studies, including JACS, but also NCES. And we 
see that State standards are incredibly variable, literally all 
over the place with respect to what States are expecting of 
young Americans. This is not good and it has led Washington 
instead to try to control interventions, teacher 
qualifications, a whole bunch of inputs and procedures. And 
that part is not going very well. What would work far better is 
for you all to be quite proscriptive with respect to standards 
and tests and use that as an opportunity then to rein in the 
regulatory and supervisory impulses of the Federal Government 
with respect to how schools ought be run and staffed and 
intervened in and operated.
    I think, for example, spending restrictions should be 
lifted in return for results. I think that Mr. McKeon's thought 
on this point is spot on. I think staffing restriction should 
be lifted with respect to highly qualified teachers. It is far 
better to focus on student achievement than to focus on teacher 
credentials.
    And third, the NCLB is very proscriptive in terms of the 
interventions that districts are supposed to make in schools 
year by year by year. It would be far better to let those who 
actually have to engage in the interventions figure out what 
sequence and what timetable is likely to work best as long as 
they are all being held to account for performance against a 
common timetable and results which in turn are illuminated by 
an enormous amount of sunlight, comparable sunlight, that 
everybody's results with respect to each other can be seen and 
observed.
    I have got a number of examples under my second maxim, 
figure out what the government is good at and only do those 
things. And I have got a bunch more examples under the third 
maxim that you should encourage States, districts and schools 
to earn greater autonomy on the basis of their performance.
    This might be the most novel point we are making here 
today. A number of cities have figured out that successful 
schools ought to actually have greater freedom to continue to 
succeed. This is a principle that could be applied to States 
and districts as well. The better they do, the more freedom 
they get to innovate and do things their own way and the less 
they have to conform to process and input requirements or 
regulations.
    I could, as you know, go on but in deference to your clock 
as well as your vote, I would be happy to answer questions. 
Thank you very much.
    [The statement of Mr. Finn follows:]

   Prepared Statement of Chester E. Finn, Jr., President, Thomas B. 
  Fordham Institute and Chairman, Koret Task Force on K-12 Education, 
                Hoover Institution, Stanford University

    Chairman Kildee, Congressman Castle, members of the subcommittee: 
thank you for the opportunity to testify today. I am heartened to see 
you take up the issue of ``Current and Prospective Flexibility Under No 
Child Left Behind,'' though I am also aware that this is one of the 
last hearings currently scheduled before you start work on legislation. 
I hope it's a case of saving the best for last, not some sort of 
afterthought.
    That's because ``flexibility,'' properly conceived, shouldn't be 
considered an ``add-on,'' a separate program, or a sideshow. Rather, it 
is at the heart of the most important question the Congress must answer 
with respect to the next iteration of NCLB and ESEA. Namely: in 
elementary-secondary education, what should the federal government be 
``tight'' about, and what should it be ``loose'' about. When should 
Uncle Sam be prescriptive, and when should he be flexible?
    A few weeks ago, at a National Press Club panel, Hartford 
Superintendent Steve Adamowski commented that ``high-achieving 
organizations eventually, in some way, get this right: what do you hold 
tight, what do you hold loose.'' As a local superintendent, he wrestles 
with this question all the time. What should be done uniformly, with 
strong central office control? And what should be delegated to 
principals? Too much flexibility and schools can founder. Too much 
prescription and innovation is sunk.
    In Washington, these debates about prescription versus flexibility 
and the proper federal role quickly become ideological. Conservatives 
tend to argue that states have constitutional authority for schooling 
and the federal government should simply leave them alone. (Never mind 
that plenty of states have an abysmal record of providing a decent 
education, especially for poor and minority kids.) Liberals are apt to 
insist that states can't be trusted and that only strong federal 
enforcement of specific measures will lead to a narrowing of the 
achievement gap. (Never mind that plenty of states were making decent 
strides in raising achievement and narrowing gaps sans federal 
prodding.)
    Neither view is right. Each leads to a bad outcome: Either ``put 
the money on the stump,'' let states and schools do whatever they want, 
and hope for the best; or micromanage fifty states, 15,000 districts 
and tens of thousands of schools through miles of red tape. Neither 
approach works, not, at least, if stronger student achievement is the 
metric by which success is judged.
    Is there a way to transcend these tired and predictable arguments? 
Let me propose three pragmatic rules to determine when Uncle Sam should 
be ``tight'' (i.e., prescriptive) and when he should be ``loose'' 
(i.e., flexible):
    1. Whenever possible, the federal government should be tight about 
results and loose about process.
    2. The federal government should figure out what it's good at, 
where it's most apt to be effective, and only do those things.
    3. The federal government should encourage states, districts, and 
schools to ``earn'' even more autonomy on the basis of strong 
performance.
    Let's take a closer look and consider what these rules would mean 
for a revamped NCLB.
Rule #1: ``Tight'' as to Results, ``Loose'' as to Process
    This principle comes straight from Management 101: excellent bosses 
give their employees clear direction and specify the results to be 
achieved. But then they cut their charges plenty of slack to use their 
own creativity, innovation, and resourcefulness to achieve those 
results as they see fit. In a corporate setting, CEOs are ``tight'' 
about the bottom line, but ``loose'' as to how a particular unit 
achieves it.
    This idea is the driving force behind the past twenty years of 
standards-based reform. It's related to former Vice President Gore's 
efforts to ``reinvent'' government. It's standard practice in large 
organizations around the globe. It's also the essential theory behind 
site-managed schools and charter schools.
    And yet in federal education policy, we usually get it backwards. 
We obsess about process and pay minimal attention to results.
    NCLB's architects believed, I think sincerely believed, that they 
were straightening this out, that NCLB was, above all, about results, 
with plenty of interventions and sanctions for those states, districts, 
and schools that didn't produce them. But they didn't get it right. I 
would even say they made a fundamental mistake. Rather than setting a 
common standard for school performance across the land and then 
encouraging states, districts, and schools to meet that standard in the 
ways that each judges best, they instructed states to define 
``proficiency'' in reading and math as they saw fit--and then got very 
prescriptive about timelines, calculations of progress, and year-by-
year interventions.
    Instead of regulating ends, in other words, Washington once again 
found itself regulating means, prescribing a hundred aspects of what 
states and districts should do when, by their own lights, their schools 
don't do an adequate job. That means way too much regulation on the one 
hand and, on the other, plenty of incentive for states to define 
``proficiency'' downward and make Swiss cheese out of NCLB's 
accountability provisions. Already many states, in order to explain the 
discrepancy between their passing rates on state tests and their 
students' performance on NAEP, are claiming that observers should 
equate state ``proficiency'' with NAEP's ``basic'' level. In other 
words, they are satisfied to get their students to ``basic,'' 
proficiency be damned. A system that allows such cheese-paring and 
redefining puts the entire enterprise of standards-based-reform in 
peril.
    The surest way to end this such questionable practices--and keep 
Washington from playing a cat-and-mouse game with recalcitrant states--
is to move to a system of national standards and tests, while 
simultaneously freeing states, districts, and schools to achieve those 
standards as they see fit.
    To be very clear, federal officials do not themselves need to, and 
in my view should not, create such national standards and tests 
themselves. But the federal government could require or encourage their 
use.
    What does this have to do with flexibility? Perhaps counter-
intuitively, I see national standards and tests as an opportunity to 
rein in Uncle Sam's more dictatorial and bureaucratic impulses. For 
forty years, Washington has sought to improve schools by regulating 
what they do. NCLB's mandated cascade of interventions into low-
performing schools, for example--a different one each year for seven 
consecutive years--illustrates this pattern of behavaior. (As for the 
parallel cascade of state interventions into low-performing districts, 
the less said the better. It's a complex mandate that may best be 
described today as ``ignored''.) Another example: by requiring testing 
in just two subjects and resting its entire intervention-and-
accountability edifice on those results, No Child Left Behind has 
exerted definite pressure on schools to restructure their curricula, 
emphasizing math and reading skills to the detriment of other subjects. 
To date, we can find scant evidence that this strategy works--and some 
hints that it's backfiring. Schools are narrowing their curricula, 
neglecting already-proficient kids, lowering standards, and finagling 
test results. Common standards and tests would allow Uncle Sam to back 
away from his top-down, regulatory approach and settle instead for 
clarifying the objectives to be achieved, then measuring (and 
publicizing) whether states, schools, and students are in fact meeting 
them.
    If states were in fact willing to sign up for tougher national 
standards and tests, what process-type regulations would I be willing 
to trade? Here are three categories:I21<bullet> Spending restrictions. 
School principals rightfully want control over their budgets. Yet 
current federal policy sends dollars into a myriad of silos, 
categorical programs that may or may not meet the needs of individual 
communities. NCLB's ``transferability'' provision began to address this 
problem by allowing states or school districts to shift funds from one 
silo to another, or into Title I. But it set a cap at 50 percent. 
President Bush and Congressman McKeon have it right when they call for 
expanding transferability to 100 percent, allowing states or districts 
to send all of their dollars into the Title I program and then ignore 
all rules and regulations for the other programs. This will cut red 
tape while also driving more federal dollars toward the needy students 
who need them the most. (I also favor Mr. McKeon's call to expand 
eligibility for ``schoolwide'' programs within Title I.)I21<bullet> 
Staffing restrictions. The impulse behind No Child Left Behind's 
``highly qualified teachers'' provision is understandable. Teacher 
quality matters a lot, and most states have set miserably low standards 
for incoming teachers. Still, the mandate has created oodles of 
unintended consequences that need addressing. Fundamentally, it's worth 
asking whether the federal government should concern itself with 
teacher credentials or should stay focused laser-like on student 
learning. I prefer the latter. (For a compromise idea, see 
below.)I21<bullet> The ``School Improvement'' Timeline. Sure, states 
should take action when low-performing schools fail to improve year 
after year. What's not clear is whether NCLB's rigid sequence of 
prescribed annual interventions (including choice and tutoring, 
corrective action and restructuring) is any better than those that 
states might devise. In my view, such actions are far likelier to 
succeed if decided as close as possible to the problem and on 
timetables that make sense to those who will be responsible for 
implementing them. Moreover, ample sunlight shining down on school/
district/state performance vis-a-vis clearly specified national 
standards will give state and local officials (and voters, taxpayers, 
parents, etc) good information by which to repair their own schools.
Rule #2: The Federal Government Should Figure Out What It's Good At, 
        Where It's Most Spt to be Effective, and Only Do Those Things
    Another key pragmatic question is whether Washington itself has the 
capacity, the infrastructure, and the know-how to implement NCLB's 
lofty expectations and detailed plans in an effective manner. 
Regrettably, the evidence is overwhelming that it does not. Nor will a 
change in Administration make much difference. That's because of a 
structural flaw in U.S. education federalism that NCLB inherited from 
earlier rounds of ESEA.
    Back in 1965, when lawmakers' main goal was to disburse federal 
dollars to schools for additional instructional services for poor kids, 
it made sense, indeed was practically inevitable, to hand those dollars 
down the familiar institutional ladder from Washington to state 
education agencies to local education agencies. That was how state and 
local monies already flowed and there was no reason to create another 
mechanism to move federal funds. While SEAs and LEAs weren't always 
diligent in following Uncle Sam's rules, it was in their interest to 
comply, if only because they and their schools then got the money, 
which came without so many strings as to disrupt what they were already 
doing.
    Today, however, getting Washington's dollars to the right places is 
the lesser mission of ESEA/NCLB. The law now deploys its funds and 
their attendant conditions, regulations, state plans, and oversight 
mechanisms to transform the system in fundamental ways, above all to 
boost student achievement and hold schools (and districts and states) 
to account for whether or not they accomplish this.
    Thus arises a great paradox: Washington still relies primarily on 
SEAs and LEAs to do its bidding, yet now the point of federal programs 
is not to ``help'' them do more but to change what they do, often in 
ways they don't much want to be changed. In ways they judge contrary to 
their own interests. Ways that include admitting failure. And ways they 
may not be competent to handle, albeit ways that the public interest 
demands.
    Why do federal policy makers assume that the very agencies that 
caused the system's problems (or, at least, allowed them to fester) now 
possess the will and capacity to solve them? The truth is, Congress and 
the White House never gave this any thought. At least I don't think you 
did. When crafting NCLB, I believe the craftspeople simply clung to the 
assumption that has ruled ESEA for four decades: that working down the 
familiar food chain is how Washington does business in the K-12 sector.
    Thus NCLB proceeds in the accustomed sequence, with Uncle Sam 
telling states what to do, states telling districts, and districts 
doing most of the work. That hierarchy remains the basic architecture 
of federal education policy today as in LBJ's time. But its engineers 
never pictured it supporting a results-based accountability system, 
making repairs to faltering schools, or functioning in an education 
environment peppered with such disruptive, non-hierarchical creations 
as charter schooling, home schooling, and distance learning. It's as if 
a high-tech firm was officed in an old foundry without anyone bothering 
to re-wire, re-plumb, or even fumigate the structure.
    This problem begins in Washington. Let's consider what NCLB has 
taught us about federal capacity:
    1. The federal government is not good at nuance. Consider the law's 
complicated accountability and AYP provisions, for instance. The 
various design problems are legion, but they exist because of the 
principle that states must all be treated the same. Because some states 
were considered to be untrustworthy and unwilling to hold their schools 
accountable, especially for the performance of poor and minority 
students, all states were treated with suspicion. Thus the decision to 
mandate required elements of AYP, rather than setting broad parameters, 
which has led to constant cries for more flexibility. When laggard 
states complain about these prescriptive requirements, it's easy to 
label it ``whining.'' But when leading states with well-developed 
accountability systems complain too, it's a sign that the federal 
hammer might be breaking some things that weren't previously broken.
    2. The federal government can force recalcitrant states and 
districts to do some things they don't want to do, but it can't force 
them to do those things well. Yes, Uncle Sam has had plenty of practice 
at the compliance game and, on issues that are black or white (are 
states testing all students as required, for example), it can intervene 
and even take away dollars from misbehaving jurisdictions. But most of 
the important parts of NCLB are gray zones. Take ``highly qualified 
teachers'' or ``public school choice'' or ``restructuring.'' In each of 
these areas, we've seen states and districts go through the motions 
without actually living up to the spirit of the law. Yet Washington is 
toothless to do much about it. That's not a legislative failure, it's a 
fact of organizational life. The federal government doesn't run the 
schools or employ their teachers; it has limited ability to make these 
complicated functions go well. But ``going through the motions'' isn't 
enough if we actually want to transform schools, and it fosters more 
cynicism.
    3. States and districts do respond to carrots. What the federal 
government is actually good at--beyond distributing money, collecting 
statistics, investigating specific wrong-doing, and doing research--is 
funding promising reforms via competitive grant programs. Consider the 
Teacher Incentive Fund, for example. While controversial in some eyes, 
it has spurred several large school districts to experiment with merit 
pay for teachers. Something that would not have happened, in all 
likelihood, without federal dollars. Or look at the decade-old federal 
Charter School Program, whose funds are targeted to states with decent 
charter school laws. There's little doubt that federal leadership 
(first from President Clinton) played a key role in the charter 
movement's development. (That the charter program needs a makeover 
doesn't detract from the difference it has already made.)
    What lessons should Congress take from NCLB's experience with 
federal capacity? First, even if you choose to continue to prescribe 
specific policies (such as AYP or Highly Qualified Teachers), aim for 
being clear about the ends and loose about the means. Take 
accountability, for example. If you don't accept the virtues of 
national standards, at least be more flexible about states' 
accountability systems. Rather than prescribing the exact nature of 
AYP, offer key design principles instead.
    Let states prove that their systems measure up. Secretary 
Spellings' growth model pilot is a good example here. While she 
published a clear set of design principles and made states engage in a 
rigorous screening process, she didn't mandate a single uniform 
approach to measuring growth. Not doing so makes a lot of sense.
    The second big lesson is that, if you want to see movement in a 
particular area, consider offering dollars to willing states and 
districts rather than mandating a course of action for the entire 
country. When it comes to school choice, for example, adopt a version 
of President Bush's recommendation for a grant program for cities 
interested in expanding choice options, rather than forcing all 16,000 
districts to go through the motions of offering choice when it's 
perfectly obvious that many of them lack the capacity as well as the 
will. Or when it comes to ``Highly Qualified and Effective Teachers,'' 
look to Education Trust's recommendation to offer willing states extra 
cash to experiment with a ``value added'' system for measuring teacher 
quality, rather than adopting the No Child Left Behind Commission's 
suggestion of a nationwide mandate.
Rule #3: The Federal Government Should Encourage States, Districts, and 
        Schools to ``Earn'' Even More Autonomy on the Basis of Strong 
        Performance
    ``Earned autonomy'' is an idea whose time has come. Increasingly 
superintendents (in Chicago, Las Vegas, New York City, etc.) are 
allowing schools to apply for greater freedom from central office. 
Those with a track record of improving student achievement qualify.
    This same idea has made inroads in the charter-school domain. While 
charters have always been about ``accountability in return for 
autonomy,'' increasingly their sponsors (including my own Fordham 
Foundation) understand that autonomy is something to be granted 
carefully. Once upon a time, some of us in the charter movement thought 
we should plant as many seeds as possible as quickly as possible and 
let a thousand flowers bloom; after all, we could always close them 
down. It turns out that closing schools is far harder than we thought. 
And we've witnessed many charter schools founder (or worse) because 
their leaders weren't prepared to work with the autonomy they had been 
given. So now conscientious sponsors screen applicants very carefully, 
just as venture capital firms screen prospective business start-ups. 
And only when a founding team proves that it is worthy of a charter and 
the concomitant autonomy is the green light given. We also reward 
charter schools for good performance by granting longer charters, 
hassling them less, and encouraging their replication. (The leash is 
shorter for low-performing schools.)
    The appeal of this idea is obvious: It encourages good behavior 
(especially improved achievement), it recognizes that some entities are 
more capable of handling autonomy better than others, and it minimizes 
risk.
    How could this principle be imported into federal policy? Here's 
what it might look like:I21<bullet> Grant greater flexibility to states 
that sign up for rigorous national standards and tests, or put their 
own rigorous system in place. As explained above, this flexibility 
could include expanding the funding ``transferability'' provision, 
waiving the school improvement timeline, etc.I21<bullet> Allow states 
with vigorous interventions greater AYP flexibility. Rather than trying 
to prescribe the exact sort of overhaul that states should serve up for 
failing schools, reward states that are engaging in effective reforms 
by giving them more leeway in defining their accountability metrics as 
they see fit. For instance, states that energetically provide school 
choice options to kids stuck in failing schools--by creating new 
charter schools for them to attend, or mandating inter-district 
transfers, or in other ways--might be allowed more discretion to 
differentiate sanctions for truly abysmal schools versus merely 
mediocre ones.I21<bullet> Allow schools that make AYP to ignore HQT. 
This is a particularly powerful idea. Improving teacher quality is 
necessary condition for boosting student achievement. But even the 
supporters of the ``highly qualified teachers'' provision admit that 
it's a poor proxy for school quality and classroom effectiveness, and 
that it's overly focused on paper credentials. So reward schools for 
getting great results by allowing them greater flexibility around 
staffing. To continue making AYP, schools will continue to make good 
decisions around teachers, but with less red tape from Washington. 
(This is especially important for high-performing charter schools, 
which are supposed to be freed from regulations in return for results, 
but are wrapped in the law's subject matter and certification 
requirements just like everyone else.)
Conclusion
    You may have entered this hearing room contemplating some kind of 
new ``flexibility program'' for NCLB. I'm here to urge you to think 
more broadly, to ponder just where the federal government should be 
prescriptive and where it should be flexible. I hope you consider some 
of my specific proposals. I believe four of these have particular 
merit:
    1. Encouraging states to adopt rigorous national standards and 
tests, and in return granting them greater flexibility around spending 
(by expanding ``transferability '') and staffing (by waiving ``highly 
qualified teachers '').
    2. Moving federal requirements for state accountability plans away 
from prescriptive and pre-determined actions to more open-ended design 
principles. Be clear about the end-result you want, accountability-
wise, but flexible in terms of the specifics.
    3. Reducing the number of mandates on states, districts, and 
schools, and instead offering competitive grants to entities willing to 
experiment with promising practices. In this category I would even 
include the law's ``public school choice'' provisions.
    4. Allowing schools that make AYP to ignore HQT. At the end of the 
day you care about results, and good schools will ensure high-quality 
teachers. This show of goodwill and flexibility might go a long way.
    Thank you once again for the opportunity to testify. I look forward 
to your questions.
                                 ______
                                 
    Chairman Kildee. Thank you very much. We will be right 
back. We have two votes. We will be right back.
    [Recess.]
    Chairman Kildee. We should have an hour at least now 
without interruptions. Thank you, Checker, for finishing your 
testimony.
    Jack, you discussed the need to improve the quality of data 
under NCLB. Can you discuss what data a State would need to 
collect, to implement and evaluate a sound growth model?
    Mr. Jennings. I have to make a correction in my statement. 
It is page 82, not page 81.
    Chairman Kildee. That is all right.
    Mr. Jennings. Alice Cain, Congressman Miller's staff 
person, said what page can we rip out.
    Chairman Kildee. That will be on the record now.
    Mr. Jennings. We have issued a report several weeks ago 
about State departments of education. And we think of State 
departments of education as the agencies that carry out Federal 
law. But they are primarily State agencies and they have 
enormous responsibilities that we don't pay much attention to 
from the Federal level. And these State departments of 
education are severely restrained in terms of person power, in 
terms of funding. They just need much better support if they 
are going to help improve education. In fact, we find local 
school districts go to State departments of education more than 
any other agencies and yet they are handicapped because they 
don't have enough personnel. And what is happening is State 
departments of education are being converted into assistive 
agencies where they are starting to help local school districts 
more to bring about improvement and they need help with this 
transition. So we recommended in this other report that States 
get just an encouragement grant from the Federal Government 
because they are State agencies and have State leaders to help 
rethink State departments of education because they are finding 
all sorts of problems like with data. What is happening is if 
they get some good data people the technology companies come in 
and hire those people away because they can pay them more 
money. And yet from the Federal level and even at the State 
level legislatures are telling State departments of education 
to have better data systems, collect more data, make more data 
available to the public, but they are severely restrained in 
trying to do that.
    So I would urge the Congress to pay some attention to the 
condition of State departments of education as the agencies 
that provide all this data and help them get up to the task, 
and that includes the growth model. The growth model if it is 
enacted, and it sounds like there is considerable support for 
it, is going to require the generation and use of a large 
amount of data. And if it is going to be used intelligently the 
States need help in using that data, but also local school 
districts and teachers are going to need help in interpreting 
that data to use it to the best effect.
    Chairman Kildee. Right now under AYP we test at, say, the 
third grade in school A and then the next year we test the 
third grade but they are different students because the third 
graders are now for the most part fourth graders, and we say 
that the third grade has not reached AYP. To take one form of 
the growth model you would actually follow the child and see 
how much that individual child has grown. Is that feasible or 
possible to have a growth model where you actually see how much 
each individual has grown to determine whether the school is 
making progress?
    Mr. Jennings. Yes, that is feasible. However, it costs 
money. Because you have to have data systems, computer systems, 
and so on, you have to have identifiers for students, you have 
to be able to follow the students through their career. But if 
we really think education is important we should pay attention 
to every individual student and try to help every individual 
student. And the best way to do that is to be able to follow 
that student as the student goes through his or her own career. 
And it is a much fairer way to judge a teacher's performance to 
see how they have done with individual students as they go 
through school.
    Chairman Kildee. Health care seems to be ahead of education 
on that, is it not? While not perfect, you can generally follow 
the patient and get the records and follow better than what we 
do with students?
    Mr. Jennings. Well, the trend now in health care is for 
doctors to have hand-held computers and bring up the records of 
their patients as they are visiting them and be able to go 
through all their records as they visit them. Teachers should 
be able to do the same thing. They should be able to use hand-
held computers, use other technological advances and help kids 
in individualized instruction.
    One of the problems with all this accountability is that we 
are generalizing everything with accountability tests that we 
are not paying attention to the individual children to help 
them improve, and we have to rethink that.
    Chairman Kildee. How much time do I have? I will ask one 
more question here. We have the NAPE test and each State has 
their own standards and their own test. And while probably this 
Congress would never want to apply the NAPE test across the 
board to every State to every student, can we use the NAPE test 
to test the State test.
    Checker, do you want to tackle that?
    Mr. Finn. Yes, sir. The new NCES report out today does a 
version of that using NAPE to compare State cut-off scores, 
State proficiency levels, in fourth and eighth grade reading 
and math. And it gives us a clearer calibration than I have 
ever seen before of relative levels of difficulty in State 
expectations on their own tests compared to NAPE. I think this 
kind of thing should be done all the time. If we are not going 
to have a national standard, which I think would be preferable, 
then at the very least we ought to have a whole lot of 
visibility of just how hard is Ohio's fourth grade standard 
versus Indiana's versus NAPE's.
    Chairman Kildee. Thank you very much. Anyone else have any 
comment on that? I defer to the gentleman from Iowa, Mr. 
Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman. Just a couple of 
questions actually, Mr. Jennings. Not so much a question. I 
guess a comment. I appreciate the fact that you said we should 
be very careful about some kind of causal relationship. I am a 
former college teacher. I used statistics in my dissertation. 
That doesn't make me an expert by any means, but I am very 
aware of not drawing some kind of causal relationship. Just 
because some things are associated or whatever the case may be 
and using only 13 States out of 50 States, I am just very 
cautious about drawing conclusions. So I appreciate your 
caution as well. And that is just a comment more than anything 
else, but would you like to elaborate a little bit?
    Mr. Jennings. Well, let me point out that we drew 
conclusions about pre and post-NCLB results from 13 States 
because they were the only ones that had data. However, we had 
data on 50 States and we had varying amounts of data on 50 
States. On 50 States we had proficiency data. On 41 States we 
would have proficiency data and elementary. On 48 States 
proficiency data and something else. So we had large amounts of 
data on many States. But what we did was very strictly apply 
rules so that we had comparable data across years. So we would 
eliminate some States if they changed their tests. Thirty-seven 
States since 2002 have changed their tests in some way or 
another, either adopted a new test, put in a different cut-off 
score or whatever. So we are very careful to use comparable 
data across States.
    Since you have somewhat of a scientific background or a 
research background, whatever you do you get criticized.
    Mr. Loebsack. Of course.
    Mr. Jennings. On this we tried to be purer than pure and 
make sure that everything we said was sound, and then we were 
criticized because we didn't use data that would have made us 
less pure because the data wasn't comparable.
    Mr. Loebsack. I think you stepped into a huge minefield 
just by trying to determine whether NCLB has had any effect or 
not.
    Mr. Jennings. One of the reasons we did that is that that 
is the important question. And we felt that if we didn't try, 
and this was an ideologically mixed expert panel that had 
varying points of view, that had deep expertise, we got nearly 
$1 million that we used for this, we did it for 18 months, we 
got the cooperation of 50 States, we felt if we didn't do this 
and try to answer that question then anybody in the world could 
stand up and give their opinion without any necessary data and 
say whatever they wanted to say.
    Mr. Loebsack. And they still will, as you know.
    Mr. Jennings. They still will, but I have been around for a 
long time and I felt that it was our duty to try to answer the 
question in the best way possible and put it out there. I hope 
it is not misused. But we tried our darnedest.
    Mr. Loebsack. I appreciate it. Thank you.
    Secretary Melmer, as was already said, I am from Iowa, not 
much bigger than South Dakota, but we only have 3 million 
people and my wife was a long-time second grade school teacher. 
And the issue of teacher quality obviously came up in our house 
quite a bit and with a lot of her friends. And I could hardly 
go to a social event without hearing about NCLB and all the 
rest. That is why I am on this committee, by the way, in large 
part.
    But the whole teacher quality issue, can you elaborate on 
that, because obviously places like South Dakota, States in 
particular that might have smaller populations, a smaller 
population base, maybe rural areas, it is very difficult, is it 
not, to attract quality teachers? And if that is the case then 
how--I mean the challenges it seems to me presented by NCLB are 
just that much greater. Is that true?
    Mr. Melmer. Yes, it is true. As I mentioned in my 
testimony, 45 districts with less than 200 students in the 
entire school district, which means that you are talking about 
high school teachers that have to teach more than one 
discipline, in some cases three disciplines, depending on their 
background and preparation, and then you turn that into 
probably three to four to five different what we call preps--
your wife would be familiar with that term--and that just makes 
it very, very difficult to be highly qualified in all of those 
areas.
    At the same time we are having a hard time recruiting high 
school teachers anyway to come to a rural area to be paid a 
salary that sometimes some people would say is substandard, and 
then to throw on a bunch of additional requirements is 
challenging. At the same time we don't want to run away from 
the idea. We want our teachers to be prepared and ready to go. 
There just may have to be some consideration given to a waiver 
or some sort of a provision for a State that is really 
struggling to make all ends meet to allow us to continue to do 
the best job we can without necessarily having to follow all 
the letters of the law.
    And Mr. Finn referenced the idea of if our results are 
good, maybe that should be some dispensation to say you don't 
have to follow all the guidelines if you are getting all the 
results.
    Mr. Loebsack. My time has expired, but I just want to make 
one last comment. I was happy to see that the Iowa Department 
of Education did get its growth model approved by the 
Department of Education recently. But thanks to all of you for 
being here today. I appreciate it.
    Chairman Kildee. The gentlelady from Illinois, Mrs. 
Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. Dr. Johnson, can you 
tell us what the percentage of your administrative paperwork is 
attributable to the Federal education requirements and what to 
the State and local education requirements? And then what 
portion of the Federal paperwork that your staff has completed 
is related to student performance? Everybody is always 
complaining about all the increased paperwork for No Child Left 
Behind.
    Ms. Johnson. Congressman, members of the committee, I did 
not come prepared to calibrate for you exactly how much 
paperwork is involved in both either the Federal or the State. 
I will say that we certainly do a great deal of paperwork 
associated with submitting reports based on the report we have 
to give to the State for No Child Left Behind. And then because 
we have schools that have been a high priority we have to 
submit plans for each of those schools. Now, of course we would 
be doing that kind of accountability reporting about each 
school's improvement plan probably with or without No Child 
Left Behind. But I think that there are some provisions that we 
have to report on, not just for regular ed, but I think 
especially special education where our staff would say the 
paperwork consumes a great deal of the time.
    Mrs. Biggert. Secretary Melmer, could you address that?
    Mr. Melmer. In terms of the amount of paperwork, well, I 
have been in the State education agency for 4 years, and I am 
being told that it is by far more today than it was prior to my 
arrival at the department. In terms of the amount of time that 
we spend, the volume, I am unsure about that as well. I always 
have to be a little cautious about estimating because I am 
afraid I would be wrong. But I also understand because we at 
the State level do it to our local districts, I would assume if 
you had one of the superintendents from South Dakota here he or 
she would say the State gives us way too much paperwork and we 
don't have time to do all of it.
    I understand at the Federal level if you expect results 
then you need to expect accountability to go with that. And as 
long as the Federal Government is continuing to provide dollars 
for State education, agencies are going to expect some 
accountability in return. So we try to balance all that out. 
But I think it is safe to say that the amount of Federal and 
State paperwork has increased over the last 3 or 4 years.
    Mrs. Biggert. Dr. Johnson.
    Ms. Johnson. I want to add one comment because if you 
looked on page 7 where we had revamped the school improvement, 
one thing that I think is a savings in paperwork, the way it is 
done now every year you are doing another school improvement 
plan as if you have got to start all over. The 3-year planning 
actually assumes that you are working with the same plan trying 
to make it better and you are focusing on those goals over 
time. So I think that some of the modifications that you can 
make even around the school improvement process that we have 
outlined would reduce the amount of teachers and principals 
having to resubmit a new plan every year. They are working on 
that same plan over a 3-year period to improve.
    Mrs. Biggert. Thank you.
    In Illinois I have been holding some roundtables and 
talking to teachers and talking to superintendents and then 
actually just the public, and one of the issues that people 
seem to really want to know more about or that they would like 
to have in their schools is the growth models. Is there 
somebody here who already--I know it is only, I think, two 
States--is there somebody here that has had to develop the 
growth model?
    Ms. Straus. In Michigan we have not applied to use it. It 
has taken a very long time to develop the data system. As Mr. 
Jennings said, it is very complicated. And we have been working 
on this for a number of years and we are at the point now where 
we would be ready to apply for the growth model, and we would 
like to use it because we think it is a much better way of 
measuring. But it has taken us a long time. And I think a big 
State with so many students, we have 1.7 million students. Each 
individual record in that system is much more difficult to 
develop than any of us thought would be the case.
    Mrs. Biggert. Just one last thing.
    The NAPE test. Have your schools been taking that test? I 
would just like to know what you think of it. Was it what you 
expected with the results versus the AYP?
    Mr. Melmer. Yes. The NAPE exam is administered to grades 4 
and 8 across the country. It is my understanding that all 50 
States do participate in NAPE.
    Mrs. Biggert. But it depends on the schools?
    Mr. Melmer. Yes. Right. Correct. It is a sprinkling of 
students in every State. We certainly value the NAPE results in 
South Dakota. We think it gives us a third leg to the three-
legged stool. We have our Dakota Step Test, which is our NCLB 
test. We have our ACT. In South Dakota, we give the ACT, which 
is sort of that regional postsecondary preparation exam. Then 
we look at the NAPE as being sort of that national comparison 
so that when we are at times criticized, saying ``Your State 
test results look good, but how do you do at the national 
level?'' we are prepared to come back and say, ``Well, here at 
the NAPE, here are how our fourth and eighth grade students 
do.'' it is just that we have to be cautious about the NAPE, 
and that it is not designed to match State standards; it is 
certainly just a different type of exam, and so we look at it 
that way, but it certainly is one more measure that a State can 
look at to determine whether, in fact, their students are 
getting a good education.
    Mrs. Biggert. Thank you.
    Ms. Johnson. In terms of the value-added model, Dr. 
Sanders' model, it is used statewide. In addition to the status 
scores that the school districts get, each year we get graded 
in the core subject areas of the test based on value added, but 
what they do is they take a 3-year average, and so they look at 
the scores over a 3-year period, and they give you grades A to 
F, and that is reported on the State Web site per school.
    The other part of the value added is they track and try to 
connect student results with teacher effects, and so each year 
the teachers get a teacher effects' score for how well the 
students--and again, this is over a 3-year period--have done. 
Principals have access to the data. One of the difficulties is 
that the teacher effects' score, based on State law, is not 
allowed to be used as part of the teacher performance review 
process.
    We also use--we give or have in the past given the TSAT to 
all of our tenth graders, which is a preliminary SAT, and this 
year we are changing. We are giving the score tests at eighth 
grade, which is a preliminary ACT. We are giving planned tests 
at tenth, and then we are trying to get all of our students to 
take the ACT so that we have, in addition to the State 
assessment tools, some sense of how kids might do on another 
test.
    Mrs. Biggert. Thank you.
    Chairman Kildee. Thank you, Mrs. Biggert.
    The gentlelady from California, Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman, for the good hearing.
    It is nice to see you, Jack.
    Mr. Jennings. How are you?
    Ms. Woolsey. Fine, thanks.
    Jack--Mr. Jennings--I want you to answer this also and 
think about it, but I am going to start with Dr. Johnson.
    Because we are hearing how many school districts are 
cutting back on history and geography and art and music and PE, 
I am really concerned that No Child Left Behind has led us to 
ignore the whole child; but it appears that you have been able 
to maintain a vibrant music program in Memphis at the same time 
as improving your AYP performance scores.
    What can you tell us about how you have been able to 
sustain, and what can we learn from this important success?
    Ms. Johnson. Well, let me just say quickly that I think 
this is an area where President Straus and I do agree very 
strongly on the importance of having music and arts programs 
for student engagement. Also, if you look at the standards that 
have been set by the corporate community, they want people who 
are creative, who are innovative, who can think outside the 
box, and we believe that the arts and music programs give those 
skills preparations that are necessary.
    We use best practice, which is common planning time, and 
what we do is, in order to give teachers common planning time, 
we are employing people like music and art teachers to provide 
that release time so that those teachers, as a group of 
teachers who are working together with a group of students who 
are not doing well, can have the time to plan. And so we have 
not eliminated music and arts. In fact, we emphasize it as an 
important way to promote student engagement.
    Ms. Woolsey. So, President Straus, would you just be 
saying, ``Me, too,'' or do you want to add to that?
    Ms. Straus. Yes, thank you.
    We are very concerned about that. We think that the loss of 
creativity is really a great loss. And I was in China last year 
with a group of educators, and all they wanted to know is how 
do you teach creativity? And the restrictions that we put--and 
so much emphasis is put on testing and emphasizing the math and 
English, which is important, but it should not be to the 
exclusion of everything else, not only music and art and other 
arts, but what you raised about history and government and 
geography. I am a strong proponent--our whole board is--of 
social studies and the importance of civic education, and I 
have had the privilege of attending several of the 
congressional conferences on civic education, and I commend 
Congress for focusing on that because I think that is 
absolutely critical. It was one of the foundations of why we 
have public education, and I think that we put so much emphasis 
on the testing and on those major subjects that we do not have 
enough time for the others. But in Michigan, our own State 
accreditation system does test and does require social studies, 
and we do test in social studies as well. I know that is sort 
of contradictory, to test more, but we figure, if we do not 
test it, it is not going to get taught under the current 
system. So we are very concerned about that.
    Ms. Woolsey. So, Mr. Jennings, you have some really 
important studies that you have referred to. Would those 
studies in any way indicate whether we are losing our whole 
child focus?
    Mr. Jennings. Yes. In several weeks we are issuing another 
study where we ask a national sample of school districts how 
many minutes they spend on each curriculum subject and whether 
that has changed over the last number of years, and so we also 
ask them a number of other questions about instruction and 
curriculum, and we will issue that report towards the end of 
the month. We wanted to go beyond assertions to get data, and 
this is the same type of national sample of school districts. 
There are over 400 school districts. It is the same type of 
sample the U.S. Department of Education uses and others use, 
and we ask them very precise questions at the elementary level, 
the middle level, and the high school level, by subject area, 
and estimate the number of minutes. So we will have information 
in a short while.
    Ms. Woolsey. Okay. We need that ASAP. Thank you very much. 
Thank you, Mr. Chairman.
    Chairman Kildee. Thank you.
    The gentleman from New York, Mr. Kuhl. He passes.
    The gentlelady from California, Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you to all of you for being here as well.
    I wanted to go to you, Mr. Jennings, to just quickly talk 
about data collection, and I think you mentioned the need to be 
doing this. And yet at the same time, school districts and 
States are really strapped to do that.
    In California we have been pretty slow, actually, in data 
collection overall. So I am just wondering, how do we do that? 
Is it to require more of States that they need more resources 
to do that? What do you think ought to be done?
    Mr. Jennings. Well, you know, every time somebody in 
elected office says you have to have more accountability, it 
transfers into a form that a local official has to fill out, 
and so we just have to recognize that. As national leaders and, 
I hope, State leaders, if you think of what you want to demand 
from people to get accountability, you have to think of the 
consequences. So I would hope that--and this is a perennial 
problem with government programs, but it is also a problem in 
private industry, too. I would hope that you would look at the 
law and figure out what you really need and what you do not 
need. I think you need test data, and I think you need test 
data all the way down the line, but you also need to spend some 
money to help school districts collect this data in the correct 
way. You need money to help States to make sure that they do it 
in the correct way, and you need some money for teachers so 
that they can understand the data to bring about improvement.
    What is happening now with States is, with all this 
accountability, you know, testing in grades 3 through 8 and 
once in high school, some States have gone from higher-quality 
tests to lesser quality tests because they had to go from a few 
tests to a lot of tests, and they did not get the additional 
money they needed to have high-quality tests across the board. 
So you have to be aware of the fact that every time you ask for 
something, you have to think of the repercussions down the 
line.
    Mrs. Davis of California. Do you think that designating 
that money only for tests is a wise----
    Mr. Jennings. Congress has made a good start in that it has 
designated a pot of money to the States for tests. But what is 
happening now is, as a consequence of all this accountability 
testing, you are leading to a booming in what is called a 
``formative testing'' because teachers cannot use this 
accountability testing. The test results do not arrive in time 
for them to use it to change education. So what they are doing 
is they are putting in more testing during the school year, 
which is not for accountability but for diagnostic purposes, so 
that they can understand where kids are as they proceed along, 
so that by the time they hit the accountability test they will 
be ready. Which means they are spending more money for testing, 
but this is for testing they think is useful rather than just 
for accountability.
    So we have to think through the consequences of what we ask 
for, and once we ask for them as a Nation, we have to make sure 
that States and local school districts have the money to do it 
and that they do it in a way where they can use the information 
to improve education.
    Mrs. Davis of California. Do any of you want to comment on 
that?
    Ms. Straus. I mean one of the difficulties, too, is that I 
think in many cases, students are doing better on State tests 
than they are on NAPE, for example, and so there is a concern 
that there is a disconnect there.
    Mrs. Davis of California. Mr. Secretary.
    Mr. Melmer. And I would agree that you are probably going 
to see students do better on the State tests, oftentimes 
because it is matched directly to the State standards, and 
teachers know the standards and are teaching to those standards 
in the classroom versus the NAPE, which is more of a general 
exam and does not match up as well.
    We do have a good model in place in our country right now 
in terms of addressing some of the things that Mr. Jennings 
mentioned. The NAPE program places a NAPE coordinator in every 
State, and that coordinator's job is to help facilitate the 
administration of that test and also to work with the national 
NAPE office on how the test works and all the recruitment and 
articulation of that test. We think CCSSO has always had 
discussions, and I think the U.S. Department is actually open 
to discussions about this topic where a data collection person 
could be placed in every State education agency, funded at 
least in part by the U.S. Department of Education, so that way, 
uniform training could go on; at least a consistency in 
language could take place, and we could begin to coordinate 
that effort at the national level rather than allowing every 
State to kind of have its own set of rules and regulations.
    So we do see some potential solutions on the horizon. It is 
a matter of investing some dollars in that area. As Mr. 
Jennings said, if you expect it, then you have to sort of let 
the money follow that expectation.
    Mrs. Davis of California. Right. All right.
    Thank you, Mr. Chairman.
    Mr. Jennings. Could I comment on the comparison between 
State test scores and NAPE?
    The reason you have a disparity is for two reasons, 
principally. One is any test is a reflection of a curriculum or 
of standards. The NAPE test is a reflection of national 
standards, which, in a way, is a national curriculum, and State 
tests are a reflection of State standards or State curriculum. 
The two do not match up.
    In Texas, for instance, they do not teach math in the way 
that is anticipated in the national math standards that are 
embedded in NAPE, and they get different results, therefore, 
because they are testing to something different. Texas has 
decided they want to test math ``this way,'' but the national 
assessment says they are going to measure it ``this way.''
    The second reason you have a difference in results is that 
no one child takes a full NAPE test. You have NAPE tests taken 
by different groups of children. There are no consequences.
    Mrs. Davis of California. Do you see us ever aligning that?
    Mr. Jennings. Well, there are bills in Congress--Senator 
Kennedy has one, Senator Dodd has one--to give funding to 
States to encourage them to move in the direction of adopting 
national standards as part of this reauthorization. That is a 
debate you are going to have, and that is what Mr. Finn was 
recommending, some consideration of national standards or an 
encouragement towards a national direction. But if you do not 
do that, you have to understand you will always have a 
discrepancy because of the curriculum matter, but also because 
of the motivation.
    Kids know State tests count because teachers tell them, and 
there is all the pressure that is there to raise the State test 
scores. With NAPE, there is not that pressure, so kids do not 
put in the effort in NAPE that they put into State tests, and 
that is going to have an effect on results also.
    Chairman Kildee. Mr. Finn.
    Mr. Finn. He left out the other big possible explanation 
for this discrepancy, which is that a lot of States have made 
it very easy to pass their State tests. And if you are seeing 
in a given State that the State says 70 percent of its fourth 
graders are proficient and NAPE says 27 percent of its fourth 
graders are proficient in that same subject in that same State, 
it might be because the States made it really easy to be 
defined as ``proficient.''
    This is not necessarily a good thing for the people of that 
State. It might even be termed ``misleading'' for the people in 
that State to be told that their kids are proficient when, by 
national or world standards, they actually are not.
    Mrs. Davis of California. Go ahead.
    Chairman Kildee. The gentleman from Illinois, Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman, and my apologies for not 
being here sooner. If these questions have been asked or 
discussed, I apologize for reasking, but I am very interested 
in this.
    One of the things I have heard universally back in my 
district from educators and from parents are the problems with 
our kids in special ed and the IDEA group. I guess I have a 
question for you, President Straus, and maybe also for you, Mr. 
Jennings, and maybe for the whole panel. And I think probably 
one of the biggest challenges that we have had on this 
committee is, you know, figuring out what to do and how we are 
going to change this and make it work.
    How do we ensure that this group, especially that 2 percent 
that has cognitive abilities, is not left behind and held 
accountable while appropriately being tested? Is the problem 
that we just do not have enough data for the subgroup of 
students? So I am just sort of interested in, from your 
perspective, if you were advising us--which you are--you know, 
what can we do to make this work better for that group of 
students and educators?
    Ms. Straus. Thank you. We are very concerned about that, 
because in Michigan we have special education from birth to age 
26, and we want to keep that. But we also have people moving 
into our State with special needs children because we have a 
good program, so we have a higher percentage than many other 
States, and we think that the limit of 1 percent or 2 percent 
is not fair. It does not work right, and we would like to see 
that change.
    That is one of the recommendations that we have, that 
students with disabilities should be assessed appropriately. We 
do not think they are now. A higher percentage, maybe, than 2 
percent should be allowed if you can justify it and if you can 
really show that you have that many students. So that is one of 
the things that we are concerned about.
    Mr. Jennings. If I could comment on that, too.
    You have hit upon a very sensitive issue, and this is what 
teachers complain about throughout the country, and it is 
hurting No Child Left Behind because they are saying that No 
Child Left Behind, by holding these two groups of students to 
these standards, is making the whole goal not accomplishable. 
And so I would spend a considerable amount of time thinking 
through what you are going to do with these two groups. With 
children who are learning English--but let me start out by 
saying, with both groups, No Child Left Behind has led to much 
greater attention to their academic performance than ever 
before.
    Children who are learning English are getting much greater 
attention in learning English and with academics than before. 
Children with disabilities are getting much greater attention. 
So what we have is a situation where there is a good being 
achieved--namely, these two groups are getting more attention--
but they are being tested inappropriately, and teachers are 
complaining about the inappropriate testing. And so I think you 
are going to have to put much more flexibility in both of those 
areas.
    One possibility with the English-learning students is that 
you combine two objectives--one is learning English, and the 
other is learning academic content--and you take kids who are 
new to the country or who do not know English, and you put most 
of the weight on their learning English. And then as they stay 
in school, you gradually shift the weight towards the academic 
content so you have a combined index. So that by the time you 
have gone several years, they have not only been measured on 
how they have learned English, but they have also been measured 
on the academic content. But you do not measure them on the 
academic content when they do not understand English and, 
therefore, cannot do well on the test. That is one possibility.
    With children with disabilities, we had a meeting of the 
major organizations in Washington on the disability issue, and 
they told us there is no scientific basis for this 1 percent 
rule or this 2 percent rule. These are just numbers that were 
chosen. I think in that area, you are going to have to give 
more flexibility so that individual children are given 
attention, so that there is more attention paid to the 
individual abilities of children to do well on tests, whether 
they should be held to the same standards or whether they 
should be tested the same way, and figure out some way so that 
it is more personalized than it is today.
    Otherwise, what you are going to have with this 1 percent/2 
percent rule are States just putting enough children in to 
amount to 1 percent or amount to 2 percent, and they will be 
called ``2 percent children'' and ``1 percent children.'' they 
are an arbitrary number. You have to pay attention to the 
individual needs of these kids much more, I think.
    Mr. Hare. Dr. Johnson, I was just wondering if you have any 
thoughts beyond any of the other panelists, because I know this 
is very important to me.
    Ms. Johnson. Well, I do think that, including special needs 
and ELL, students have improved significantly the focus--and 
that is an important focus--but I will say that in urban 
districts in particular, the higher number and higher 
percentage of students with special needs usually means that in 
the urban areas, we reach the threshold cutoff, and in some 
smaller districts they do not reach it.
    So it is more likely you will see that urban districts get 
identified more quickly in the way it is set up and not making 
adequate yearly progress for special needs students.
    I know in our county, even though we are not the only 
district in our county, as for the students with special needs, 
particularly the low-incidence population--if they are blind or 
deaf--we serve them all because some of the smaller districts 
cannot.
    What you do not want as an unintended consequence is, you 
do not want districts to refuse or act like they do not want to 
serve these kids because they do not want to be on the list 
when you can have some efficiency in serving deaf children in a 
more concentrated way than if every little district had to do 
that that is in close proximity.
    So I think it is important for you to be very careful about 
the sanctions when these kids deserve a good education, and you 
do not want to incent people not to be accepting of the 
diversity of students' needs that exist in our community.
    Mr. Hare. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kildee. The gentleman from New Jersey, Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman.
    Let's see. President Straus, many educators have called for 
the use of multiple measures to assess school districts and 
schools under No Child Left Behind.
    Can you discuss additional factors that you believe ought 
to be taken into consideration in determining a school's 
effectiveness, in addition to the test currently used?
    Ms. Straus. Thank you very much for that question. We think 
it is not right to measure schools and students based on one 
test on a given day, and we think there are other things that 
should be taken into account.
    In our own accreditation system, we look at what else is 
being taught, what is being taught in the school. Are they 
providing social studies? Are they providing arts? Are they 
looking at other--are they looking at the other subjects that 
are being considered? What is the graduation rate? What is the 
dropout rate? Is there parental involvement? What is the 
relationship with the community?
    All of these things go into measuring a school. When you 
walk into a school, you do not know whether--you can tell 
whether the school is a good school when you walk into it, and 
partly it is because of the parental involvement; it is the 
quality of the teachers; it is all of these things that should 
be taken into account when you are measuring how good a school 
is. And it is not just a given test on a given day.
    Thank you.
    Mr. Payne. Would anyone else like to respond?
    I am trying to think back--and maybe you could think back, 
too--as to how we were assessed. I mean we had regular tests, 
but I do not remember too many of these high-stakes tests in 
the fourth grade or in the sixth grade or--you know, maybe out 
of elementary school, perhaps, or something like that. And all 
of my classmates seemed to have learned--I mean I am excluding 
me, perhaps--but they did well without these high-stakes tests.
    So I think there needs to be--I mean we are all for 
accountability, but it seems that there are other ways to 
measure achievement than that.
    But I just have another quick question for--Dr. Johnson, is 
it? Just rushing through everyone's testimony here quickly, I 
did notice that you talked about flexibility and so forth, and 
you talked about recruitment support, employment of staff in 
high-poverty districts. And this is really something that I 
sound like a broken record with, about the opportunity to 
learn; that youngsters need the opportunity to learn, and they 
are not given the opportunity to learn when they have 
inexperienced teachers. And as we know, the system just tends 
to put good teachers or better teachers into a situation they 
feel is better because that's what, you know, seniority does.
    So do you have any thoughts on how we could have 
incentives, or, to kind of turn that around so that the schools 
in most need do not continually get the least experienced 
teachers?
    Ms. Johnson. Congressman, what we have done in Memphis--and 
I can speak to that--is we have fresh-started, reconstituted, 
12 schools. We negotiated a separate agreement with our 
collective bargaining group so that we could hire people 
totally out of seniority order. We created two incentives, a 
front-end incentive and a back-end incentive.
    The front-end incentive was to give people 2 more weeks of 
pay, but they had to participate in the professional 
development that we design to work in that school, and the 
principal was able to hire anybody whom he wanted to hire. We 
took very careful consideration of who the principal was, 
clearly.
    Then the back-end incentive was if they made progress, they 
could get anywhere from $1,000 to $3,000 in additional 
compensation. Now, this was very targeted, in a pilot way, at 
the schools that were in high priority that we had 
reconstituted.
    I do think incentives matter. I do not think that teachers 
necessarily go into education to necessarily--they have never 
thought about these kinds of reward systems. But I think that 
it is important for us to rethink the connection between 
student performance and giving teachers rewards and 
recognition, especially as it relates to making sure that we 
have teacher induction and mentoring programs. The kind of 
flexibility that I think we are asking for, both in terms of 
transferability and in other ways within the No Child Left 
Behind, would give us the flexibility to spend dollars in ways 
that I think would create incentives and support for teachers 
in the profession.
    Mr. Payne. Thank you. Thank you very much.
    Chairman Kildee. I was talking to Mrs. Biggert here. I will 
maybe throw one more question out here, and all of you can 
answer it.
    I think both Dr. Finn and Jack, you have touched on it and 
talked about it, but NAPE and many or most State tests are 
testing to different standards or to a different curriculum. 
Should we in this reauthorization do some things to encourage 
States to bring their tests so they are testing against a more 
common curriculum or standard?
    We will start with you.
    Mr. Finn. ``Yes, sir'' is the answer.
    The variability in State standards has not led to good 
standards in America. My foundation reviews State academic 
standards approximately every 5 years and, to be perfectly 
honest, most of them are thoroughly mediocre in terms of what 
they actually expect kids to learn. Then you add to that the 
problem of variable State expectations on their own tests, and 
the result is something akin to chaos that a big, modern, 
competitive country should not tolerate. And while I doubt that 
you could or should even create a compulsory national standard 
or test, I think to have a voluntary version that you 
incentivize States to join in with, leaving them the option of 
staying out if they would rather, would be a very, very, very 
important reform in this next round of NCLB.
    Chairman Kildee. Thank you very much.
    Jack, and then I will let the rest of you give your views.
    Mr. Jennings. My view is I do not think we are going to get 
a national curriculum in this country, and I do not think the 
Congress is going to be able to mandate a national curriculum 
or to mandate national standards.
    If you want the States to have higher standards, I think 
you are going to have to make it attractive to them by giving 
them financial incentives or by giving them regulatory relief. 
And you, at a minimum, will have to help them pay for 
rethinking their standards in order to align them with national 
standards, and that is what Senator Kennedy's bill does; that 
is what Senator Dodd's bill does.
    Chairman Kildee. Ms. Johnson.
    Ms. Johnson. Yes.
    Every one of our students will take a college entrance 
exam, either the ACT or the SAT, and if they go to a community 
college, they will take some kind of entrance exam that will 
place them either in a remedial or in a regular English course. 
So I think that from that perspective--that is the perspective 
I come with--not to prepare them to be able to enter college 
and be successful and have some notion that their diploma means 
something is problematic.
    So, while I do not think that I am talking about a national 
curriculum, I do think that a lot of the States--for example, 
when the National Council of Teachers of Mathematics defined 
their standards, a lot of States modified their standards to be 
in alignment with them. And so I think we have to look at these 
things.
    Now, the Council of the Great City Schools has nine 
districts that are testing a larger sampling of NAPE so that 
there are more kids in those urban districts--New York, Boston. 
So I think that supporting some of those pilots where we would 
get a greater sampling, we would be able to do some 
comparability across State lines. But the kids are still going 
to have to get into college or postsecondary education, and 
there are not a lot of hoops that are different for them to get 
there.
    Chairman Kildee. You know, Jack, you were here, I think, in 
my first term that I was here. We established----
    Mr. Jennings. I welcomed you.
    Chairman Kildee [continuing]. The U.S. Department of 
Education, and I think we put language in there actually saying 
that the Federal Government would not establish a national 
curriculum.
    Mr. Jennings. That is correct.
    Chairman Kildee. That language is still in there.
    Mr. Jennings. And it was repeated in the reauthorization 
that is the No Child Left Behind Act. Federal officials cannot 
dictate curriculum at the local level.
    Chairman Kildee. When you set standards, you are kind of 
moving towards touching curriculum, though, are you not?
    Mr. Jennings. What is happening now is we have an extremely 
decentralized system of public education. Almost every other 
industrialized country has a national curriculum or national 
standards, and they can anchor what they do around what is 
being taught. In the absence of a national curriculum or a 
national standard here, we have a fad of the day, local school-
based management or something else, and then we twirl around, 
and we wonder why we do not have increases in achievement. It 
is because we are not paying enough attention to the 
curriculum, to what is being taught, to what should be behind 
the tests.
    If we are not going to have a national curriculum, what is 
happening now with the standards-based reform is that the 
States are gradually moving toward State curriculums. Some 
States are more up front about this than others. In North 
Carolina they are up front about this, that they have a State 
curriculum. In Maryland they have a voluntary State curriculum. 
So States are gradually saying, this is what we expect kids to 
know.
    You are probably best off encouraging States to move in 
that direction because they have enough trouble dealing with 
local school districts, even going in that direction, rather 
than talking about a national curriculum. But if you want more 
uniformity among the States with curriculum, you are going to 
have to do it through some incentive basis.
    Mr. Kildee, can I answer Mr. Payne? Let me leave one word 
or a couple words with you about teachers.
    I know everybody is worried about the quality of teachers 
in the poorest schools and in the schools with the highest 
numbers of children of color. And it is a serious national 
problem, but the tendency of the Congress will be to take one 
little solution and enact it, like a mentoring program for new 
teachers, and think that that is the answer. That is not the 
answer.
    We convened all of the major education organizations that 
deal in this area, and we asked them what should be done with 
this problem. The answer--and it was very strongly supported--
was that it has to be a comprehensive approach, and it really 
should be done from a State level dealing with local school 
districts. And the comprehensive approach should deal with the 
pretraining of teachers so that they know what they are going 
to face when they meet kids who are culturally different. It 
should deal with higher pay for teachers who are going into 
schools that are very challenging. It should deal with 
mentoring programs that are of high quality. It should deal 
with changing the conditions of education for new teachers or 
the conditions of teaching so that they have more time to 
prepare. It should deal with a variety of different things, but 
if you cherry-pick and just do one little program, you are not 
going to add to this solution.
    It has to be a comprehensive approach, dealing with 
everything--conditions of education, pretraining, mentoring, 
pay. It has to be a comprehensive approach, and it has to be 
approached, I think, from the State level, getting beyond 
individual school districts so that they can recruit more 
broadly. But I would hope you would pay a lot of attention to 
this issue, because the quality of teaching frequently 
determines how well kids do in school.
    Chairman Kildee. I want to thank all of you.
    This has been an excellent hearing, a very good hearing, 
and I think we have gotten some solid information, some solid 
views that will help us, and this will become part of the body 
of knowledge that we will use in reauthorizing this bill. So I 
want to thank all of you.
    Again, as previously ordered, members will have 7 
additional days, and any member who wishes to submit follow-up 
questions in writing to the witnesses should coordinate with 
the majority staff within the requisite time.
    Without objection, this hearing is adjourned.
    [Whereupon, at 4:27 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
